APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals for
the Third Circuit (July 26, 2019) ....................... 1a
Opinion of the District Court of New Jersey
(August 21, 2018) ............................................. 19a
Order of the District Court of New Jersey
(August 21, 2018) ............................................. 31a
Opinion of the District Court of New Jersey
(January 19, 2018)............................................ 33a
Order of the District Court of New Jersey
(January 19, 2018)............................................ 55a
Opinion of the District Court of New Jersey
(June 1, 2017) ................................................... 57a
Order of the District Court of New Jersey
(June 1, 2017) ................................................... 86a
Notice of Appeal to the U.S. Court of Appeals for
the Third Circuit (September 18, 2018) .......... 88a
Brief on Behalf of Plaintiff Montville Township
Board of Education in Support of Its Motion
for Reconsideration of This Court’s Order of
June 1, 2017 (June 15, 2017) ........................... 90a
Verified Complaint for Declaratory Relief
(June 21, 2016) ............................................... 109a
Third Amended Complaint
(January 23, 2015).......................................... 123a

APPENDIX TABLE OF CONTENTS (Cont.)
Zurich Insurance Policy,
Relevant Excerpts .......................................... 143a
Letter from James T. Tevis to Linda D’Alessio
(March 6, 2012) ............................................... 164a
Letter from James T. Tevis to Linda D’Alessio
(September 2, 2014)........................................ 165a
Letter from Jarod Holtz, Esq. to Mr. James Tevis
(March 9, 2012) ............................................... 167a
Letter from Alexandra T. Rowe to James T. Tevis
(January 29, 2015).......................................... 169a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT
(JULY 26, 2019)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________________
MONTVILLE TOWNSHIP BOARD OF
EDUCATION,

Appellant,
v.
ZURICH AMERICAN INSURANCE COMPANY,
________________________
No. 18-3073
Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. 2-16-cv-04466)
District Judge: Hon. Kevin McNulty
Before: CHAGARES, GREENAWAY, Jr.,
and GREENBERG, Circuit Judges.
GREENAWAY, Jr., Circuit Judge.
This appeal asks us to consider whether a specific
exclusion provision in an insurance policy relieves an
insurance company of the duty to defend an insured
school district in a separate child abuse lawsuit gen This disposition is not an opinion of the full Court and, pursuant to I.O.P. 5.7, does not constitute binding precedent.

App.2a
erally alleging that the school district knew about its
former employee’s sexual abuse of students. Like the
District Court, we conclude that the insurance company does not have a duty to defend the school district
because the allegations made in the other lawsuit
plainly fall within the exclusion provision. Accordingly, we will affirm the District Court’s appealed summary judgment order.
I. BACKGROUND
A.

Factual Origins

Appellant Montville Township Board of Education
(“Montville”) hired Jason Fennes (“Fennes”) as a firstgrade teacher and track coach in September 1998. After
several reports and investigations of his alleged
sexual abuse against students, Fennes resigned in
June 2010. Months later, in September 2010, Cedar
Hill Prep School (“Cedar Hill”) hired him as a teacher.
In March 2012, while still employed by Cedar Hill,
Fennes was arrested and indicted on charges of sexually
abusing a number of Montville students between 2005
and 2008 and a Cedar Hill student between 2010 and
2011.
In August 2012, a student at Cedar Hill (“Child
M”) sued Fennes and Cedar Hill for injuries resulting
from Fennes’s sexually abusing her in February 2012.
In her third amended complaint (“Complaint”) filed
in January 2015, Child M added Montville as a
defendant, specifically alleging that the school district
knew about Fennes’s sexual abuse, failed to notify
the authorities, and agreed to withhold Fennes’s history
of sexual abuse from his prospective employers. The
lawsuit (“Child M Action”) thus claimed that Montville

App.3a
enabled and facilitated Fennes’s sexual abuse at Cedar
Hill.
During the relevant time, Montville held an
insurance policy (“Policy”) with Appellee Zurich
American Insurance Co. (“Zurich”). The Child M Action
potentially implicates two coverage parts of the Policy:
while the first (“Commercial General Liability Part”)
generally excludes coverage for “bodily injury. . .
arising out of or relating in any way to an abusive
act,” App. 155 (internal quotation marks omitted),
the second (“Abusive Acts Part”)—the only part at
issue in this appeal—obligates Zurich to defend Montville against any lawsuit for “loss because of injury
resulting from an abusive act to which th[e] [Policy]
applies,” id. at 173 (internal quotation marks omitted).
The latter part defines “loss” as generally comprising
“those sums that the insured is legally obligated to
pay as damages” and “injury” as meaning “physical
injury, sickness, disease, mental anguish, mental
injury, shock[,] fright[,] or death of the person(s) who
is the subject of an abusive act.” Id. at 177 (internal quotation marks omitted). Further, it defines an “abusive
act” as being:
[A]ny act or series of acts of actual or threatened abuse or molestation done to any person, resulting in injury to that person, including any act or series of acts of actual or
threatened sexual abuse or molestation
done to any person, resulting in injury to that
person, by anyone who causes or attempts to
cause the person to engage in a sexual act:
(a) Without the consent of or by threatening
the person, placing the person in fear[,] or
asserting undue influence over the person;

App.4a
(b) If that person is incapable of appraising the
nature of the conduct or is physically incapable of declining participation in or communicating unwillingness to engage in the sexual
act; or
(c) By engaging in or attempting to engage in
lewd exposure of the body done with intent
to arouse or to satisfy the sexual desire of any
person.

Id. (internal quotation marks omitted).
But the Abusive Acts Part also includes an exclusion (“Prior Known Acts Exclusion”) of its own.
Under that exclusion, there is no coverage under the
Abusive Acts Part of the Policy for “[a]ny claim or
suit based upon, arising out of[,] or attributable, in
whole or in part, to any abusive act of which any
insured, other than any insured actually committing
the abusive act, has knowledge prior to the effective
date” of the Policy. Id. at 174 (internal quotation marks
omitted). As pertinent here, the Policy took effect in
July 2011.
Approximately a week after Child M filed the
Complaint, Zurich sent Montville a letter disclaiming
coverage and reserving its rights under the Policy.
According to Zurich, it had no obligation to defend
Montville under either part of the Policy. As to the
Commercial General Liability Part, Zurich determined
that Child M’s bodily injury arose from Fennes’s abusive
acts, thereby excluding coverage. As to the Abusive
Acts Part, Zurich concluded that the allegations in
the Complaint brought the Child M Action within the
Prior Known Acts Exclusion, therefore also barring
coverage.

App.5a
B.

Procedural History

In June 2016, Montville thus brought the instant
lawsuit. Originally, the case took the form of an order
to show cause in New Jersey state court, seeking a
declaration that Zurich owed Montville a duty to defend
it in the Child M Action. But Zurich removed this
case to the District Court on the basis of diversity
jurisdiction.
Before the District Court, the parties agreed to
trifurcate the case, with the duty to defend up first
for determination. Both parties eventually filed crossmotions for summary judgment on the issue. In a
thorough and well-reasoned opinion, the District Court
ruled in Zurich’s favor, holding that it did not have a
duty to defend Montville in the Child M Action.
Following the parties’ lead, that opinion focused its
analysis on the Commercial General Liability Part of
the Policy. In particular, the opinion determined that
the injuries alleged in the Complaint arose out of
abusive acts, rendering coverage excluded under the
plain language of the Commercial General Liability
Part.
Mere weeks later, however, Montville apparently
changed its approach. In a motion for reconsideration,
Montville argued that it is entitled to coverage under
the Abusive Acts Part instead of the Commercial
General Liability Part. Out of an abundance of caution,
the District Court granted Montville’s motion. In so
doing, the District Court clarified that it would construe
its prior summary judgment opinion as being a
partial grant of summary judgment on the issue of
Zurich’s duty to defend under the Commercial General
Liability Part. Further, the District Court granted
the parties permission to file second partial summary

App.6a
judgment motions, this time on the issue of Zurich’s
duty to defend under the Abusive Acts Part.
Soon, the parties filed their cross-motions for
partial summary judgment on coverage under the
Abusive Acts Part. In another well-crafted opinion,
the District Court again ruled for Zurich. First, the
District Court determined, as the parties agreed, that
the injuries alleged in the Child M Action resulted from
an abusive act, thereby falling within the general
ambit of the Abusive Acts Part. Second, however, the
District Court concluded that the Prior Known Acts
Exclusion negated Zurich’s duty to defend because
Child M explicitly alleged in the Complaint that Montville was on notice of abusive acts by Fennes before
the Policy’s effective date.
Montville now appeals the District Court’s second
partial summary judgment ruling. Importantly,
Montville does not also appeal the first partial summary
judgment ruling. This appeal is therefore limited to
the question of whether the Policy’s Abusive Acts
Part—not its Commercial General Liability Part—
obligates Zurich to defend Montville in the Child M
Action.
II. JURISDICTION
The District Court had jurisdiction over this case
under 28 U.S.C. § 1332. We have jurisdiction over
this appeal under 28 U.S.C. § 1291.
III. STANDARD OF REVIEW
We exercise plenary review over a district court’s
order granting summary judgment. Santini v. Fuentes,
795 F.3d 410, 416 (3d Cir. 2015). Here, in conducting

App.7a
such a plenary review of the District Court’s second
partial summary judgment ruling, we must construe
all evidence in the light most favorable to Montville.
See id. In doing so, summary judgment is appropriate
only if there is “no genuine dispute as to any material
fact and [Zurich] is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a). A fact is “material” if its
existence or nonexistence “might affect the outcome
of the suit under the governing law.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). A dispute
of material fact is “genuine” if “a reasonable jury
could return a verdict for [Montville].” Id. Zurich
here bears the burden of identifying specific portions
of the record that establish the absence of a genuine
dispute of material fact. See Santini, 795 F.3d at 416.
Accordingly, the District Court’s summary judgment
order is proper only if, construing the evidence in the
light most favorable to Montville, we conclude that
there is no genuine dispute of material fact and Zurich
is due judgment as a matter of law. See id.
IV. DISCUSSION
On appeal, Montville asserts two arguments. First,
Montville contends that the Complaint is rife with
ambiguity, precluding its allegations from definitively
falling within the ambit of the Prior Known Acts
Exclusion. Second, Montville avers that the District
Court violated prevailing law by ignoring evidence
extrinsic to the Complaint that purportedly indicates
that Montville did not know about Fennes’s prior
abusive acts. But both arguments are unavailing. We
will therefore affirm the District Court’s appealed
summary judgment decision.

App.8a
A.

Relevant Law

As a federal court reviewing a case grounded on
diversity jurisdiction, we are “required to apply the
substantive law of the state whose laws govern the
action.” Robertson v. Allied Signal, 914 F.2d 360, 378
(3d Cir. 1990). Here, both parties agree that New
Jersey substantive law applies to this dispute. Under
Erie R. Co. v. Tompkins, 304 U.S. 64, 78 (1938), our
task is thus to predict how the Supreme Court of New
Jersey would rule if it were deciding this case. See
Norfolk S. Ry. Co. v. Basell USA Inc., 512 F.3d 86, 92
(3d Cir. 2008). We therefore begin our analysis by
reviewing New Jersey legal principles relevant to (1)
the duty to defend and (2) insurance policy exclusions.
1. Duty to Defend
In New Jersey, the “duty to defend comes into
being when the complaint states a claim constituting
a risk insured against.” Voorhees v. Preferred Mut.
Ins. Co., 607 A.2d 1255, 1259 (N.J. 1992) (citation
omitted). “Whether an insurer has a duty to defend is
determined by comparing the allegations in the complaint with the language of the policy. When the two
correspond, the duty to defend arises, irrespective of
the claim’s actual merit.” Id.
“That the claims are poorly developed and almost
sure to fail is irrelevant to the insurance company’s
initial duty to defend.” Id. That is, the duty to defend
“is not abrogated by the fact that the cause of action
stated cannot be maintained against the insured either
in law or in fact—in other words, because the cause is
groundless, false or fraudulent.” Id. (citation omitted).
Instead, “[l]iability of the insured to the plaintiff is
not the criterion; it is the allegation in the complaint

App.9a
of a cause of action which, if sustained, will impose a
liability covered by the policy.” Id. (citation omitted).
“As a practical matter, the determination of an
insurer’s duty to defend requires review of the complaint
with liberality to ascertain whether the insurer will
be obligated to indemnify the insured ‘if the allegations
are sustained.’” Abouzaid v. Mansard Gardens Assocs.,
LLC, 23 A.3d 338, 346 (N.J. 2011) (citation omitted).
“[I]f ‘the complaint comprehends an injury which may
be within the policy,’ a duty to defend will be found.”
Id. (citation omitted). Put another way, “[i]f the complaint is ambiguous, doubts should be resolved in
favor of the insured and thus in favor of coverage.”
Voorhees, 607 A.2d at 1259.
“Although courts generally look to the complaint
to ascertain the duty to defend, the analysis is not
necessarily limited to the facts asserted in the complaint.” Abouzaid, 23 A.3d at 347 (citations omitted).
“Thus, for example, an insurer’s duty to provide a
defense may also be triggered by ‘facts indicating
potential coverage that arise during the resolution of
the underlying dispute.’” Id. (quoting SL Indus. v.
Am. Motorists Ins. Co., 607 A.2d 1266, 1272 (N.J.
1992)). “That notion is said to align with the expectations of insureds, who ‘expect their coverage and
defense benefits to be determined by the nature of
the claim against them, not by the fortuity of how the
plaintiff, a third party, chooses to phrase the complaint
against the insured.’” Id. (quoting SL Indus., 607
A.2d at 1272). That said, “the insurer has no duty to
investigate possible ramifications of the underlying
suit that could trigger coverage.” SL Indus., 607 A.2d
at 1272.

App.10a
2. Insurance Policy Exclusions
“Exclusionary clauses are presumptively valid
and are enforced if they are ‘specific, plain, clear, prominent, and not contrary to public policy.’” Flomerfelt
v. Cardiello, 997 A.2d 991, 996 (N.J. 2010) (citations
omitted). “If the words used in an exclusionary clause
are clear and unambiguous, ‘a court should not engage
in a strained construction to support the imposition
of liability.’” Id. (citations omitted).
“[I]n general, insurance policy exclusions must be
narrowly construed; the burden is on the insurer to
bring the case within the exclusion.” Id. at 996–97
(citation omitted). “As a result, exclusions are ordinarily
strictly construed against the insurer, and if there is
more than one possible interpretation of the language,
courts apply the meaning that supports coverage rather
than the one that limits it.” Id. at 997 (citation omitted).
“Nonetheless, courts must be careful not to disregard the ‘clear import and intent’ of a policy’s
exclusion.” Id. (citation omitted). As a result, not all
“far-fetched interpretation[s] of a policy exclusion
[are] sufficient to create an ambiguity requiring
coverage.” Id. (citation omitted). “Rather, courts must
evaluate whether, utilizing a ‘fair interpretation’ of
the language, it is ambiguous.” Id. (citation omitted).
B.

Analysis

Armed with these legal principles, we now apply
them to the facts of this case. In doing so, we individually assess each of Montville’s two arguments on
appeal: (1) that the Complaint is ambiguous enough
that Child M’s allegations do not definitively fall
within the Prior Known Acts Exclusion and (2) that

App.11a
the extrinsic evidence in the Child M Action indicates
that Montville did not know about Fennes’s abusive
acts before the Policy’s effective date. For the reasons
that follow, we reject each of these arguments.
1. Ambiguity
Under New Jersey law, the crux of our analysis
turns on whether the allegations in the Complaint
correspond with the relevant language of the Policy.
Voorhees, 607 A.2d at 1259. Montville accepts that
but still contends that the Complaint’s allegations
are so ambiguous that we cannot conclusively deem
them aligned with the language of the Prior Known
Acts Exclusion. We, however, disagree because there
is no ambiguity in the plain language of the Complaint
when considered as a whole.
As an initial matter, Montville acknowledges that
Child M makes the following allegations in the Complaint:
(1) Fennes, while employed by [Montville], “engaged in various negligent, careless, reckless[,]
and/or intentional conduct, including but
not limited to inappropriate abusive and/or
sexual conduct with his infant students” and
[Montville] was “on notice of said conduct.”
(2) [Montville] was “on notice” “of said reckless
and/or intentional conduct, including child
abuse, both sexual and nonsexual” so as to
trigger a requirement to report. . . . ”
(3) [A]s a result of the “negligence, carelessness,
recklessness[,] and/or intentional conduct” of
the defendants [in the Child M Action], Child
M suffered “injuries.”

App.12a
(4) Fennes “engaged in various acts of sexual
molestation and/or child abuse against other
infant students.”
(5) [Montville] was “on notice of said conduct.”
(6) Fennes “engaged in various acts of sexual
molestation and/or child abuse against . . . his
infant students.”
Appellant’s Br. 17–18 (citations and footnotes omitted).
Montville’s only argument in attempting to elude
operation of the Prior Known Acts Exclusion is that
Child M’s use of terms like “abusive” is “vague,
undefined, and subject to multiple interpretations,”
as the Complaint lacks an “enumeration of specific
abusive acts.” Id. at 18. For example, Montville posits
that the Complaint could be read as simply alleging
that Montville only knew Fennes had students sit on
his lap in a platonic manner, presumably outside the
ambit of the Prior Known Acts Exclusion. This purported ambiguity, as Montville sees it, demands
interpretation in its favor. But the District Court
rejected this argument and so do we.
A plain reading of the allegations in the Complaint
unequivocally brings them within the ambit of the
Prior Known Acts Exclusion. That exclusion, as
discussed previously, relieves Zurich of the duty to
defend only if the Child M Action (1) is attributable,
even in part, (2) to abusive acts (3) about which
Montville had knowledge (4) prior to July 2011. See
App. 174. Montville either concedes or does not contest
the first, third, and fourth elements of the exclusion.
See Appellant’s Br. 18 (quoting allegations from the
Complaint that “as a result of the ‘negligence, carelessness, recklessness[,] and/or intentional conduct’ of

App.13a
[Montville], Child M suffered ‘injuries’” and that Montville was “‘on notice’ ‘of said reckless and/or intentional
conduct, including child abuse, both sexual and nonsexual’” (citations omitted)); App. 102–04 (the Complaint’s stating that Fennes was a “known pedophile
and child molester” and that Montville, “while on
notice of said conduct [by September 2010 at the
latest], . . . purposefully caused said acts to be concealed
from potential future employers of [Fennes], including
Cedar Hill”).
At this stage, the only question is thus whether
Child M’s allegations of “abuse,” e.g., id. at 101, rise
to the level of “abusive act[s]” as defined in the
Policy, id. at 177. Indeed, they do.
As recounted previously, the Abusive Acts Part
defines an “abusive act” as being, as relevant here, “any
act . . . of actual . . . abuse or molestation done to any
person, resulting in ‘injury’ to that person, including
any act . . . of actual . . . sexual abuse or molestation . . . , by anyone who causes or attempts to
cause the person to engage in a sexual act . . . if that
person is incapable of appraising the nature of the
conduct or is physically incapable of declining
participation in or communicating unwillingness to
engage in the sexual act.” Id. Child M’s allegations
squarely fit this definition.1
1 Indeed, the allegations must fit the definition of “abusive act”
for us to even get to this point of the analysis. Id. That is because,
for us to even assess whether the Prior Known Acts Exclusion
relieves Zurich of the duty to defend, we must first determine
that the Abusive Acts Part as a whole applies. Montville, of course,
does not contest that the Abusive Acts Part applies—and for
good reason: if it does not apply at all, Zurich is not obligated to
defend Montville. Critically, the Abusive Acts Part and the

App.14a
Even if, as Montville now avers, “abus[e]” on its
own is somehow vague, Appellant’s Br. 17, all of the
allegations in the Complaint taken together unambiguously bring Fennes’s alleged conduct within the
Policy’s definition of “abusive act[s],” App. 177.
Elsewhere in the Complaint, Child M alleges that
Montville knew about Fennes’s “inappropriate abusive
and/or sexual conduct,” “child abuse, both sexual and
nonsexual,” and “various acts of sexual molestation
and/or child abuse against . . . infant students” and
that this conduct caused her “severe personal injuries,”
including “great pain.” Id. at 100–04. Of course, at
the risk of stating the obvious, an “infant,” id. at 101,
cannot reasonably “apprais[e] the nature” of sexual
abuse or molestation, id. at 177. Further, the allegation
that Fennes committed “child abuse” of a “sexual”
nature cannot be reasonably construed to simply mean
that Fennes had children sit on his lap in a platonic
manner, as Montville suggests. Id. at 100. On the
whole, then, the Complaint’s plain terms match the
Policy’s definition of an “abusive act” almost verbatim.
Id. at 177. Because there is no ambiguity, there is no
doubt to resolve in Montville’s favor.
Accepting Montville’s position would force us to
run afoul of New Jersey law in two respects. First, it
Prior Known Acts Exclusion within it operate using the same
definition of “abusive act.” Id. Thus, if the Complaint’s allegations
of Fennes’s conduct do not rise to the level of being “abusive
act[s]” within the Prior Known Acts Exclusion, they also do not fall
within the Abusive Acts Part in general. Id. Put simply, as they
relate to Fennes’s conduct, either Child M’s allegations are such
that both the Abusive Acts Part and the Prior Known Acts
Exclusion apply or neither applies. Either way, the result is the
same: Zurich is not obligated to defend Montville in the Child M
Action.

App.15a
would require us to torture straightforward language
to find ambiguity where it does not exist. That, the
Supreme Court of New Jersey tells us, we are not to
do. See Longobardi v. Chubb Ins. Co. of N.J., 582 A.2d
1257, 1260 (N.J. 1990) (“[T]he words of an insurance
policy should be given their ordinary meaning, and in
the absence of an ambiguity, a court should not
engage in a strained construction to support the
imposition of liability.”).
Second, Montville would have us overlook and
replace an important qualifier in the relevant legal
standard. The Supreme Court of New Jersey instructs
courts, when determining an insurer’s duty to defend,
to “review . . . the complaint with liberality.” Abouzaid,
23 A.3d at 346 (emphasis added). But Montville would
have us do the very opposite. At oral argument, its
counsel urged, in various forms, that the Complaint
is flawed in that its allegations are “with[out] specificity.” Oral Arg. Audio at 14:08–14:10. That, however,
is not the standard. Notably, Montville has not produced any case law in support of imputing its concocted
qualifier. Since we are charged here with faithfully
making an Erie prediction, we refuse to adopt Montville’s position, which contradicts core principles of
New Jersey’s duty to defend analysis. As a result, we
hold that Child M’s allegations in the Complaint
plainly fall within the ambit of the Prior Known Acts
Exclusion.
2. Extrinsic Evidence
Seemingly anticipating this writing on the wall,
Montville raises another argument on appeal. In particular, it contends that the District Court violated
New Jersey law by ignoring extrinsic evidence—that

App.16a
which emerged over the course of litigating the Child
M Action, outside the four corners of the Complaint—
which purportedly demonstrates that Montville did
not know about Fennes’s prior abusive acts. Montville
obsesses over the fact that the District Court’s second
partial summary judgment ruling “failed to analyze,
distinguish, or even acknowledge” SL Industries, which
allows courts to consider such extrinsic evidence.
Appellant’s Br. 4. But a deeper study of the record
reveals why the District Court did not mention the
case—and, more importantly, why Montville’s argument
is dead on arrival now.
That is because Montville entirely failed to raise
this argument in its second partial summary judgment
motion before the District Court. That motion focused
exclusively on comparing the “allegations contained
in [the] Complaint” with the “[p]lain [l]anguage” of
the Prior Known Acts Exclusion. Pl.’s Cross-Mot. for
Summ. J. Br. 9–10, ECF No. 44-1, in Montville v.
Zurich, No. 2-16-cv-04466 (D.N.J. filed Feb. 20, 2018).
Curiously, the motion is wholly silent on extrinsic evidence and does not “even acknowledge” SL Industries.
Appellant’s Br. 4. It is no wonder, then, that the District Court also did not discuss extrinsic evidence or
the case on which Montville now fixates.
At this stage, Montville’s failure to raise this
argument before the District Court renders it waived,
as we have “consistently held that [we] will not consider
issues that are raised for the first time on appeal.”
Harris v. City of Phila., 35 F.3d 840, 845 (3d Cir.
1994) (collecting cases); see Garza v. Citigroup Inc.,
881 F.3d 277, 284 (3d Cir. 2018) (“It is well established
that arguments not raised before the District Court
are waived on appeal.” (quoting DIRECTV, Inc. v.

App.17a

Seijas, 508 F.3d 123, 125 n.1 (3d Cir. 2007), and
citing John Wyeth & Bro. Ltd. v. CIGNA Int’l Corp.,

119 F.3d 1070, 1076 n.6 (3d Cir. 1997))). We therefore
need not discuss the merits of Montville’s extrinsic
evidence argument.
In any event, we note that, even if we were to
decide this argument on its merits, Montville has
essentially conceded it in Zurich’s favor. The Supreme
Court of New Jersey informs us that the rationale
behind turning to extrinsic evidence is “to align with
the expectations of insureds, who ‘expect their coverage
and defense benefits to be determined by the nature
of the claim against them.’” Abouzaid, 23 A.3d at 347
(quoting SL Indus., 607 A.2d at 1272). When asked
at oral argument whether “the nature of Child M’s
claims against [Montville] are generally that [it]
knew about Fennes’s . . . sexual molestation and abuse
of students while he worked for [it],” Montville’s
counsel emphatically agreed. Oral Arg. Audio at 0:58–
1:18. By conceding this portrayal of Child M’s allegations, which fall undoubtedly within the Prior Known
Acts Exclusion, Montville is left with only one reasonable expectation: that Zurich is not obligated to
defend it in the Child M Action. Even if we were to
turn to extrinsic evidence, our resolution of this
coverage dispute would have to align with that
expectation. Our outcome would thus be no different.

App.18a
V. CONCLUSION
For the foregoing reasons, we rule that the
allegations of the Complaint fall within the ambit of
the Policy’s Prior Known Acts Exclusion, thereby
relieving Zurich of the duty to defend Montville in
the Child M Action. We will hence affirm the District
Court’s appealed summary judgment order.

App.19a
OPINION OF THE
DISTRICT COURT OF NEW JERSEY
(AUGUST 21, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
MONTVILLE TOWNSHIP
BOARD OF EDUCATION,

Plaintiff,
v.
ZURICH AMERICAN INSURANCE CO.,

Defendant.

________________________

No. 2:16-cv-4466-KM-MAH
Before: Kevin MCNULTY,
United States District Judge.
KEVIN MCNULTY, U.S.D.J.:
Now before the court are cross-motions for summary judgment by Montville Township Board of Education (“Montville”) and its insurer, Zurich American
Insurance Co. (“Zurich”). Montville has been sued in
state court by Child M. Child M alleges that
Montville employed Jason Fennes for twelve years,
knew about sexual misconduct by Fennes, failed to
notify authorities, and agreed not to tell potential
future employers about that conduct to induce Fennes
to resign. After he resigned from Montville in 2010,

App.20a
Fennes began working for Cedar Hill Prep, where he
allegedly sexually molested several students, including
Child M. Child M claims that Montville’s silence
enabled and facilitated Fennes’s abuse of her at Cedar
Hill Prep.
Montville initially argued that Zurich was
obligated to defend it against Child M’s allegations
under its General Commercial Liability (“GCL”) policy.
Zurich declined because the GCL policy excludes
coverage of claims “arising from” or “relating in any
way” to “abusive acts.” In a prior opinion, I found
that Zurich did not have a duty to defend Montville
under the GCL policy. (ECF No. 22). Montville moved
for reconsideration, which I denied. (ECF No. 37).
Montville’s motion for reconsideration also
asserted, for the first time, the argument that Zurich
had a duty to defend under the Abusive Acts (“AA”)
provision of their policy. Montville insists that this
provision has been in issue throughout the litigation,
despite its previous statements to the contrary. I was
reluctant to permit a school district to sacrifice
rightful coverage based on a possible strategic misstep,
but equally reluctant to decide an issue as to which
Zurich had not been given a fair opportunity to respond.
I therefore authorized Montville to file a new motion
asserting that Zurich has a duty to defend it under
the AA policy. (ECF No. 37). Zurich’s duty to defend
under the AA policy is thus addressed in these crossmotions for the first time.
I.

Legal standards

Federal Rule of Civil Procedure 56(a) provides
that summary judgment should be granted “if the
movant shows that there is no genuine dispute as to

App.21a
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a); see
also Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (1986); Kreschollek v. S. Stevedoring Co., 223
F.3d 202, 204 (3d Cir. 2000). In deciding a motion for
summary judgment, a court must construe all facts
and inferences in the light most favorable to the
nonmoving party. See Boyle v. County of Allegheny
Pennsylvania, 139 F.3d 386, 393 (3d Cir. 1998). The
moving party bears the burden of establishing that
no genuine issue of material fact remains. See Celotex
Corp. v. Catrett, 477 U.S. 317, 322-23 (1986). “[W]ith
respect to an issue on which the nonmoving party bears
the burden of proof . . . the burden on the moving
party may be discharged by ‘showing’—that is, pointing
out to the district court—that there is an absence of
evidence to support the nonmoving party’s case.” Id.
at 325.
Once the moving party has met that threshold
burden, the non-moving party “must do more than
simply show that there is some metaphysical doubt
as to material facts.” Matsushita Elec. Indus. Co.,
Ltd. v. Zenith Radio Corp., 475 U.S. 574 (1986). The
opposing party must present actual evidence that
creates a genuine issue as to a material fact for trial.
Anderson, 477 U.S. at 248; see also Fed. R. Civ. P.
56(c) (setting forth types of evidence on which
nonmoving party must rely to support its assertion
that genuine issues of material fact exist). “[U]nsupported allegations . . . and pleadings are insufficient
to repel summary judgment.” Schoch v. First Fid.
Bancorporation, 912 F.2d 654, 657 (3d Cir. 1990). If
the nonmoving party has failed “to make a showing
sufficient to establish the existence of an element

App.22a
essential to that party’s case, and on which that
party will bear the burden of proof at trial, . . . there
can be ‘no genuine issue of material fact,’ since a
complete failure of proof concerning an essential
element of the nonmoving party’s case necessarily
renders all other facts immaterial.” Katz v. Aetna
Cas. & Sur. Co., 972 F.2d 53, 55 (3d Cir. 1992) (quoting
Celotex, 477 U.S. at 322-23).
When the parties file cross-motions for summary
judgment, the governing standard “does not change.”
Clevenger v. First Option Health Plan of N.J., 208 F.
Supp. 2d 463, 468-69 (D.N.J. 2002) (citing Weissman
v. U.S.P.S., 19 F. Supp. 2d 254, 259 (D.N.J. 1998)).
The court must consider the motions independently,
in accordance with the principles outlined above.
Goldwell of N.J., Inc. v. KPSS, Inc., 622 F. Supp. 2d
168, 184 (D.N.J. 2009). That one of the cross-motions
is denied does not imply that the other must be granted.
For each motion, “the court construes facts and draws
inferences in favor of the party against whom the
motion under consideration is made” but does not
“weigh the evidence or make credibility determinations”
because “these tasks are left to the fact-finder.”
Pichler v. UNITE, 542 F.3d 380, 386 (3d Cir. 2008)
(internal quotations and citations omitted). Nonetheless, when material underlying facts are not in
dispute, summary judgment is appropriate to dispose of
insurance-coverage questions. McMillan v. State
Mut. Life Assur. Co., 922 F.2d 1073, 1074 (3d Cir. 1990).
II.

Discussion

Zurich does not have a duty to defend Montville
from Child M’s claims under the AA policy. The Prior
Known Acts exclusion to the AA policy denies coverage

App.23a
for claims arising from “abusive acts” when the insured
knew about the “abusive acts” prior to the policy’s
effective date.1 Child M’s complaint sufficiently
alleges that Montville knew that Fennes had engaged
in “abusive acts” during his tenure at Montville.
Montville’s liability is alleged to arise from, or to be
attributable to, in whole or in part, its knowledge of
those earlier abusive acts. Allegations, of course, are
not proof, but in general the duty to defend is triggered
by the nature of the allegations. Because prior known
acts are alleged, the Prior Known Acts exclusion negates
Zurich’s duty to defend under the AA policy.
Where ambiguities exist in a complaint, policy,
or exclusionary clause, those ambiguities are resolved
in favor of insurance coverage. However, if a
straightforward reading of the complaint and policy,
including exclusions, denies coverage, the court will
apply the clear meaning of the text. The court will
not engage in a strained construction or indulge a
far-fetched interpretation of a policy to find coverage.
For Zurich to have a duty to defend, the court must
find that (1) Child M’s allegations activate the AA
policy coverage for suits arising from “abusive acts”
and that (2) the Prior Known Acts exclusion does not
negate that coverage under the circumstances of this
case. Subsection II.A outlines the well-established
1 Some confusion has resulted from the use of shorthand terms.
When I say “arising from” abusive acts, I mean to incorporate
the broad definition of the policy exclusion: “Any claim or ‘suit’
based upon, arising out of or attributable, in whole or in part, to
any ‘abusive act’ of which any insured, other than the insured
actually committing the ‘abusive act’, has knowledge prior to
the effective date of this Coverage Part.” (ECF No. 14-5, ex. C, p.
66-67 (emphasis added)).

App.24a
principles that guide the duty-to-defend analysis.
Subsection II.B discusses the applicability of the AA
policy to Child M’s allegations. Subsection II.B addresses the Prior Known Acts exclusion to the AA policy.
A. Duty-to-Defend Principles
The duty-to-defend analysis is guided by wellestablished principles:
“[T]he duty to defend comes into being when
the complaint states a claim constituting a
risk insured against.” Whether an insurer
has a duty to defend is determined by
comparing the allegations in the complaint
with the language of the policy. When the
two correspond, the duty to defend arises,
irrespective of the claim’s actual merit. If
the complaint is ambiguous, doubts should
be resolved in favor of the insured and thus
in favor of coverage. When multiple alternative causes of action are stated, the duty to
defend will continue until every covered
claim is eliminated.

Voorhees v. Preferred Mut. Ins., Co., 607 A.2d 1255,
1259 (N.J. 1992) (internal citations omitted).

Policy exclusions, which limit the scope of coverage
provisions, are governed by the following interpretive
principles:
Exclusionary clauses are presumptively valid
and are enforced if they are “specific, plain,
clear, prominent, and not contrary to public
policy.” If the words used in an exclusionary
clause are clear and unambiguous, “a court

App.25a
should not engage in a strained construction
to support the imposition of liability.”
We have observed that “[i]n general, insurance policy exclusions must be narrowly
construed; the burden is on the insurer to
bring the case within the exclusion.” As a
result, exclusions are ordinarily strictly
construed against the insurer, and if there
is more than one possible interpretation of
the language, courts apply the meaning that
supports coverage rather than the one that
limits it[.]
Nonetheless, courts must be careful not to
disregard the “clear import and intent” of a
policy’s exclusion, and we do not suggest
that “any far-fetched interpretation of a
policy exclusion will be sufficient to create
an ambiguity requiring coverage[.]” Rather,
courts must evaluate whether, utilizing a
“fair interpretation” of the language, it is
ambiguous.

Flomerfelt v. Cardiello, 997 A.2d 991, 996-97 (N.J.

2010) (internal citations omitted).
B. Abusive Acts Coverage

The AA policy states that that Zurich “will pay
‘loss’ because of ‘injury’ resulting from an ‘abusive
act’ to which this insurance applies.” (ECF No. 14-5, ex.
C, p. 67). The parties agree that Child M’s allegations
involve an injury resulting from an “abusive act.”
Montville posits that “Child M’s allegations fall
within the scope of the Abusive Act Coverage Part,
which explicitly provides insurance for loss because

App.26a
of an injury resulting from an abusive act. It is
undisputed that Child M alleges that she suffered
injury at the hands of Fennes.” (ECF No. 44-1, p. 9).
Zurich, in response, does not really dispute the scope
of the Abusive Act Coverage (but cites the Prior Known
Acts exclusion, discussed below). (ECF No. 42-1, p.
12).
I agree that Child M’s allegations fall within the
ambit of the AA coverage. The policy defines an
“abusive act” as follows:
“Abusive act” means any act or series of acts
of actual or threatened abuse or molestation
done to any person, including any act or series
of acts of actual or threatened sexual abuse
or molestation done to any person, resulting
in “injury” to that person, by anyone who
causes or attempts to cause the person to
engage in a sexual act:
a.

Without the consent of or by threatening
the person, placing the person in fear or
asserting undue influence over the person;

b.

If that person is incapable of appraising
the nature of the conduct or is physically
incapable of declining participation in or
communicating unwillingness to engage in
the sexual act; or

c.

By engaging in or attempting to engage in
lewd exposure of the body done with intent
to arouse or to satisfy the sexual desire of
any person.

(ECF No. 14-5, ex. C, p. 71).

App.27a
Child M clearly alleges that she was subject to
“abusive acts” by Fennes at Cedar Hill Prep and
suffered an injury. The complaint alleges that Fennes
“sexually assaulted, inappropriately touched, and
otherwise abused” Child M at Cedar Hill Prep. (ECF
No. 14-4, p. 20-21). Child M’s suit therefore arises from
allegations of “abusive acts” that were allegedly
enabled by Montville’s failure to report Fennes’s sexual
misconduct at Montville, resulting in his being hired
by Cedar Hill.
C. Prior Known Acts Exclusion
The Prior Known Acts exclusion, however, negates
Zurich’s duty to defend Montville under the AA policy.
The Prior Known Acts exclusion provides that there
is no coverage under the AA policy for [a]ny claim or
‘suit’ based upon, arising out of or attributable, in
whole or in part, to any ‘abusive act’ of which any
insured, other than the insured actually committing
the ‘abusive act’, has knowledge prior to the effective
date of this Coverage Part.” (ECF No. 14-5, ex. C, p.
66-67). The “effective date” of the abusive acts coverage
part, all agree, is July 1, 2011.
The complaint clearly alleges that Fennes engaged
in sexual misconduct before July 1, 2011, while he
worked at Montville. Montville argues, however, that
these were not prior known acts for purposes of the
exclusion. Child M’s complaint, says Montville, “does
not allege with specificity that the Board had knowledge
of any information which would clearly meet the
definition of an ‘abusive act’ as used in the Abusive
Act Coverage Part” prior to July 1, 2011. (ECF No. 441, p. 10).

App.28a
This argument is unavailing. Child M’s complaint
alleges that Montville “was on notice of Fennes’s
“inappropriate abusive and/or sexual conduct with his
infant students” and “failed to report . . . to the appropriate administrative agencies, local, county and
state authorities as well as potential employers
including Cedar Hill Prep.” (ECF No. 14-4, ex. B,
Count 9, ¶¶ 2-4). The complaint further alleges that
Fennes, while an employee of Montville, “engaged in
various acts of sexual molestation and/or child abuse
against other infant students.” (Id. Count 10, ¶ 3). It
asserts that Montville “controlled the hiring, retention,
supervision and cover-up on the heinous acts of
molestation perpetrated by [Fennes],” and “caused
[plaintiff’s] exposure to [Fennes], a known pedophile
and child molester. . . . ” (Id. Count 11, ¶¶ 4, 6).
Montville argues that these allegations do not
clearly set forth an “abusive act,” as defined in the
policy. Montville claims that the court has “no way of
knowing what the Complaint was referencing when it
stated that the Board was on notice of ‘abusive and/or
sexual conduct’ and ‘sexual molestation and/or child
abuse.’’’ (ECF No. 44-1, p. 12). “For example, Child M
might be alleging that the Board had knowledge of
students sitting on Fennes’ lap.” (Id.). Montville
claims that this “is plainly not what was contemplated
by the Prior Known Acts Exclusion.” (Id.).
I reject Montville’s arguments.
First, Child M alleges that Montville was aware
that Fennes had engaged in “sexual molestation” and
“child abuse.” Child M alleges that Montville knew
Fennes was “a known pedophile and child molester.”
These allegations would not reasonably be construed
to state that Fennes had children sit on his lap in a

App.29a
platonic, non-sexual way. A straightforward reading
of the complaint is that Montville was allegedly aware
of “abusive acts” prior to the effective date of the
policy. And the theory of liability is that Montville
covered up such acts, permitting the abuse of Child
M to occur at Cedar Hills.
Second, a comparison of the allegations about
Fennes’s time at Cedar Hills Prep and his time at
Montville makes it fairly clear what is meant. Child
M makes substantively the same allegations about
Fennes regarding his time at Cedar Hill Prep and
Montville. While at Cedar Hill Prep, Child M alleges,
she was “sexually assaulted, inappropriately touched,
and otherwise abused” by Fennes. (ECF No. 14-4, p.
20-21). Child M claims that Fennes was “a sexual
predator, pedophile, and deviant.” (Id. at 21). At
Montville, Child M alleges that students were victims
of Fennes’s “sexual molestation” and “child abuse.”
These statements are sufficient to notify Montville of
allegations that Fennes engaged in sexual misconduct
toward children during his Montville employment.
It is true that exclusionary clauses are to be
narrowly construed and that ambiguities in a complaint
are resolved in favor of insurance coverage. See
Flomerfelt v. Cardiello, 997 A.2d 991, 996-97 (N.J.
2010). Still, there must be a predicate ambiguity. Id.
As the New Jersey Supreme Court stated in Voorhees
v. Preferred Mutual Insurance Co., “[i]f the complaint
is ambiguous, doubts should be resolved in favor of
the insured and thus in favor of coverage.” 607 A.2d
1255, 1259 (N.J. 1992) (emphasis added); cf. Longobardi
v. Chubb Ins. Co. of N.J., 582 A.2d 1257, 1260 (N.J.
1990) (“[T]he words of an insurance policy should be
given their ordinary meaning, and in the absence of

App.30a
an ambiguity, a court should not engage in a strained
construction to support the imposition of liability.”).
Where there is no ambiguity, the court need not
torture straightforward language to find coverage.
The AA policy, the Prior Known Acts exclusion, and
the complaint are clear and unambiguous. The complaint rests on the theory that Montville knew
Fennes committed abusive acts while he was a teacher
at Montville. Of course, Montville contests this, but if
the insured’s denial of liability controlled the issue,
then there might rarely if ever be a duty to defend. It
is generally the nature of the allegation that controls
the insurer’s duty to defend, and here the allegation
is that Montville knew about the prior acts of
molestation upon which its liability is premised.
III. Conclusion
Zurich does not have a duty to defend Montville
against allegations that it knew of Fennes’s abusive
conduct at Montville before July 1, 2011, but nevertheless took steps that had the effect of facilitating
Child M’s molestation at Cedar Hill. Zurich’s motion
for summary judgment is granted and Montville’s
motion for summary judgment is denied.
An appropriate order accompanies this opinion.
The clerk shall close the file.
/s/ Kevin Mcnulty
United States District Judge
Dated: August 21, 2018

App.31a
ORDER OF THE
DISTRICT COURT OF NEW JERSEY
(AUGUST 21, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
MONTVILLE TOWNSHIP BOARD OF
EDUCATION,

Plaintiff,
v.
ZURICH AMERICAN INSURANCE CO.,

Defendant.

________________________
No. 16-cv-4466-KM-MAH

Before: Kevin MCNULTY,
United States District Judge.
THIS MATTER having come before the Court on
the motion for summary judgment of defendant Zurich
American Insurance Co. (ECF No. 42); and the crossmotion for summary judgment of plaintiff Montville
Township Board of Education (ECF No. 44); and the
Court having reviewed the moving, opposition, and
reply papers (ECF Nos. 42, 44, 45) without oral argument; for the reasons stated in the accompanying
Opinion and good cause appearing therefor;
IT IS this 21st day of August, 2018,

App.32a
ORDERED that defendant Zurich American
Insurance Co.’s motion for summary judgment (ECF
No. 42) is granted; and plaintiff Montville Township
Board of Education’s cross-motion for summary judgment (ECF No. 44) is denied.
/s/ Kevin Mcnulty
United States District Judge

App.33a
OPINION OF THE
DISTRICT COURT OF NEW JERSEY
(JANUARY 19, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
MONTVILLE TOWNSHIP BOARD OF
EDUCATION,

Plaintiff,
v.
ZURICH AMERICAN INSURANCE CO.,

Defendant.

________________________

Civ. No. 16-4466 (KM) (MAH)
Before: Kevin MCNULTY,
United States District Judge.
KEVIN MCNULTY, U.S.D.J.
Before the court is the motion of Montville
Township Board of Education (“Montville”) for reconsideration of my prior Opinion (“Op.”, ECF no. 22)
and Order (ECF no. 23). In that Opinion, I held that
Montville’s insurer, Zurich American Insurance Co.
(“Zurich”), did not have a duty under the GCL
Coverage Part of the policy to defend Montville against
state-court claims brought against it by Child M.
Child M alleges that Montville, while it employed
Jason Fennec as a teacher for twelve years, knew about

App.34a
abusive acts by Fennes, failed to notify the authorities,
and agreed not to tell potential future employers
about that conduct in order to induce Fennes to resign.
In 2010, Fennes did resign, and went on to a position
at Cedar Hill Prep, where he sexually abused a number
of students. He was later criminally charged for acts
of sexual abuse. Montville’s silence, Child M claims,
enabled and facilitated Fennes’s abuse of her at Cedar
Hill.
Montville sought a declaratory judgment by order
to show cause, and has contended throughout that
Zurich is obligated to defend it against Child M’s
allegations under the GCL Coverage Part of its general
commercial liability (“GCL”) policy. Zurich has declined
to do so, based on, inter alia, the GCL
Coverage Part’s exclusion of claims “arising from”
or “relating in any way” to “abusive acts.”
Taking the claims as presented by Montville, I
considered whether Zurich’s duty to defend under the
GCL Coverage Part was vitiated by the abusive acts
exclusion. The scope of the duty to defend, I held, is
determined by the nature of the allegations against
the insured—i.e., the kind of claim being made. To
simplify a bit, if the plaintiff does not allege a covered
risk, the insurer has no duty to defend against the
allegation. Montville’s insistence that it was not actually guilty of any wrongdoing with respect to the
abuse of students, I wrote, did not alter the nature of
the claims being asserted, or the issue of whether the
risk fell within the coverage of the GCL Coverage
Part.
To some degree, Montville seems to request that
I reconsider my disposition of the issues under the

App.35a
GCL Coverage Part. I discuss that contention in Section
II.B.1, infra, but reject it.
Primarily, however, Montville has switched its
approach. Now it argues that it is entitled to defense
costs (and presumably coverage) under a different
part of the policy: the Abusive Acts (“AA”) Coverage
Part. Without really acknowledging the switch,
Montville objects in substance that the bulk of the
discussion in the prior Opinion is inapplicable to the
AA Coverage Part. And no wonder—that was not the
issue that Montville’s papers, fairly read, presented
to the Court.
The issue now before the Court is whether
Montville’s new position is cognizable on reconsideration. Citing a brief reference in its Reply and Opposition brief, and a head-scratching footnote in my
Opinion where I attempted to make sense of that reference, Montville insists that—or rather, blusteringly acts
as if—the AA Coverage Part issue has been in the
case all along. Indeed, Montville’s counsel appears to
be trying to convince the author of the Opinion that
his Opinion (which devoted a few sentences of a
footnote to a version of the issue) “focused on the
‘prior known acts’ exclusion of the ‘AA Coverage Part.’’’
((Reconsideration Br. 7, ECF no. 31; emphasis added)
Still, I would not lightly deny an insured, and
particularly a school district, the benefit of its insurance policy because its counsel’s tactics were illconsidered, or even because I thought counsel had
wasted the time and resources of its adversary and
the Court. I will analyze the motion to reconsider, as
it bears on the AA Coverage Part, in Section II.B.2,

infra.

App.36a
I.

Standard on Motion for Reconsideration

The standards governing a motion for reconsideration are well settled. See generally D.N.J. Loc.
Civ. R. 7.1(i). Reconsideration is an “extraordinary
remedy,” to be granted “sparingly.” NL Indus. Inc. v.
Commercial Union Ins. Co., 935 F. Supp. 513, 516
(D.N.J. 1996). Generally, reconsideration is granted
in three scenarios: (1) when there has been an
intervening change in the law; (2) when new evidence
has become available; or (3) when necessary to correct
a clear error of law or to prevent manifest injustice.

See North River Ins. Co. v. CIGNA Reinsurance Co.,

52 F.3d 1194, 1218 (3d Cir. 1995); Carmichael v.
Everson, 2004 WL 1587894, at *1 (D.N.J. May 21,
2004). Local Rule 7.1(i) requires such a motion to specifically identify “the matter or controlling decisions
which the party believes the Judge or Magistrate Judge
has overlooked.” Id.; see also Egloff v. New Jersey Air
Nat’l Guard, 684 F. Supp. 1275, 1279 (D.N.J. 1988).
Evidence or arguments that were available at the time
of the original decision will not support a motion for
reconsideration. Damiano v. Sony Music Entm’t, Inc.,
975 F. Supp. 623, 636 (D.N.J. 1997); see also North
River Ins. Co., 52 F.3d at 1218; Bapu Corp. v. Choice
Hotels Intl, Inc., 2010 WL 5418972, at *4 (D.N.J.
Dec. 23, 2010) (citing P. Schoenfeld Asset Mgmt. LLC
v. Cendant Corp., 161 F. Supp. 2d 349, 352 (D.N.J.
2001)).
II.

Discussion

For ease of reference, I repeat here my summary
of the pertinent allegations of Child M’s state-court
complaint:

App.37a


Prior to working at Cedar Hill, Montville
employed Fennes as a teacher and track coach at
William Mason Elementary School. During
the 12 years he worked at Montville, Fennes
sexually abused minor students. (Compl. p. 11)



Montville knew about, or was on notice of, such
sexual abuse. Montville nevertheless failed to
report Fennes to the appropriate authorities as
required by law. (Id.)



Montville entered into an agreement, dated
May 4, 2010, with Fennes, in which Montville
agreed to “limit the scope of information” it
would communicate to potential employers
“in exchange for” his resignation. (Id. at 12)



Fennes “performed various acts of sexual
molestation against” Child M (Id. at 5)



But for Montville’s failure to report and “provide
pertinent and highly relevant information”
about Fennes to potential employers, such as
Cedar Hills, Child M would not have been
sexually abused by Fennes. (Id. at 12-15)

(Op. 2-3)
In that action, Montville prevailed on a motion
for summary judgment. That judgment, however, was
for the most part reversed by the Appellate Division.
Child M. v. Fennes, Docket No. A-0873-15T2, 2016 WL
4473253, 2016 N.J. Super. Unpub. LEXIS 1955, *2-*8
(App. Div. Aug. 25, 2016). My Opinion quoted at length
from the Appellate Division’s opinion. (Op. 6-10)
(Montville’s objection to my having done so is discussed
at Section II.B.1, infra.)

App.38a
A. Correction of Date, New Evidence
Before proceeding to the substance, I briefly consider two discrete subsidiary issues raised by the
reconsideration motion.
1. Date correction
In the introductory paragraph of the Opinion, I
wrote that that “In 2012, one of Fennes’s alleged
victims, Child M, a Cedar Hills student, sued (among
others) Montville.” (Op. 1; emphasis added) That
sentence inaccurately telescopes the events. The original
2012 state-court complaint named only Fennes and
Cedar Hill; Montville was added by amendment later,
in 2015.
Montville makes much of what was clearly a slip
of the pen; I did not misapprehend the facts. Two
pages later, in the formal statement of facts, I described
the procedural history accurately:
In August 2012, Child M and her parents
sued Fennes and Cedar Hill. On January
23, 2015, Child M filed a third amended
complaint that named Fennes, Cedar Hill,
Montville, and others as defendants.
(Op. 3)
The misstatement on page 1 had no effect on the
Court’s decision. Nevertheless, accuracy is important.
Reconsideration is granted to the extent that I will
order that the sentence on page 1 of the Opinion be
amended to delete “In 2012,” and to read in its
amended form as follows: “One of Fennes’s alleged
victims, Child M, a Cedar Hills student, sued (among
others) Montville.”

App.39a
2. New evidence
Montville proffers a document, dating from 2010
but “new” in the sense that it was obtained by Montville
after I had filed my Opinion. (ECF no. 25, sealed)
Because Montville represents that it did not possess
the document, there is at least an argument that it
could not have been expected to bring it to the Court’s
attention before. Zurich, however, disputes that this
document was previously unavailable to Montville.
Because the document is sealed, I will not describe
it in detail here. Suffice it to say that it reports the
results of an investigation, concluded shortly before
Fennes resigned. This document, says Montville,
constitutes evidence that it did not have prior knowledge of abusive acts by Fennes. Even if I accepted
Montville’s contention at face value, however, this
new evidence would not alter the basis for my prior
decision.
First, the sealed document does not change the
nature of Child M’s allegations or the scope of the
duty to defend under the GCL Coverage Part. At best,
it would seem to be a counterweight to the evidence
of Montville’s liability. The fact remains that Child
M’s claims arise from and relate to acts of abuse, as
established in my prior Opinion, and that Montville
has not established that these are covered risks under
the GCL Coverage Part.
Second, much of the substance of this document
was described in the passage from the Appellate
Division Opinion quoted in my Opinion. Possession of
the document itself would only have incrementally
supplemented what the Court considered in connection
with the prior Opinion.

App.40a
Reconsideration will therefore be denied to the
extent it is based on this “new evidence.”
B. Duty to Defend Under GCL and AA Coverage
Parts
I proceed to the heart of Montville’s motion. It is
important to distinguish between two portions of the
Zurich policy. I refer to (1) the GCL Coverage Part,
which contains an exclusion for “abusive acts,” and
(2) the AA Coverage Part, which contains an exclusion
for “prior known acts.” Although Montville now focuses
on (2), I must first discuss (1) for context.
1. GCL Coverage Part, with Abusive Act
Exclusion
Montville, throughout the state and federal proceedings, has rested its case on the “GCL Coverage
Part” of its General Commercial Liability policy with
Zurich. This part broadly provides insurance for “bodily
injury” caused by an “occurrence.” As discussed in far
more detail in my Opinion (Op. 14-15), this part
excludes any claim for bodily injury “arising out of or
relating in any way to an ‘abusive act’’’ or “any loss,
cost or expense arising out of or relating in any way
to an ‘abusive act.” The definition of an abusive act
(quoted at Op. 4-5) would reasonably encompass sexual
abuse of a young child, but is much broader than that.
The question for the court—which was considering only the applicability of the abusive acts exclusion
from the GCL Coverage Part—was this: Does the Child
M state court litigation against Montville assert
claims “arising out of or relating in any way to an
‘abusive act”? I answered that question in the affirmative, discussing it at length and citing applicable law. I

App.41a
found that the claimed liability of Montville, though
indirect, arose from or related to acts of sexual abuse.
The abusive acts exclusion from the GCL Coverage
Part liability therefore applied. (Op. 14-21)
Montville objects strenuously that it did not know
about any acts of sexual abuse by Fennes while they
were happening, whether during or (especially) after
his employment in Montville. That may be the foundation of a defense. As to the GCL Coverage Part’s
exclusion of Abusive Acts, however, Montville’s knowledge is not especially relevant. It is the nature of the
claim, not the insured’s culpable mental state, that
determines whether the claim implicates a covered
risk. Montville’s claimed lack of knowledge or
culpability does not alter the nature of the claims,
which arise from and relate in any way to sexual
abuse of a minor. (See summary of Child M’s claims
in state court complaint at p. 3, supra.)1
Montville objects in particular to the Court’s
lengthy quotation from the opinion of the New Jersey
Superior Court, Appellate Division, in Child M. v.
Fennes, Docket No. A-0873-15T2, 2016 WL 4473253,
2016 N.J. Super. Unpub. LEXIS 1955, *2-8 (App. Div.
Aug. 25, 2016). That court found that a reasonable
jury could conclude from the evidence that Montville
covered up abusive acts of which it knew or had reason
to know.
My citation of the Appellate Division opinion did
not, as Montville urges, constitute an invalid finding
of fact that it knowingly covered up the abuse.
Indeed, the Appellate Division’s opinion itself did not
1 The AA Coverage Part, with its Prior Known Acts exclusion,
is discussed in Section II.B.2, infra.

App.42a
constitute such a finding; reviewing a grant of summary
judgment, that court found only that the evidence,
interpreted in the light most favorable to Child M,
would permit a jury to make certain findings.2
I cited the Appellate Division case because it
clarifies the nature of the allegations being asserted
in Child M’s state court litigation against Montville.
Indeed, and a fortiori, it imposes the additional
2 Among those potential findings were
(a) “[A]s of 2005, Montville knew that Fennes was
engaged in inappropriate physical contact with
female students. Among other things, Fennes had
female students sit on his lap; allowed them to touch
his legs, thighs and buttocks; kissed them and allowed
them to kiss him; threatened them not to tell anyone;
and told them they would get into trouble or he
would not like them anymore or hold their hands if
they told anyone.”
(b) Admonished by the administration, Fennes defiantly responded that he was an “affectionate person”
and “was not going to stop cold turkey.
(c) Three complaints were made to the New Jersey
Department of Children and Families, Division of
Youth and Family Services, and that complaints
from parents continued, including one of Fennes
patting a student on the buttocks and hugging her.
(d) The principal warned Fennes in September 2008
that it was unacceptable to have physical contact
with students, but eight months later saw three
female students sitting in his lap.
(Op. 7-10 (quoting App. Div. Opinion)). The Appellate Division
went on to relate that the district failed to follow up adequately,
and agreed in connection with Fennes’s resignation that it
would disclose nothing to future employers except the positions
he held and his dates of employment. (Id.)

App.43a
condition that Child M’s allegations have some evidentiary support.
“The duty to defend comes into being when the
complaint states a claim constituting a risk insured
against.” (Op. 13-14) (emphasis added; citing Voorhees
v. Preferred Mut. Ins. Co, 128 N.J. 165, 173-74 (1992)).
The duty to defend is triggered by a claim which, if
sustained, would require the insurer to indemnify
the insured. This claim—that Montville knew about
and covered up abuse—may not be sustained. Montville
says the claim will fail, and offers evidence to that
effect. But even if the claim were sustained, it would
not set forth a covered risk under the GCL Coverage
Part, so Zurich does not have a duty to defend under
that Coverage Part.
A distinction is drawn between a groundless action
and one, which measured by the pleadings, even if
successful, would not be within the policy coverage. . . .
In 45 C.J.S., Insurance, s 933, p. 1056, the rule
appears as follows:
“The duty to defend should be determined
from the language of the insurance contract
and from the allegations in the petition or
complaint in the action brought by the one
injured or damaged against insured, and
the insurer’s denial of liability and refusal
to defend after investigating the facts must
be disregarded. The obligation to defend is
to be determined when the action is brought,
and not by the outcome of the action.”

Danek v. Hommer, 28 N.J. Super. 68, 77, 100 A.2d
198, 202-03 (App. Div. 1953), affd, 15 N.J. 573, 105
A.2d 677 (1954).

App.44a
Counsel point to one exception to, or refinement
of, this principle. The duty to defend is not necessarily
frozen by the complaint. The duty to defend may arise
where facts extrinsic to the complaint in effect expand
the claim, bringing the claim within the policy’s
coverage. See Abouzaid v. Mansard Gardens Assocs.,
LLC, 207 N.J. 67, 86 (2011) (where no covered claim
appeared on face of complaint, but interrogatories
revealed basis for covered claim, duty to defend was
triggered); SL Indus. v. Am. Motorists Ins. Co., 128
N.J. 188, 198 (1992) (even where complaint appears
to allege no covered claim, plaintiff’s later interrogatory
responses may trigger duty to defend).
That exception is to be distinguished, however,
from the defendant insured’s simply saying that it
will prevail on the merits and thereby negate some
exclusion or limitation on coverage. That does not
change the nature of the claims being asserted. See
P.D. v. Germantown Ins. Co., 2015 N.J. Super. Unpub.
LEXIS 1731, at *14-15 (App. Div. July 20, 2015). State
Farm Fire & Cas. Co. v. Gregory, 2012 WL 2051960,
2012 N.J. Super. Unpub. LEXIS 1301, at *6 (App. Div.
June 8, 2012).
Looking forward from the duty to defend to the
coverage/indemnity phase, I add one caveat. As of
now, Montville has not established that these claims
involve a covered risk under the GCL Coverage Part.
It might come about, however, based on events in the
case and development of the record, that they are.
Should Montville be found liable, the issue may be
revisited.

App.45a
2. AA Coverage Part
A second provision, an endorsement that the
parties have deemed the Abusive Act (“AA”) Coverage
Part, to some degree fills the gap left by the abusive
acts exclusion. For a premium, the AA Coverage Part
insures against “‘loss because of ‘injury’ resulting
from an ‘abusive act.”’ The definitions of “abusive act”
for purposes of the CGL Coverage Part and the AA
Coverage Part are substantively similar.3
The AA Coverage Part, however, contains an
exclusion of its own, deemed the “Prior Known Acts”
exclusion. There is no coverage under the AA Coverage
3 The AA Coverage Part, however (because it grants, rather than
excludes, coverage) would require that the abuse or molestation
result in injury. With that caveat, the policy’s definition of an
abusive act is as follows:
An “abusive act” means:
any act or series of acts of actual or threatened abuse
or molestation done to any person, including any act
or series of acts of actual or threatened sexual abuse
or molestation done to any person by anyone who
causes or attempts to cause the person to engage in a
sexual act:
a.

Without the consent of or by threatening the person,
placing the person in fear or asserting undue influence
over the person;

b.

If that person is incapable of appraising the nature
of the conduct or is physically incapable of declining
participation in or communicating unwillingness to
engage in the sexual act; or

c.

By engaging in or attempting to engage in lewd
exposure of the body done with intent to arouse or to
satisfy the sexual desire of any person.

(Def. SUMF ¶ 16; Pl. Resp. SUMF ¶ 16)

App.46a
Part for “any claim or ‘suit’ based upon, arising out of
or attributable, in whole or in part, to any ‘abusive
act’ of which any insured, other than the insured actually committing the ‘abusive act’, has knowledge
prior to the effective date4 of this Coverage Part.”
(Def. SUMF 18-20, quoting Policy § I.1.a., I.2.d., UGL-1275-A CW (04/2006); Pl. Resp. SUMF ¶¶ 18-20;
Policy § V.1, U-GL-1275-A CW (04/2006)
For purposes of reconsideration, it is important
to consider the following question: Did my prior
Opinion, in deciding the GCL Coverage Part issue,
“overlook” an AA Coverage Part issue presented by
Montville? Ultimately, I answer that question in the
negative.
My Opinion was devoted to the issue of the GCL
Coverage Part, because that was the issue presented
by Montville. Montville relied all along on the GCL
Part, not the AA Part. Now it is true that the Verified
Complaint for declaratory judgment (ECF no. 1-1 at
20) included a citation to the AA Coverage Part. With
the Verified Complaint, however, Montville filed an
order to show cause, seeking declaratory relief. In its
brief in support of the order to show cause, Montville
placed no reliance on the AA Coverage Part, and all
but conceded that the AA Coverage Part was
inapplicable. The discussion in that brief was devoted
to the GCL Coverage Part. And the final point of the
Brief was entitled “E. The Fact That the Additional
Zurich Abusive Act [AA] Coverage May Not Apply is
Irrelevant.” (OSC Br. p. 15, ECF no. 1-1)
4 The relevant “effective date,” the parties seem to agree, would
be July 1, 2011. The abuse of Child M is alleged to have taken
place in 2012, during the 2011-12 renewed term of the policy.

App.47a
After the case was removed to this Court, Montville
filed its motion for summary judgment. Again, its
Brief in support (ECF no. 14-3) relied solely on the
GCL Coverage Part and the alleged inapplicability of
the associated abusive acts exclusion. Once again,
Montville virtually conceded that the AA Coverage
Part did not apply, and disclaimed reliance on that
part. The final point of Montville’s summary judgment
brief was entitled “F. The Fact That The Additional
Zurich Abusive Act Coverage May Not Apply is
Irrelevant.” (Montville SJ Brief p. 21, ECF no. 14-3
at 26) The text of that point, set out in the margin,5
5 Here is Point F of Montville’s summary judgment brief, in its
entirety:
F. The Fact That The Additional Zurich Abusive Act Coverage
May Not Apply is Irrelevant
Zurich also disclaimed under the Abusive Act
Coverage to the extent that Jason Fennes was not its
employee and Child M was not its student. Additionally, Zurich refused coverage under the Abusive Act
Coverage by alleging the Board was aware of prior
claims or litigation involving Fennes and had prior
knowledge of abusive acts See Edelstein Cert., Ex. E
at pp. 12-14. While such information may be a basis
for denying coverage under the Abusive Act Coverage,
coverage still applies under the previously discussed
sections of the Zurich policy [i.e., the GCL Coverage
Part].
For these reasons, the blanket exclusion for sexual
abuse does not apply. While not every claim may be
covered, there are claims such as emotional distress,
which if proven, would be a covered claim under the
Zurich policy. It is beyond dispute that coverage is
warranted based on the entirety of the Zurich Policy
and the claims for which coverage is sought. As such,
the Board is entitled to summary judgment as a matter
of law.

App.48a
confirms that Montville was not pressing the issue of
the AA Coverage Part.
Zurich understandably responded to Montville’s
summary judgment motion on the basis of the GCL
Coverage Part. It simultaneously cross-moved for
summary judgment in its own favor on the same basis.
(ECF no. 17)
Only thereafter, in its Reply Brief and Opposition,
did Montville drop in a short reference to the AA
Coverage Part as an alternative argument. (Reply
Br. 11-12, ECF no. 20 at 15-16)6 My Opinion briefly
(Montville SJ Brief p. 21, ECF no. 14-3 at 26)
6 Here is the relevant passage from the Reply Brief, in its entirety:
In the event that this Court determines that there is
a substantial nexus between the Board’s actions and
Fennes’ acts (which the Board does not admit), the
Board purchased an endorsement to the Policy
entitled “Abusive Act Liability Coverage, Form” specifically for the purpose of covering the type of claim
at issue in this case. See Edelstein Cert. Ex. C at
Abusive Act Liability Coverage Form; Ex. A at 1120.
The Abusive Act Liability Coverage Form states that
Zurich will provide coverage for abusive acts. See
Edelstein Cert. Ex. C at Abusive Act Liability Coverage
Form. Zurich’s disclaimer, based not only on the
underlying CGL Policy, but also on the endorsement
to the Policy, is not only wrong, but flies in the face
of the Board’s reasonable expectations as an insured.
It is undisputed that the blanket exclusion for
abusive acts was modified by the endorsement. The
purpose of the endorsement is to provide coverage for
abusive acts. None of the exclusions contained in the
endorsement apply to the Board. Zurich cannot have
it both ways. First it claims that they do not cover
abusive acts and that Fennes’ abusive act should be
imputed to the Board to deny coverage. This is wrong.
The Board’s alleged negligent acts are separate and

App.49a
addressed that alternative argument in a footnote. I
reproduce that footnote in full in the margin.7
apart from Fennes’ abuse of Child M when she was a
student at Cedar Hill. Next, Zurich argues that (although it was willing to take the Board’s money for
an endorsement to the Policy that covers abusive
acts) the claims against the Board should not be
covered because of an exclusion in the endorsement.
That exclusion only operates to prevent coverage if
the Board participated in the abusive act. The Board
did not “participate” in the abusive act-it happened
years later when Fennes was employed by a different
school. The Board did not participate, direct or allow
the abuse by Fennes. Zurich cannot twist the facts to
fit them under an exclusion in order to disclaim
coverage. The Board purchased an endorsement to
cover claims for abusive acts exactly like the claims
in this case. As such, there is no reasonable
interpretation of the Policy that operates to prevent
coverage, and Zurich should be ordered to defend the
Board.
(Reply Br. 11-12, ECF no. 20)
7 That footnote (Op. 13 n.9) reads, in its entirety, as follows:
This [abusive acts] exclusion, cited above, is contained in the GCL Coverage Part, which does not
really seem to be designed to cover sexual abuse at
all. A question arises as to why Montville is attempting
to shoehorn its claim into the GCL Coverage Part.
After all, Montville purchased abusive-acts coverage
separately in the AA Coverage Part. And it concedes
that it purchased that AA coverage because the
abusive-act exclusion in the CGL Coverage Part is
essentially a “blanket exclusion.” (Pl. Reply Br. 12)
The explanation would seem to lie in the “prior
known acts” exclusion of the AA Coverage Part.
Montville cannot avail itself of the AA coverage it
purchased, because Zurich did not agree to insure
Montville for abusive acts it knew about before the

App.50a
Now, in its reconsideration motion, Montville
barely mentions the GCL Coverage Part, and has
stacked its chips on the AA Coverage Part.8 Rather
effective date of the policy, i.e., July 1, 2011. And
Montville’s prior knowledge is the very essence of
Child M’s claim against it.
When Montville originally filed this coverage action
in New Jersey Superior Court, it relied solely on the
GCL Coverage Part. (ECF No. 1, Ex. A) It did the
same in its motion for summary judgment in this
Court. Now, in response to Zurich’s cross-motion for
summary judgment, Montville makes a terse claim of
coverage under the AA Coverage Part. (Pl. Reply Br.
11-12) That contention lacks merit.
Without citation, Montville states that the “prior
known acts” exclusion applies only to abusive acts
which it actually committed or participated in. (Id.)
There is no such limitation in the language of the
exclusion, however. The exclusion broadly applies to
“any claim or ‘suit’ based upon, arising out of or
attributable, in whole or part, to any ‘abusive act’ of
which any insured . . . has knowledge prior to the
effective date of this Coverage Part.” (Def. SUMF
¶ 20; Pl. Resp. SUMF ¶ 20, quoting Policy § I.2.d, UGL-1275-A CW (04/2006)) (emphasis added)). I
therefore find that Zurich did not wrongfully
disclaim under the AA Coverage Part.
8 I am still uncertain of the answer to the question I posed in
the footnote: why Montville previously confined itself to the
GCL Coverage Part, which excludes abusive acts, and eschewed
the AA Coverage Part, which covers them. I raise it because it is
relevant to an issue that arises on any reconsideration motion:
whether the party seeking reconsideration has a good reason for
having failed to raise an argument before. On that point,
Montville offers nothing. It is possible that Montville was
simply trying to put as much daylight as possible between itself
and any allegation of abuse. Now, facing denial of defense costs,
Montville seems to be willing to accept coverage and defense under
the AA Coverage Part.

App.51a
than explain the switch, it seems to imply that it was
relying on the AA Coverage Part all along. According
to Montville, the Court erred in “holding that the
Prior Known Acts exclusion applies to bar coverage
under the abusive act [AA] coverage part.” (Reconsideration Reply Br. 2, ECF no. 31) In a section entitled
“The Court’s Key Determination” Montville states that
the Court “focused on the ‘prior known acts’ exclusion
of the ‘AA Coverage Part.’’’ (Reconsideration Motion
Br. 7, ECF no. 24-1 at 7; emphasis added)
That footnote has yielded more to Montville’s
reading than I can find there. My Opinion did not
“focus” on the Prior Known Acts exclusion, or even
the AA Coverage Part, because Montville itself had
not focused on it. The footnote, quoted supra, addressed
the brief reference to the AA Coverage Part in
Montville’s Reply and Opposition. In that footnote, I
expressed puzzlement as to why Montville had relied
on the GCL Coverage Part to the virtual exclusion of
the AA Coverage Part, which expressly covers acts of
abuse. The “explanation,” I speculated—i.e., the explanation for Montville’s position—“would seem to lie
in the ‘prior known acts’ exclusion of the AA
Coverage Part.” (See Op. 13 n.9) That explanation, of
course, was taken directly from Montville’s own
statements in its brief’s that allegations of its prior
knowledge of abuse “may be a basis for denying
coverage under the Abusive Act Coverage,” a concession
that was accompanied by an immediate pivot back to
the GCL Coverage part. (See n.5, supra.)
Nor did Montville’s short discussion in the Reply
and Opposition make a straightforward argument
that the Prior Known Facts exemption did not apply
because Montville lacked prior knowledge. Rather,

App.52a
Montville made a different argument, one that did
not, strictly speaking, involve prior knowledge as
such. No exclusion from the AA Coverage Part would
apply, it said, because such an exclusion “only operates
to prevent coverage if the Board participated in the
abusive act.” (The Reply Brief passage is quoted at
n.5, above.) That—the argument that Montville actually
made with respect to the AA Coverage Part—is the
argument I addressed in the footnote.
The Prior Known Acts exclusion negates coverage
under the AA Coverage Part for “any claim or ‘suit’
based upon, arising out of or attributable, in whole or
in part, to any ‘abusive act’ of which any insured,
other than the insured actually committing the ‘abusive
act’, has knowledge prior to the effective date of this
Coverage Part.” (Policy § I. 2.d., U-GL-1275-A CW
(04/2006) (emphasis added). Thus, I stated in the
footnote, Zurich did not wrongfully disclaim AA
Coverage Part defense and coverage based on
Montville’s “non-participation” argument. And frankly
even that argument—which is distinct from the “lack
of prior knowledge” argument Montville is making
now—was undeveloped and sketchily explained.
So set aside Montville’s position that the Court
somehow overlooked its previously-presented argument
that its defense costs are recoverable under the AA
Coverage Part and are not excluded by the AA Part’s
Prior Known Acts exclusion because Montville had no
such prior knowledge. I nevertheless consider other
grounds for reconsideration.
There has been no intervening change in the law,
and the proffered new evidence, as stated above, does
nothing to undermine the Court’s reasoning. That
leaves reconsideration when necessary to correct a

App.53a
clear error of law or to prevent manifest injustice.
See Section I, supra, and cases cited. Assessment of
that issue requires the Court to consider Montville’s
belated contentions to some degree.
Ordinarily, I might simply do so, employing a
summary judgment standard. That would be manifestly
unfair to Zurich, from a procedural point of view. At
best, Montville offers a fig-leaf argument that it cited
the AA Coverage Part in its Complaint and in its Reply
Brief/Opposition on summary judgment. That is
something, but it is not much. Zurich was not placed
on fair notice that it would have to respond to such
arguments. Even assuming that these arguments were
asserted in some form, by placing them in a Reply
and Opposition to Cross-Motion, Montville’s counsel
ensured that Zurich would not have the opportunity
to respond in the ordinary course. See Loc. Civ. R.
7.1(h) (“No reply brief in support of the cross-motion
shall be served and filed without leave of the assigned
district or magistrate judge.”)
The alternative that makes the most sense is this.
I will treat the prior decision as a partial grant of
summary judgment on the issue of the duty to defend
under the GCL Coverage Part. I will grant the motion
for reconsideration in the narrowest sense—i.e., I
will consider (I do not say “reconsider”) the question
of Zurich’s duty to defend under the AA Coverage Part.
If Zurich contests that issue, it may file a succinct,
second motion for partial summary judgment. That
motion and any opposition may cite exhibits previously
filed, and counsel need not resubmit them. Counsel
are directed to confer within 5 days and submit a
letter proposing an agreed schedule for motion papers,
responses, and reply briefs. If there is a cross-motion,

App.54a
it shall take the form of a simple mirror-image notice
of motion; it shall not be the occasion for a separate
round of briefing. Counsel should not anticipate that
any request for a surreply will be granted.
III. Conclusion
For the foregoing reasons, Montville’s motion for
reconsideration is granted to the following extent.
The court will consider Zurich’s duty to defend under
the AA Coverage Part. Zurich, assuming it contests
that issue, shall file a motion for summary judgment
on a schedule to be agreed by the parties, as outlined
above. The motion is otherwise DENIED.
/s/ Kevin Mcnulty
United States District Judge
Dated: January 19, 2018

App.55a
ORDER OF THE
DISTRICT COURT OF NEW JERSEY
(JANUARY 19, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
MONTVILLE TOWNSHIP BOARD OF
EDUCATION,

Plaintiff,
v.
ZURICH AMERICAN INSURANCE CO.,

Defendant.

________________________

Civ. No. 16-4466 (KM) (MAH)
Before: Kevin MCNULTY, U.S.D.J.
The plaintiff, Montville Township Board of Education (“Montville”), having filed a motion (ECF no.
24) with sealed exhibit (ECF no. 25) for reconsideration of the Court's earlier opinion and order (ECF
nos. 22, 23); and the defendant, Zurich American Insurance Company (“Zurich”) having filed a response in
opposition (ECF no. 30); and Montville having filed a
reply (ECF no. 31); and the Court having considered
the submissions and the entire case file without oral
argument; for the reasons stated in the accompanying Opinion, and good cause appearing therefor;
IT IS this 19th day of January, 2018

App.56a
ORDERED as follows:
1. Montville’s motion for reconsideration (ECF
no. 24) is GRANTED IN PART AND DENIED IN
PART. The court will entertain a motion for summary
judgment from Zurich, confined to the duty to defend
under the AA Coverage Part, on a schedule to be agreed
to by the parties within 5 days, as described in more
detail in the accompanying Opinion.
2. The Court’s prior Opinion (ECF no. 22) is
amended as follows: On page 1, the words “In 2012”
are deleted from the sixth sentence, which shall now
read: “One of Fennes’s alleged victims, Child M, a
Cedar Hill student, sued (among others) Montville.”
3. The motion (ECF no. 24) is otherwise DENIED.
/s/ Kevin Mcnulty
United States District Judge

App.57a
OPINION OF THE
DISTRICT COURT OF NEW JERSEY
(JUNE 1, 2017)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
MONTVILLE TOWNSHIP BOARD OF
EDUCATION,

Plaintiff,
v.
ZURICH AMERICAN INSURANCE CO.,

Defendant.

________________________

Civ. No. 16-4466 (KM) (MAH)
Before: Kevin MCNULTY,
United States District Judge.
KEVIN MCNULTY, U.S.D.J.
This is an insurance coverage dispute between
an insured, Montville Township Board of Education
(“Montville”), and its insurer, Zurich American Insurance Co. (“Zurich”).1 For twelve years, Montville
employed Jason Fennes as a teacher. In June 2010,
Fennes resigned. About two years later, while
1 Zurich says that the real party in interest is its subsidiary,
American Guarantee and Liability Insurance Company (“AGLIC”).
Like the parties, I treat AGLIC and Zurich as one and the same.

App.58a
working at another school, Cedar Hill Prep (“Cedar
Hill”), Fennes was arrested and indicted. The charges
were that he had sexually abused a number of Montville
students between 2005 and 2008, and a Cedar Hill
student in 2010 and 2011. In 2012, one of Fennes’s
alleged victims, Child M, a Cedar Hill student, sued
(among others) Montville. She alleges that Montville
not only knew about Fennes’s inappropriate conduct
and failed to notify the authorities, but also agreed
not to tell potential future employers about that
conduct in order to induce Fennes to resign. Montville,
she claims, thus enabled and facilitated Fennes’s acts
of abuse at Cedar Hill. Montville says that Zurich is
obligated to defend it against these allegations under
its general commercial liability (“GCL”) policy. Zurich
has declined to do so based on a coverage exception
for “abusive acts.”
Now before the Court are cross-motions for summary judgment on the issue of Zurich’s duty to
defend Montville in the Child M litigation. For the
reasons stated below, I will deny Montville’s motion
but grant Zurich’s. Because the claims asserted against
Montville by Child M are not covered by Montville’s
policy, Zurich has no duty to defend Montville.

App.59a
I.

Background2

Below is a statement of the factual and procedural
posture of this case, as well as the underlying Child
M lawsuit. The parties generally agree as to the terms
of their insurance contract and the allegations of
Child M’s complaint, although each draws a different
legal conclusion from those facts.
A. Child M Sues Montville
Montville employed Fennes as a first-grade teacher
from September 1998 to June 30, 2010. After his
2 Citations to the record are as follows:
“Pl. Br.”—Montville’s Brief In Support of its Motion for
Summary Judgment, ECF No. 14-3
“Pl. Reply Br.”—Montville’s Brief in Further Support for
its Motion For
Summary Judgement and in Opposition to Zurich’s CrossMotion for Summary Judgment, ECF No. 20
“Pl. SUMF”—Montville’s Statement of Material Undisputed
Facts, ECF No. 14-2
“Def. Resp. SUMF”—Zurich Response to Montville’s Statement of Material, Undisputed Facts, ECF No. 17-3
“Def. SUMF”—Montville’s Statement of Material Undisputed
Facts, ECF No. 17-2
“Pl. Resp. SUMF”—Zurich’s Response to Montville’s Statement of Material Undisputed Facts, ECF No. 20-1
“Compl.”—Third Amended Complaint in Child M, et al. v.
Cedar Hill Prep., et al, attached as Exhibit B to the Declaration
of Stephen J. Edelstein, Esq., ECF No. 14-4
“Policy”—Commercial
General
Liability
Insurance
Liability Policy issued to Montville for the period of July 1,
2011, to July 1, 2012, attached as Exhibit C to the Declaration
of Stephen J. Edelstein, Esq., ECF No. 14-5

App.60a
resignation, he was hired by Cedar Hills, where he
also worked as a teacher. In March 2012, while
employed by Cedar Hills, Fennes was arrested for
sexually abusing a Montville student in 2005. Montville
notified Zurich of the potential for a claim, and
Zurich responded with a general reservation of rights.
(Pl. SUMF ¶¶ 5-8 Def. Resp. SUMF ¶¶ 5-8)
In August 2012, Child M and her parents sued
Fennes and Cedar Hill.3 On January 23, 2015, Child
M filed a third amended complaint that named Fennes,
Cedar Hill, Montville, and others as defendants. In
that complaint, Child M alleges that Fennes, her
teacher, sexually abused her in February 2012. She
was then six years old. (Pl. SUMF ¶¶ 13; Def. Resp.
SUMF ¶ 13; Compl. p.1)
As to Montville, here are the pertinent allegations
of the Child M complaint:


Prior to working at Cedar Hill, Montville
employed Fennes as a teacher and track coach at
William Mason Elementary School. During
the 12 years he worked at Montville, Fennes
sexually abused minor students. (Compl. p. 11)



Montville knew about, or was on notice of, such
sexual abuse. Montville nevertheless failed to
report Fennes to the appropriate authorities as
required by law. (Id.)



Montville entered into an agreement, dated May
4, 2010, with Fennes, in which Montville agreed

3 Two years later, in August 2014, Cedar Hill sued Montville in
a separate action (presumably for indemnity and contribution,
although the record is unclear). (Pl. SUMF ¶¶ 9-11) Def. Resp.
SUMF ¶¶ 9-11)

App.61a
to “limit the scope of information” it would
communicate to potential employers “in
exchange for” his resignation. (Id. at 12)


Fennes “performed various acts of sexual
molestation against” Child M. (Id. at 5)



But for Montville’s failure to report and “provide
pertinent and highly relevant information”
about Fennes to potential employers, such as
Cedar Hills, Child M would not have been
sexually abused by Fennes. (Id. at 12-15)

Based on the same allegations, Cedar Hill filed a
cross-claim against Montville for contribution and
indemnification.4 (Pl. SUMF ¶ 14; Def. Resp. SUMF
¶ 14)
B. Montville’s Insurance Policy
Child M’s allegations potentially implicate two
coverage parts of Montville’s General Commercial
Liability (“GCL”) policy with Zurich.
The first is the “GCL Coverage Part.” This part
broadly provides insurance for “bodily injury” caused
by an “occurrence.” A “bodily injury” is a “bodily
injury, sickness or disease sustained by a person.
This includes mental anguish, mental injury, shock,
fright or death resulting from bodily injury, sickness,
4 Child M’s complaint does not plead specific causes of action.
The parties seem to agree, however, that Child M intends to
assert claims for negligence and intentional or negligent misrepresentation. See Child M. v. Fennes, Docket No. A-087315T2, 2016 N.J. Super. Unpub. LEXIS 1955 (App. Div. Aug. 25,
2016) (affirming and reversing in part trial court’s grant of summary judgment on Child M’s negligence and intentional or negligent misrepresentation claims against Montville).

App.62a
or disease.” Excluded from coverage, however, is any
claim for bodily injury “arising out of or relating in
any way to an ‘abusive act”‘ or “any loss, cost or
expense arising out of or relating in any way to an
‘abusive act.” (Def. SUMF ¶¶ 12-13, 15; Pl. Resp.
SUMF ¶¶ 12-13, 15; Policy at U-GL-1250-A CW 09/05).
An “abusive act” means:
any act or series of acts of actual or threatened abuse or molestation done to any person,
including any act or series of acts of actual
or threatened sexual abuse or molestation
done to any person by anyone who causes or
attempts to cause the person to engage in a
sexual act:
a

Without the consent of or by threatening
the person, placing the person in fear or
asserting undue influence over the person;

b.

If that person is incapable of appraising
the nature of the conduct or is physically
incapable of declining participation in or
communicating unwillingness to engage in
the sexual act; or

c.

By engaging in or attempting to engage in
lewd exposure of the body done with intent
to arouse or to satisfy the sexual desire of
any person.

(Def. SUMF ¶ 16; Pl. Resp. SUMF ¶ 16)
A second provision, the Abusive Act (“AA”)
Coverage Part, does provide insurance for “loss because
of ‘injury’ resulting from an ‘abusive act.”‘ The definitions of “abusive act” in the CGL Coverage Part and
the AA Coverage Part are identical, with one excep-

App.63a
tion: the AA Coverage Part definition (because it
grants, rather than excludes, coverage) requires that
the abuse or molestation result in injury.5 The AA
Coverage Part, however, contains an exclusion of its
own. There is no coverage under the AA Coverage
Part for “any claim or ‘suit’ based upon, arising out of
or attributable, in whole or in part, to any ‘abusive
act’ of which any insured, other than the insured actually committing the ‘abusive act’, has knowledge
prior to the effective date of this Coverage Part.”6
(Def. SUMF ¶¶ 18-20, quoting Policy § I.1.a., 1.2.d.,
U-GL-1275-A CW (04/2006); Pl. Resp. SUMF ¶¶ 18-20;
Policy § V.1, U-GL-1275-A CW (04/2006) The effective
date of the policy at issue in this case, CPO 370159807, is July 1, 2011. (Policy p.1 U-GL-D-1115-B CW
(09/04)7

5 Injury here means essentially the same thing as “bodily
injury” as defined in the GCL Coverage part. (Policy § V.3, UGL-1275-ACW (04/2006) (“Injury’ means physical injury,
sickness, disease mental anguish, mental injury, shock or fright
or death of the person(s) who is the subject of the abusive act.”)
6 A third provision, the Alleged Participant Coverage Part, provides coverage to the insured person (not, e.g., a school district)
actually committing the abuse. (Def. SUMF ¶¶ 21-23; Pl. Resp.
SUMF ¶¶ 21-23) The Alleged Participant Coverage Part is not
at issue in this case.
7 That is the only policy at issue here because Child M alleges
that she was sexually abused in February 2012. For there to be
coverage under either the CGL Coverage Part or the Abusive
Act Coverage Part, there must be “bodily injury” caused by an
“occurrence” or an “abusive act” resulting in an “injury” during
a policy year. (Policy § I.1.b(2), CG 00 01 12 07; § I.1.b., U-GL1275-A CW (04/2006). Montville challenges Zurich’s disclaimer
of its duty to defend under the July 2011-July 2012 policy.

App.64a
C. Zurich Disclaims a Duty to Defend
About a week after Child M filed her third amended complaint, on January 29, 2015, Zurich sent
Montville a letter disclaiming and reserving its rights
under the CGL and AA Coverage Parts. As Zurich saw
things, it had no obligation to defend or indemnify
Montville under the GCL Coverage Part because any
“bodily injury” suffered by Child M arose out of or
related to “abusive acts.” As for the AA Coverage
Part, Zurich observed that Child M alleged that
Montville knew about prior abusive acts committed
by Fennes against Montville students but failed to
report to them to the proper authorities or disclose
them to potential employers. That allegation, according
to Zurich, brought Child M’s lawsuit within the “prior
known abusive acts” exclusion of the AA Coverage Part.
(Def. SUMF ¶¶ 25-26; Pl. Resp. SUMF ¶¶ 25-26)
For the same reasons, Zurich again stated that it
had no duty to defend Montville in two more disclaimer
letters, dated March 6, 2015, and April 8, 2015. (Def.
SUMF ¶ 27; Pl. Resp. SUMF ¶ 27)
D. The Child M Litigation Proceeds
On August 14, 2015, Montville filed a motion for
summary judgment in the Child M litigation. Although
Montville succeeded in obtaining dismissal of all
claims against it, the Appellate Division reversed
that summary judgment ruling in part.
With some understatement, the Appellate Division
called the facts of the case “troubling” and summarized
them thus:
Viewed in a light most favorable to plaintiffs
and Cedar Hill, the record reveals that as

App.65a
of 2005, Montville knew that Fennes was
engaged in inappropriate physical contact
with female students. Among other things,
Fennes had female students sit on his lap;
allowed them to touch his legs, thighs and
buttocks; kissed them and allowed them to
kiss him; threatened them not to tell anyone;
and told them they would get into trouble or
he would not like them anymore or hold
their hands if they told anyone. Fennes
received several warnings from his supervisors that his conduct was inappropriate
and must be corrected, but Fennes responded
that he was an “affectionate person and
[cannot] change” and “was not going to stop
cold turkey.”
Fennes’ inappropriate conduct continued
despite his supervisors’ warnings and three
reports to the New Jersey Department of
Children and Families, Division of Youth
and Family Services (Division) about his
inappropriate conduct made prior to his
suspension in March 2010. The first report
was on June 20, 2008 by an anonymous
caller. Although the Division determined
the allegation of child abuse was unfounded
and closed the case, the principal of Williams
Mason, Stephanie Adams, met with Fennes
in September 2008, and warned him that his
conduct was “inappropriate and unacceptable” and that “under no conditions was it
appropriate” to have physical contact with
students.

App.66a
Fennes did not heed Adams’ warning because
eight months later, on June 5, 2009, she
entered his classroom and saw three female
students sitting on his lap. Adams also
received a message from a staff member
reporting a similar encounter with Fennes,
and a letter from a parent reporting that
Fennes had inappropriately touched her
daughter. On July 14, 2009, Adams contacted
the Division. She reported what she saw on
June 5, 2009, and what the staff member said,
but did not mention the parent’s letter.
Adams also indicated that “[t]he children
didn’t disclose any sexual abuse.” The Division concluded that no action was required
and closed the case.
On July 15, 2009, Adams issued a letter of
reprimand to Fennes and advised him she
was recommending the withholding of his
salary increment for the 2009-2010 school
year. On August 20, 2009, Montville notified
Fennes that his salary increment for the
2009-2010 school year was being withheld
because of his “inappropriate interactions
with students in [his] classroom.”
The salary increment withholding did not
deter Fennes because on March 1, 2010, a
parent reported to Montville that she and
other parents had observed and were concerned about his inappropriate physical
contact with female students. The parent
“implored [Montville] to have this situation
investigated immediately for the safety of
our children.” Thereafter, on March 11, 2010,

App.67a
a third report about Fennes was made to
the Division by an anonymous parent. The
Division concluded the allegations were
“unfounded” and closed the case.
On March 12, 2010, Montville suspended
Fennes from his teaching position with pay
and began an investigation. During the investigation, Montville received new reports
about Fennes’ inappropriate physical contact
with female students. For example, a parent
reported that Fennes constantly held his
daughter’s hand, picked her up to hug her,
and sent her text messages even after he
asked Fennes to stop sending them. Another
parent reported that a student saw Fennes
holding a female student’s hand, patting her
on the buttocks, and hugging her. A third
parent reported that many parents were
very concerned about the welfare of a female
student after observing Fennes’ inappropriate behavior with her. The parent also
warned Montville that “God forbid [Fennes]
hurts a child in the future, the entire school
system will have charges pressed against
them for not taking the appropriate actions
in seeing [Fennes] removed from the classroom and as a track coach.” A grandparent
reported Fennes’ inappropriate conduct with
her granddaughter and stated, “I beg
[Montville] to really look into this thoroughly
before something very serious happens.”
Montville also received a letter from a teenaged student who was coached by Fennes
reporting his inappropriate conduct with

App.68a
“[her] little sister.” The student said that
her sister went to Fennes’ home, where he
had a room upstairs that “had all children
decorations in it” and “a shelf filled with
toys” and the sister “acted like it was her
room[.]” Montville also received statements
from numerous William Mason staff members
about their interactions with Fennes and
their observations of his inappropriate
physical contact with female students.
Montville never reported this new information
to the Division and never filed tenure charges
against Fennes. Instead, on May 14, 2010,
Montville and Fennes entered into an Agreement and Release, wherein the parties
agreed that Fennes would resign, effective
June 30, 2010, and never seek employment
with Montville “in perpetuity” (the Agreement). Regarding references to future employers, Montville agreed to the following:
Upon direct inquiry by any future
employers, [Montville] or its agents will
provide the dates of [] Fennes[‘] employment with [Montville], the position he
held in the District, including coaching
positions, and that his last day of
employment . . . was June 30, 2010. No
further information will be provided.
All calls from prospective employers
will be directed to the Superintendent or
his/her designee.
[(Emphasis added.)]

App.69a
The Agreement also provided that “[t]he
parties acknowledge that because tenure
charges were not filed against [] Fennes, his
resignation does not fall within the reporting
requirements of N.J.A.C. 6A:9-17.4.”
On May 14, 2010, Fennes resigned, effective
June 30, 2010. On August 13, 2010, he
applied for employment with Cedar Hill as a
first-grade teacher. Nandini Menon, the
owner/director of Cedar Hill, interviewed
Fennes and later obtained his list of references, which did not include anyone employed
by Montville. Menon admitted that she
contacted Montville to verify his dates of
employment and only asked for and received
those dates. Menon also admitted that she
never asked Montville for any documentation
about Fennes; never asked Montville any
questions beyond verifying Fennes’ dates of
employment; did not recall the name or title
of the person to whom she spoke or verified
this person had the authority to provide
information about Fennes; never questioned
the fact that Fennes did not provide references from persons employed by Montville;
and never asked Fennes for references from
Montville colleagues or supervisors.
Fennes began teaching at Cedar Hill in September 2010. On October 19, 2010, Cedar
Hill received information that: Fennes was
the subject of many parental complaints
while employed with Montville; Fennes had
been investigated by the Division; and Fennes
resigned in anticipation of being terminated

App.70a
for inappropriate behavior around children.
Cedar Hill did not contact Montville about
this information and permitted Fennes to
continue working there.
In February 2012, Fennes allegedly sexually
abused Child M. He was subsequently indicted
for sexually abusing and endangering the
welfare of Child M. and several female
students from Montville, and his teaching
certificate was suspended.

Child M. v. Fennes, Docket No. A-0873-15T2, 2016

N.J. Super. Unpub. LEXIS 1955, *2-8 (App. Div. Aug.
25, 2016) (alterations and emphasis in original).

On this record, the Appellate Division ruled that
Montville “had a duty to take active steps to lessen
the risk of harm to the female children by reporting
Fennes to the Division and the Board Examiners.” Id.
at *14. As to the issue of causation, the court concluded
that “[a] reasonable jury could conclude that Montville
negligently failed to take steps that would have deterred
or prevented Fennes from obtaining employment at
another elementary school and negligently shielded
him the disclosure of his deviant conduct with female
students.” Id. at *17. Because Cedar Hills never asked
for additional information about Fennes’s character,
however, the Appellate Division affirmed the trial
court’s dismissal of Child M’s claims against Montville
to the extent they were based on an intentional or
negligent misrepresentation theory. Id. at *17-18.
E. This Case
While the Appellate Division appeal was pending,
on June 22, 2016, Montville filed this coverage action

App.71a
against Zurich. Originally, this action took the form
of an Order to Show Cause in New Jersey Superior
Court seeking a declaration that Zurich owed Montville
a duty to defend it under the CGL Coverage Part. In
July 2016, Zurich removed the case to this federal
court on grounds of diversity jurisdiction. See 28
U.S.C. § 1332. On July 29, 2016, Zurich answered the
complaint. (ECF No. 1, Ex. B.; ECF No. 3)
On August 23, 2016 Oust two days before the
Appellate Division decision, as it happened), the
parties submitted to this Court a joint scheduling
order in which they proposed trifurcation of the case.
Because the duty to defend is broader than and prior
to the duty to indemnify, the parties agreed that litigation of the duty to defend should occur first. (ECF
No. 8)
Montville filed in this Court a motion for partial
summary judgment regarding the duty to defend on
November 22, 2016. Zurich cross-moved for summary
judgment on December 16, 2016. (ECF Nos. 14, 17, 20)
In January 2017, Montville represented in a letter
to this Court that an appeal of the Appellate Division’s
decision to the New Jersey Supreme Court had been
concluded (by implication, in Child M’s favor)8 and
that a state-court trial of the Child M case was likely
to be scheduled soon. (ECF No. 21)

8 Neither WestLaw nor LexisAdvance indicates any subsequent
history for the Appellate Division decision, however.

App.72a
II.

Discussion
A. Summary Judgment Standard

A court “shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a); see
Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986)
(summary judgment is appropriate where “there is no
genuine issue of material fact to be resolved and the
moving party is entitled to judgment as a matter of
law.”); Alcoa, Inc. v. U.S., 509 F.3d 173, 175 (3d Cir.
2007). Summary judgment is desirable because it
eliminates unfounded claims without resort to a costly
and lengthy trial, Celotex, 477 U.S. at 327, but a
court should grant summary judgment only “if the
pleadings, depositions, answers to interrogatories,
and admissions on file, together with the affidavits, if
any, show that there is no genuine issue as to any
material fact and that the moving party is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(c).
When the parties file cross-motions for summary
judgment, the governing standard “does not change.”
Clevenger v. First Option Health Plan of N.J., 208 F.
Supp. 2d 463, 468-69 (D.N.J. 2002) (citing Weissman
v. U.S.P.S., 19 F. Supp. 2d 254 (D. N.J. 1998)). The
court must consider the motions independently, in
accordance with the principles outlined above. Goldwell
of N.J., Inc. v. KPSS, Inc., 622 F. Supp. 2d 168, 184
(D.N.J. 2009); Williams v. Philadelphia Housing Auth.,
834 F. Supp. 794, 797 (E.D. Pa. 1993), affd, 27 F.3d 560
(3d Cir. 1994). That one of the cross-motions is denied
does not imply that the other must be granted. For
each motion, “the court construes facts and draws

App.73a
inferences in favor of the party against whom the
motion under consideration is made” but does not
“weigh the evidence or make credibility determinations” because “these tasks are left for the factfinder.” Pichler v. UNITE, 542 F.3d 380, 386 (3d Cir.
2008) (internal quotation and citations omitted).
B. Analysis
There is only one question in this case: Does the
Child M state court litigation against Montville
assert claims “arising out of or in any way relating to
an ‘abusive act”‘?9 If so, Zurich does not have a duty
9 This exclusion, cited above, is contained in the GCL Coverage
Part, which does not really seem to be designed to cover sexual
abuse at all. A question arises as to why Montville is attempting
to shoehorn its claim into the GCL Coverage Part. After all,
Montville purchased abusive acts coverage separately in the AA
Coverage Part. And it concedes that it purchased that AA coverage
because the abusive act exclusion in the CGL Coverage Part is
essentially a “blanket exclusion.” (Pl. Reply. Br. 12)
The explanation would seem to lie in the “prior known acts”
exclusion of the AA Coverage Part. Montville cannot avail itself
of the AA coverage it purchased, because Zurich did not agree to
insure Montville for abusive acts it knew about before the effective date of the policy, i.e., July 1, 2011. And Montville’s prior
knowledge is the very essence of Child M’s claim against it.
When Montville originally filed this coverage action in New
Jersey Superior Court, it relied solely on the GCL Coverage
Part. (ECF No. 1, Ex. A) It did the same in its motion for summary judgment in this Court. Now, in response to Zurich’s
cross-motion for summary judgment, Montville makes a terse
claim of coverage under the AA Coverage Part. (Pl. Reply Br.
11-12) That contention lacks merit.
Without citation, Montville states that the “prior known acts”
exclusion applies only to abusive acts which it actually committed or participated in. (Id.) There is no such limitation in the
language of the exclusion, however. The exclusion broadly

App.74a
to defend Montville in that case; if not, Zurich does
have a duty to defend.
Guiding the duty-to-defend analysis are some wellestablished principles:
“[T]he duty to defend comes into being when
the complaint states a claim constituting a
risk insured against.” Whether an insurer
has a duty to defend is determined by comparing the allegations in the complaint with the
language of the policy. When the two
correspond, the duty to defend arises, irrespective of the claim’s actual merit. If the
complaint is ambiguous, doubts should be
resolved in favor of the insured and thus in
favor of coverage. When multiple alternatives causes of action are stated, the duty to
defend will continue until every covered
claim is eliminated.

Voorhees v. Preferred Mut. Ins., Co., 128 N.J. 165, 173-

174 (1992) (internal citations omitted).’10

Because this cases hinges on the meaning of an
exclusion contained in a general commercial liability
policy, the following principles of interpretation
apply:
applies to “any claim or ‘suit’ based upon, arising out of or
attributable, in whole or part, to any ‘abusive act’ of which any
insured . . . has knowledge prior to the effective date of this
Coverage Part.” (Def. SUMF ¶ 20; Pl. Resp. SUMF ¶ 20, quoting
Policy § I.2.d, U-GL-1275-A CW (04/2006)) (emphasis added)). I
therefore find that Zurich did not wrongfully disclaim under the
AA Coverage Part.
10 The parties do not dispute that New Jersey law governs the
interpretation of this insurance contract.

App.75a
Exclusionary clauses are presumptively valid
and are enforced if they are “specific, plain,
clear, prominent, and not contrary to public
policy.” If the words used in an exclusionary
clause are clear and unambiguous, “a court
should not engage in a strained construction
to support the imposition of liability.”
We have observed that “[i]n general, insurance policy exclusions must be narrowly
construed; the burden is on the insurer to
bring the case within the exclusion.” As a
result, exclusions are ordinarily strictly construed against the insurer, and if there is
more than one possible interpretation of the
language, courts apply the meaning that
supports coverage rather than the one that
limits it[.]
Nonetheless, courts must be careful not to
disregard the “clear import and intent” of a
policy’s exclusion, and we do not suggest
that “any far-fetched interpretation of a
policy exclusion will be sufficient to create
an ambiguity requiring coverage,” Rather,
courts must evaluate whether, utilizing a
“fair interpretation” of the language, it is
ambiguous.

Flomerfelt v. Cardiello, 202 N.J. 432, 441-43 (2010)

(internal citations omitted).

The CGL Coverage Part broadly provides insurance for claims of “bodily injury.” Everyone agrees
that Child M has alleged a bodily injury. (Pl. SUMF
¶ 9; Def. Resp. SUMF ¶ 9) And Child M has alleged
that the cause of that bodily injury was an “act or

App.76a
series of acts of actual or threatened abuse or
molestation” by Fennes. (Compl. p. 5 (alleging that
Fennes “performed various acts of sexual molestation
against” Child M)) What remains is a question of
interpretation: Do Montville’s alleged acts or omissions,
while not abusive acts themselves, nevertheless “arise
out of” or “relate to” Fennes’s abusive acts?
Surely they do. The GCL Coverage Part states in
plain and ordinary language that it excludes claims
of bodily injury “[a] arising out of or [b] in any way
relating to an ‘abusive act.’“ Phrase [a) has a broad,
well-accepted meaning: “The critical phrase ‘arising
out of,’ which frequently appears in insurance policies,
has been interpreted expansively by New Jersey courts
in insurance coverage litigation.” Am. Motorists Ins.
Co. v. L-C-A Sales Co., 155 N.J. 29, 35-56 (1998) (noting
that “arising out of” has been defined to mean
conduct “originating from,” “growing out of,” having a
“substantial nexus to,” “connected with,” “had its
origins in,” “flowed from,” or “incident to,” to excluded
act) (quoting Records v. Aetna Life & Cas. Ins., 294
N.J. Super. 463, 468 (App. Div. 1996) and Allstate
Ins. Co. v. Moraca, 244 N.J. Super. 5, 13 n.1 (App.
Div. 1990)). Phrase [b] is even broader. It applies to
any claim for bodily injury that in any way relates to
an abusive act. The allegations here are that, but for
Montville’s failures, Child M would not have suffered
sexual abuse. Montville allegedly knew that Fennes
had abused Montville children and (at best) did
nothing or (at worst) took steps to conceal his conduct
from potential employers. Those allegations against
Montville “arise out of,” “originate from,” “grow out
of,” have a “substantial nexus to,” “connect with,”
“have their origins in,” “flow from,” or are “incident

App.77a
to,” Fennes’s abusive acts. More generally, they “relate
to” abusive acts, not just in “any way,” but in every
way that matters.
Montville cannot really maintain that its potential
liability in the Child M litigation does not relate in
any way to abusive acts. Montville’s alleged knowledge
of, and silence about, Fennes’s abusive acts against
Montville students are alleged to have facilitated
Fennes’s predations at Cedar Hill. To be sure, Montville
did not itself commit the acts of abuse against Child
M—it is a school district, not a person. But the policy
language contains no basis to carve out cases in which
the insured’s liability arises from its own negligent or
intentional conduct which enabled or contributed to a
natural person’s commission of an abusive act.11
11 Montville cites Nationwide Mut. Fire Ins. Co. u. Pipher, 140
F.3d 222 (3d Cir. 1998), which has some factual parallels to this
case but does not involve the same interpretive issue. In Pipher,
the insured, a landlord, allegedly was negligent in hiring a painter
who killed a tenant. The case rested, not on the definition of an
“abusive act,” but on the definition of an “occurrence.” An
insurable occurrence is essentially an accident; the definition
reflects a general wariness about insuring a party against its own
intentional acts. The Court of Appeals recognized that the direct
cause of the tenant’s death was not an accident, but a third party’s
intentional act; nevertheless, judged from the perspective of the
insured landlord, the insured risk was one of negligence. The
rule, said the Third Circuit, is that “it is the intentional conduct
of the insured which precludes coverage, not the acts of third
parties.” Id. at 226. Thus, applying Pennsylvania law, the Third
Circuit ruled that the term “occurrence” “includes bodily injury
or death which is directly caused by the intentional act of a
third party, but which is also attributable to the negligence of
the insured.” Id. at 227.
This case, by contrast, involves neither Pennsylvania law nor
the meaning of “occurrence.” Whether or not sexual abuse is an

App.78a
A related line of argument emphasizes that Fennes
was not employed by Montville when he allegedly
abused Child M. “Abusive acts,” however, are not
defined to include only those committed against
Montville students. Far from it: An abusive act is
“any act or series of acts of actual or threatened
abuse or molestation done to any person by anyone.”
(Def. SUMF ¶ 16; Pl. Resp. SUMF ¶ 16) Any claim for
bodily injury “arising out of or in any way relating to
an abusive act” is thus excluded from coverage without
reference to the identity of the assailant or victim,
their relation to each other, or their relation to
Montville. For purposes of the abusive-acts exclusion,
it does not matter that Montville no longer employed
Fennes or that Child M was not a Montville student.
Montville also leans heavily on the lapse of two
years (or more) between Montville’s alleged acts or
omissions and Fennes’s abusive acts at Cedar Hill.
That gap, Montville says, belies any “close causal
connection and temporal relationship” or “substantial
nexus” between its negligent conduct and the abusive
acts that caused of Child M’s injuries. Thus, it
claims, Zurich cannot show that Child M’s injuries
“arose out of the abusive act exclusion. One short
answer, of course, is that the Appellate Division has
already ruled as a matter of law that a jury could
“occurrence”—and no one seems to be disputing that issue—it is
explicitly excluded from coverage under the GCL Coverage
Part. That exclusion for “abusive acts” makes no distinction
between intentional or negligent abusive acts of Montville, its
employees, its agents, or third parties. It simply eliminates all
abusive-acts coverage from the GCL Part, relegating it to a
separately-purchased AA line of coverage that deals with it specifically (and which, for entirely separate reasons, does not
apply here).

App.79a
find proximate cause under these circumstances. Child
M. v. Fennes, 2016 N.J. Super. Unpub. LEXIS 1955,
*17.
But to really understand what Montville means—
and why it is mistaken—requires a discussion of
Flomerfelt v. Cardiello, 202 N.J. 432 (2010), which
Montville cites in support of its argument. In Flomerfelt,
the New Jersey Supreme Court considered the meaning
of “arising out of in a policy exclusion when a “claim
for a personal injury asserts multiple possible causes
and theories for recovery against the insured,” some
of which are covered but others not. Id. at 454. The
plaintiff in the underlying suit in Flomerfelt overdosed
on alcohol and drugs at a party held by the defendant
at his parents’ home. The plaintiff sued the defendant
for giving her drugs and alcohol and not promptly
calling for help when she was found unconscious. The
defendant tendered his defense to the carrier of his
parents’ homeowner’s policy. Although plaintiff’s
complaint referred to both drugs and alcohol, the
insurer disclaimed a duty to defend because the policy
expressly excluded one of those two causes: claims
“arising out of the use, . . . transfer or possession” of
controlled substances. The defendant then sought a
declaration that the insurer was obligated to defend
and indemnify him. Id. at 437-39.
The Court ruled in favor of the insured. It conceded
that prior cases had deemed the phrase “arising out
of to be “clear and unambiguous” when used in an exclusion. Nevertheless, the Court said, its usual equivalents—”originating from,” “growing out of,” or having
a “substantial nexus”—may apply differently when
the actual cause of a plaintiff’s injury is unclear. Id. at
454. “Originating from” and “growing out of,” for

App.80a
example, might exclude coverage only if the plaintiffs
drug use had “a close causal connection and a temporal
relationship in which the injury is part of a chain of
events that began with the use of a drug at a party.”
Id. at 455. “A substantial nexus,” on the other hand,
might broadly exclude coverage if the drug use was
merely “part of interrelated or concurrent causes” of
the plaintiff’s injury. Id. The Flornerfelt plaintiff’s
complaint, moreover, did not specify the precise cause—
whether drug use, alcohol use, both, or something
else—of her injuries. Applying the usual rules that
ambiguity is construed against the insurer and that
the duty to defend continues until all potentially
covered claims are resolved, the court concluded that
the insurer had a duty to defend.
The case of Montville and Child M is plagued by
no such imprecisions or ambiguities. The terms of the
exclusion here are “specific, plain, clear, prominent,
and not contrary to public policy.” Id. at 441. There is
no special circumstance rendering the meaning of
“arising out of or in any way related to” ambiguous
and requiring that the phrase be construed against
Zurich.12
Nor is there any dispute about the actual cause
of Child M’s injuries. The complaint alleges just one:
Fennes allegedly “sexually assaulted, inappropriately
touched, and otherwise abused” Child M, which
caused “severe personal injuries.” (Compl. 2, 5, 12-15).
12 Indeed, as to public policy, Zurich raises the opposite argument. Failing to exclude coverage of persons or entities that are
complicit in sexual abuse, it says, would violate public policy.
Because I ultimately find that Zurich has no duty to defend
Montville in the Child M. litigation, I do not reach that argument.

App.81a
The problem tackled by Flomerfelt what to do when
“claim for a personal injury asserts multiple possible
causes”—is not present in this case. “Abusive acts”
are the sole cause of the injury here, and the entire
case arises from them. Flomerfelt’s discussion of the
possible meanings of “arising out of” does not control
the straightforward issue of interpretation in this
case.
To reiterate, it does not matter, as Montville
frequently suggests, that Fennes actually committed
the abusive acts while Montville only created the risk
that those acts would occur. That Child M seeks to
recover from more than one defendant based on more
than one theory of liability is not the same thing as
saying that more than one cause, one covered and
one not, combined to inflict an indivisible injury.
That principle—that a court should consider the
cause of the injury, not disparate theories of liability,
when interpreting “arising out of” language in an
exclusion—is implied in much of the case law on this
issue.
Here is one example, from the New Jersey
Supreme Court. In the underlying suit in Memorial
Properties, LLC v. Zurich Am. Ins. Co., 210 N.J. 512
(2012), the defendants, the manager and owner of a
cemetery and crematory, were accused of intentionally or negligently allowing a dentist and a “master
embalmer” to dissect, harvest, and sell parts of plaintiffs’ decedents’ corpses. One of defendants’ insurance
policies included an exclusionary clause that denied
coverage for claims of bodily injury “arising out of”
the “improper handling” of human remains. “Improper handling” was defined as, inter alia, “[f]ailure to
bury, cremate or properly dispose of a ‘deceased body.”‘

App.82a
Defendants claimed that the negligence claims against
them fell outside the “improper handling” exclusionary
clause, so the insurer had a duty to defend. Id. at
518-22.
The court disagreed. True, the manager and
owner did not themselves commit any act of desecration.
But the allegation that they knowingly allowed the
dentist and others access to the decedents’ remains—
that they played an enabling role in the illegal
harvesting scheme—fell “squarely within the parameters of the exclusionary clause.” Id. at 529. And so,
too, did the negligence claim, because “if, as alleged
by the families of decedents, negligence in the care or
custody of the decedents’ remains exposed those
remains to illegal harvesting, then the emotional harm
consequently inflicted upon the families would ‘arise
out of [defendants’] negligence in failing to ‘properly
dispose’ of their decedents’ bodies.” Id. at 529-30
(emphasis added). Thus, ruled the court, plaintiffs
alleged no covered claim, and the insurer did not
have a duty to defend.
For purposes of argument, I can even assume
that Flomerfelt may apply in a case where there is
only one cause of a plaintiffs injury. Montville still fails
to account for the language immediately following
the phrase “arising out of.” Flomerfelt, 202 N.J. at
452 (“In some cases, an exclusion itself may add
other language to the phrase ‘arising out of that will
assist in the analysis. . . . In interpreting such language, courts separately consider the meaning of
each phrase and then collectively analyze the intent
of the exclusion to decide whether the complaint falls
within its scope.”) The exclusion here also encompasses claims for bodily injury “in any way relating to”

App.83a
to abusive acts. From that broad formulation there is
no escape.13
Interpreted as a whole, the phrase “arising out
of or in any way relating to” is broad enough to
capture allegations that Montville’s failure to alert
the proper authorities created a risk that Fennes
13 Montville has a partial fallback position. It suggests that
Zurich must defend it from any claim of intentional or negligent
infliction of emotional distress (“IIED” or “NIED”) under
Abouzaid v. Mansard Gardens Assocs., LLC, 207 N.J. 67 (2011).
Such a claim, Montville seems to say, is independent any of
Fennes’s abusive acts but still covered as a claim for “bodily
injury.”
As explained elsewhere in this Opinion, Montville cannot so
easily divorce its alleged conduct from Fennes’s abusive acts.
And even if it could, Abouzaid would still be inapposite. The
issue in Abouzaid was whether, under a “bodily injury” clause,
an insurer is obligated to defend its insured for a claim of NIED
that did not allege physical injury. Because NIED claims require distress that is extreme, the court ruled, the insurer
should presume physical sequelae until the issue of physical
injury definitively drops out of the case. The TIED and NEID
claims here, though, allege both physical and emotional injuries,
and stem from the allegation that Fennes “performed various
acts of sexual molestation” on Child M. (Compl. pp. 5, 11-15
(incorporating allegations against Fennes and alleging that
Montville’s negligence or misrepresentations caused Child M.
“extreme emotional distress,” as well as “severe personal
injuries.”) Zurich therefore has no duty to defend Montville
from an Abouzaid-type emotional distress claim.
I note in passing that such an emotional distress claim, if
asserted, might nevertheless have fallen within the definition of
abusive acts. That definition includes threatened acts of abuse
or molestation, which are excluded from coverage. Cf. Abouzaid,
at 88 (“[A] policy providing coverage for claims of ‘bodily injury’
will be understood to require a defense from the filing of a [negligent infliction of emotional distress] complaint unless such a
defense is specifically excluded by other contract language.”).

App.84a
would abuse future students. It is also broad enough
to capture allegations that Montville virtually knew
that Fennes would abuse students at other schools
when it agreed to keep mum on his past abusive acts
in exchange for his resignation.
Comparing the entire language of the exclusion
to Child M’s allegations, I have no difficulty finding a
sufficiently close causal connection between Montville’s
misrepresentations or negligence and Fennes’s abusive,
injury-causing acts. As the Appellate Division has
already ruled, a properly instructed jury could find
proximate cause on these facts. Child M v. Fennes,
2016 N.J. Super. Unpub. LEXIS 1955, *17. By either
reporting Fennes to the authorities, or at least by not
concealing his acts of abuse from Cedar Hills, which
hired him, Montville allegedly made the abuse of
Child M possible, despite being in a position to prevent
it. Abusive acts—those of which Montville was aware
from 1998-2010, or those which occurred later, in
2010-2012—are the foundation of Montville’s liability
to Child M. A lapse of two years is a factual circumstance, not a statute of repose; if the allegations of
the underlying complaint are correct, when Montville
acted as it did, it knew or should have known that,
late or soon, abuse was likely to follow.
In short, the terms of the abusive act exclusion
are “clear and unambiguous,” and I will not “engage in a
strained construction” to support coverage. Flomerfelt
202 N.J. at 442. Comparing the Montville’s policy to the
complaint, there is no doubt that the parties expected
and intended to exclude coverage for such claims
under the GCL Coverage Part.
[* * * ]

App.85a
To recap: Montville’s policy with Zurich unambiguously excludes claims for bodily injury that arise
out of or in any way relate to abusive acts. Child M
alleges that Fennes sexually abused or molested her,
and that Montville knew that he had done the same
to previous students. The claim is that if Montville
had reported Fennes to the appropriate authorities
or told potential employers what it knew, Child M
would not have been abused. Setting the terms of the
policy alongside Child M’s complaint, I must conclude
that such allegations arise out of are related to
abusive acts, and therefore are well within the
bounds of the “abusive act” exclusion. Zurich has no
duty to defend Montville.
III. Conclusion
For the foregoing reasons, Montville’s motion for
summary judgment is DENIED, and Zurich’s crossmotion for summary judgment is GRANTED.
/s/ Kevin Mcnulty
United States District Judge
Dated: June 1, 2017

App.86a
ORDER OF THE
DISTRICT COURT OF NEW JERSEY
(JUNE 1, 2017)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
MONTVILLE TOWNSHIP BOARD OF
EDUCATION,

Plaintiff,
v.
ZURICH AMERICAN INSURANCE CO.,

Defendant.

________________________

Civ. No. 16-4466 (KM) (MAH)
Before: Kevin MCNULTY,
United States District Judge.
KEVIN MCNULTY, U.S.D.J.
THIS MATTER having come before the Court on
cross motions for summary judgment filed by Plaintiff
Montville Township Board of Education (“Montville”)
(ECF No 14) and Defendant American Guarantee &
Liability Insurance Co. (ECF No. 17) (incorrectly pled
as Zurich American Insurance in the Complaint)
(“AGLIC”), pursuant to Federal Rule of Civil Procedure 56; and the Court having considered without
oral argument the moving, opposition, and reply
papers of the parties’ motions for summary judgment

App.87a
and statements of material undisputed facts (ECF Nos.
14-2, 14-3, 17-1, 17-2, 17-3,20,20-1); for the reasons
set forth in the accompanying Opinion, and for good
cause shown:
ORDERED that Montville’s motion for summary
judgment is DENIED; and it is further
ORDERED AGLIC’s motion for summary judgment is GRANTED; and it is further
ORDERED that AGLIC has no obligation to
defend Montville or reimburse legal fees to Montville
related to the matter entitled Child M., minor by her
g/a/l v. Jason Fennes, et al, Dkt. No. MID-L-6011-12
(the “Child M action”); and it is further
ORDERED that AGLIC has no obligation to
indemnify Montville with regard to the Child M
action; and it is further
ORDERED that the complaint (ECF No. 1) is
dismissed WITH PREJUDICE.
The clerk shall close the file.
/s/ Kevin Mcnulty
United States District Judge

App.88a
NOTICE OF APPEAL TO THE U.S. COURT OF
APPEALS FOR THE THIRD CIRCUIT
(SEPTEMBER 18, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
MONTVILLE TOWNSHIP BOARD OF
EDUCATION,

Plaintiff,
v.
ZURICH AMERICAN INSURANCE CO.,

Defendant.

________________________

Docket No. 2:16-cv-04466-KM-MAH
Before: Kevin MCNULTY,
United States District Judge.
Notice is hereby given that Plaintiff, Montville
Township Board of Education, appeals to the United
States Court of Appeals for the Third Circuit from
the Order granting Defendant’s Motion for Summary
Judgment and denying Plaintiff’s Cross-Motion for
Summary Judgment of the United States District
Court, District of New Jersey, entered in this action
on August 21, 2018.

App.89a
Montville Township Board of
Education, Appellant
On behalf of Appellant:
Weiner Law Group LLP
By: /s/ Stephen J. Edelstein
629 Parsippany Road
Parsippany, New Jersey 07054
(973) 403-1100
Dated: September 18, 2018

App.90a
BRIEF ON BEHALF OF PLAINTIFF
MONTVILLE TOWNSHIP BOARD OF
EDUCATION IN SUPPORT OF ITS MOTION
FOR RECONSIDERATION OF THIS COURT’S
ORDER OF JUNE 1, 2017
(JUNE 15, 2017)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
MONTVILLE TOWNSHIP BOARD OF
EDUCATION,

Plaintiff,
v.
ZURICH AMERICAN INSURANCE COMPANY,

Defendant.

________________________

Civil Action No. 2:16-cv-04466-KM-MAH
Schwartz Simon
Edelstein & Celso LLC
100 South Jefferson Road, Suite 200
Whippany, New Jersey 07981
(973) 301-0001
Attorneys for Plaintiff,
Montville Township Board of Education

App.91a
PRELIMINARY STATEMENT
Unlike many, this is a motion for reconsideration
in which there actually is additional evidence, not
previously before the Court, which came into the
possession of Plaintiff’s counsel on June 12, 2017,
eleven days after the Court’s Opinion and Order. That
document, which contains critical information, is
filed (under seal) in connection with this motion.
For the reasons set forth in this Brief and in the
accompanying Certification of Stephen J. Edelstein,
Esq., the Montville Township Board of Education
(“Board”) seeks reconsideration of the Honorable Kevin
McNulty, U.S.D.J.’s Opinion and Order of June 1, 2017
denying the Board’s Motion for Summary Judgment
and granting the Cross-Motion for Summary Judgment
filed by Defendant American Guarantee & Liability
Insurance Company, a wholly owned subsidiary of
Zurich American Insurance Company (“Zurich”), Once
reconsidered, the Board urges either an outright
reversal of the Order or, in the alternative, a plenary
hearing to determine the state of the Insured’s knowledge of “abusive acts” prior to July 1, 2011.
The factual history of the underlying events which
give rise to the claim for coverage by the Board is
complex, spanning more than a decade, and including
District-level personnel action, multiple law suits, all
still unresolved, an Appellate Division Opinion, multiple
investigations by the New Jersey Institutional Abuse
Investigation Unit (“IAIU”), and criminal charges.
There is a significant volume of material to digest,
and, because of the relevant language in the insurance
policy at issue, there is a complicated chronology of
events which must be described accurately.

App.92a
In its June 1, 2017 written Opinion, reflected in
an Order of the same date, the Court made some
critical errors in reciting what actually took place
and then in applying the policy language and the
applicable law to those erroneous factual conclusions.
In this Brief, we will identify and explain the sources
of these errors and how they led to legal conclusions
that must be reexamined.
PROCEDURAL HISTORY
The Board relies upon the extensive procedural
history set forth in the papers submitted in support
of its Motion for Summary Judgment.
In brief, on November 22, 2016, the Board filed
a Motion for Summary Judgment on the issue of
Zurich’s duty to defend the Board in the Child M
Lawsuit. On December 16, 2016, Zurich filed a CrossMotion for Summary Judgment. On January 13,
2017, the Board filed its Reply Brief in Further Support of Its Motion for Summary Judgment and In Opposition To Zurich’s Cross-Motion. On June 1, 2017, the
Honorable Kevin McNulty, U.S.D.J. (“Judge McNulty”),
issued a written Opinion denying the Board’s Motion
for Summary Judgment and granting Zurich’s CrossMotion for Summary Judgment. The Board now files
this timely. Motion for Reconsideration seeking
reconsideration of Judge McNulty’s June 1, 2017 decision.

App.93a
LEGAL ARGUMENT
POINT I
THE COURT SHOULD GRANT THE BOARD’S MOTION FOR
RECONSIDERATION BECAUSE CRITICAL ERRORS IN
RECITING THE FACTS LED TO INCORRECT LEGAL
CONCLUSIONS. IN ADDITION, NEW EVIDENCE SHOWS
THAT THE BOARD HAD NO KNOWLEDGE OF ABUSIVE ACTS
PRIOR TO JULY 1, 2011.
A.

The Applicable Standard of Review

L. Civ. R. 7.1(i) governs motions for reconsideration. A District Court exercises discretion on the
issue of whether to grant a motion for reconsideration. N. River Ins. Co. v. Cigna Reins. Co., 52 F.3d
1194, 1203 (3d Cir. 1995). Motions for reconsideration should only be filed to correct manifest errors of
law or fact or to present newly discovered evidence.
Harsco Corp. v. Zlotnicki, 779 F.2d 906 (3rd Cir.
1985). As a general matter, parties seeking reconsideration must show “(1) an intervening change in the
controlling law; (2) the availability of new evidence
that was not available when the court granted the
motion . . . or (3) the need to correct a clear error of
law or fact or to prevent manifest injustice?” Max’s
Seafood Café v. Quinteros, 176 F.3d 669, 677 (3d Cir.
1999). Pursuant to L. Civ. R. 7.1(i), parties moving
for reconsideration must set forth the matter or
controlling decisions which the parties believe the
Judge has overlooked.
Reconsideration is justified when the “dispositive
factual matters or controlling decisions of law . . . were
presented to, but not considered by, the court in the

App.94a
course of making the decision at issue.” Yurecko v. Port
Auth. Trans-Hudson Corp., 279 F.Supp.2d 606, 609
(D.N.J. 2003). See also United States v. Compaction
Sys. Corp., 88 F.Supp.2d 339, 345 (D.N.J. 1999).
(“Only where the court has overlooked matters that,
if considered by the court, might reasonably have
resulted in a different legal conclusion, will it entertain
such a motion.”) The party seeking “must show more
than a disagreement with the Court’s decision.” G-69
v. Degnan, 748 F. Supp. 274, 275 (D.N.J. 1990). Further, the moving party’s burden requires more than a
mere “recapitulation of the cases and arguments
considered by the court before rendering its original
decision[.]” Ibid. (internal quotation marks omitted).
For the reasons set for infra, these standards are
met here.
B.

The Definition of “Abusive Act” Is Clearly Stated
in the Policy. In Addition, the Policy Must Be
Construed Liberally in Favor of Coverage.

At all relevant times, Zurich insured the Board
under a commercial general liability policy (the
“Policy”). See Judge McNulty’s Opinion at p. 4. The
Policy provides for insurance for bodily injury caused
by an occurrence, and it defines bodily injury as a
“bodily injury, sickness or disease sustained by a
person,” including “mental anguish, mental injury,
shock, fright or death resulting from bodily injury,
sickness, or disease.” Ibid.
While claims for bodily injury arising out of
“Abusive Acts” are excluded from coverage in the
GCL Coverage Part, it is undisputed that the Board
purchased an Endorsement entitled “Abusive Act
Liability Coverage Form” (“Endorsement”) which

App.95a
explicitly provides for insurance for “loss because of
‘injury’ resulting from an ‘abusive act’”. See Judge
McNulty’s Opinion at p. 5.
i. “Abusive Acts” Defined.
Quoted at length in the Court’s Opinion from the
Policy, “abusive acts” are defined as “any act or series
of acts or actual or threatened abuse or molestation
done to any person, including any act or series of acts
of actual or threatened sexual abuse or molestation
done to any person by anyone who causes or attempts
to cause the person to engage in a sexual act: (a)
without the consent of or by threatening the person,
placing the person in fear or asserting undue influence
over the person; (b) If that person is incapable of appraising . . . engag[ing] in the sexual act; or (c)
By . . . lewd exposure . . . .” [emphasis added]. In
other words, “acts of actual or threatened sexual
abuse or molestation” are required to meet the policy’s
definition.1
ii. Construction of the Policy Language
It is the prevailing law, however, that insureds
should not be subjected to technical encumbrances or
to hidden pitfalls, and their policies should be construed
liberally in their favor to the end that coverage is
afforded “to the full extent that any fair interpretation
will allow.” See Kievit v. Loyal Protective Life Ins.
Co., 34 N.J. 475, 482 (1961). This doctrine has been
applied to all forms of insurance contracts. See, e.g.,
Zacarias v. Allstate Ins. Co., 168 N.J. 590, 601-603
1 There is no contention here of any act of lewd or indecent
exposure.

App.96a
(2001) (discussing reasonable expectations under
boat owner’s insurance policy); Doto v. Russo, 140
N.J. 544, 556-559 (1995) (addressing insured’s reasonable expectations under a commercial-umbrella
liability policy related to underinsured motorist
coverage); Sparks v. St. Paul Ins. Co., 100 N.J. 325,
338-39 (1985) (applying doctrine in the context of
professional liability). It is well settled that where a
policy’s terms are ambiguous, “they are construed
against the insurer and in favor of the insured, in
order to give effect to the insured’s reasonable expectations.” See Flomerfelt v. Cardiello, 202 N.J. 432, 441
(2010) (citing Doto, supra, 140 N.J. 544 (1995)).
In this legal context, the Court’s conclusion that
Montville knew of abusive acts by Fennes prior to
July 1, 2011 must be re-examined. Once re-examined,
that factual conclusion, which was the basis for
invalidating the coverage, must either be overruled
outright or become the subject of a plenary hearing.
POINT II
THE COURT ERRED IN FINDING THAT THE BOARD HAD
KNOWLEDGE OF ABUSIVE ACTS PRIOR TO THE POLICY
PERIOD BEGINNING JULY 1, 2011. THAT ERROR LED TO
THE LEGAL CONCLUSION THAT THE ABUSIVE ACTS
COVERAGE WAS INVALID WHEN, IN FACT, IT WAS VALID
A.

The Court’s Key Determination.

The Court’s Opinion concludes that the Board had
knowledge of “Abusive Acts,” as defined by the Policy,
prior to the effective Policy date of July 1, 2011. This
is a critical determination, because Judge McNulty’s
Opinion states:

App.97a
There is only one question in this case: Does
the Child M state court litigation against
Montville assert claims “arising out of or in
any way relating to an ‘abusive act’”? If so,
Zurich does not have a duty to defend
Montville in that case; if not, Zurich does
have a duty to defend.

See Judge McNulty’s Opinion at p. 13. Even though

Montville purchased Abusive Acts coverage, the
Court focused on the “prior known acts” exclusion of
the “AA Coverage Part.” Id. at n. 9. The Court reasons
that, “Montville cannot avail itself of the AA coverage
it purchased, because Zurich did not agree to insure
Montville for abusive acts it knew about before the
effective date of the policy, i.e., July 1, 2011.” Ibid.
The Court emphasizes that “Montville’s prior knowledge
is the very essence of Child M’s claim against it.”
Ibid. The Court noted that:
The exclusion broadly applies to “any claim
or ‘suit’ based upon, arising out of or
attributable, in whole or part, to any
‘abusive act’ of which any insured . . . has
knowledge prior to the effective date of this
Coverage Part.” I therefore find that Zurich
did not wrongfully disclaim under the AA
Coverage Part. Ibid. (Emphasis in original.)
Further in the Opinion, the Court states,
“Montville cannot really maintain that its potential
liability in the Child M litigation does not relate in
any way to abusive acts. Montville’s alleged knowledge
of, and silence about Fennes’ abusive acts against
Montville students are alleged to have facilitated
Fennes’ predations at Cedar Hill.” Id. at p. 15. At the
end of the Opinion, Judge McNulty states, “Abusive

App.98a
acts—those of which Montville was aware from 1998
to 2010, or those which occurred later, in 20102012—are the foundation of Montville’s liability to
Child M.” Id. at p. 21.
B.

The Errors and
Reconsideration.

New

Evidence

Requiring

This sweeping conclusion is false and unsupported by the factual record.
On the very first page of the Opinion, the Court
states, “[i]n 2012, one of Fennes’ alleged victims,
Child M, a Cedar Hill student, sued (among others)
Montville.” See Judge McNulty’s Opinion at p. 1.
This is incorrect, and although the correct date is
used later in the Opinion, it is unclear what import
the Court has placed on this misstatement.
The fact is that as of 2012, Montville had absolutely no knowledge of any Child M. suit. On or about
August 30, 2012, Child M filed a complaint against
Cedar Hill Prep School and Fennes, alleging that
Child M suffered bodily injury at the hands of
Fennes, when he was an employee of Cedar Hill, on
or about February 21, 2012. The Board was not a
party to this action, and the allegations of the original Child M Complaint were directed only at Cedar
Hill and Fennes. The Board had no knowledge of the
Child M action or of its allegations until August,
2014, when Cedar Hill first asserted claims against
the Board in a separate action known as Cedar Hill

Prep School v. Montville Township Public Schools
and Montville Board of Education, Docket No. Mid-L-

4842-14. Child M did not assert claims against the
Board until January 23, 2015, through the filing of a

App.99a
Third Amended Complaint. See SJE Cert. at Exhibit
B.2
But most importantly, although aware of some
children sitting on his lap, a very occasional kiss on
the cheek, and some hand holding (all of which the
District took appropriate steps to abate), Montville
did not have knowledge of anything remotely meeting
the policy definition of “Abusive Acts” prior to July 1,
2011.
i. The Court’s Emphasis on the Allegations of
the Complaint Is Misplaced.
The Complaint filed by Child M, taken broadly,
alleges that the Board was aware that Fennes had
committed abusive acts. But this mere allegation is
not determinative of coverage. Instead, the Court has
a duty to consider all of the facts in the record,
including those outside the Complaint.
In SL Indus. v. Am. Motorists Ins. Co., the New
Jersey Supreme Court addressed the issue of “whether
the duty to defend is triggered by facts indicating
potential coverage that arise during the resolution of
the underlying dispute.” SL Indus. v. Am. Motorists
Ins. Co., 128 N.J. 188, 198-199 (1992). In its reasoning,
the Court opined that, “[i]nsureds expect their coverage
and defense benefits to be determined by the nature
of the claim against them, not by the fortuity of how
the plaintiff, a third party, chooses to phrase the
complaint against the insured.” Ibid. The Court
explained that, “[t]o allow the insurance company ‘to
2 Except as otherwise noted, references to the SJE Cert. are to
the Certification of Stephen J. Edelstein, Esq., previously submitted in connection with the Motion for Summary Judgment.

App.100a
construct a formal fortress of the third party’s pleadings and to retreat behind its walls, thereby
successfully ignoring true but unpleaded facts within
its knowledge that require it, under the insurance
policy, to conduct the putative insured’s defense’
would not be fair.” Ibid. (citing Associated Indem. v.
Insurance Co. of N. Am., 68 Ill. App. 3d 807 (1979)).
The Court emphasized that, “[m]any states agree
that the duty to defend is triggered not only by the
allegations in the complaint, but by the later
discovery of relevant facts.” Id. at 199. It further
stated, “[t]he insurer cannot safely assume that the
limits of its duties to defend are fixed by the allegations a third party chooses to put into his complaint,
since an insurer’s duty is measured by the facts.”
Ibid. (citing J.A. Appleman, 7C Insurance Law and
Practice § 4683, at 56 (Berdal ed. 1979)). The Court
maintained that “[o]ur holding is in accord with most
insureds’ objectively-reasonable expectations” and
concluded that “facts outside the complaint may
trigger the duty to defend.” Id. at 198.
Other New Jersey Courts have consistently
followed the holding in SL Indus. v. Am. Motorists
Ins. Co. See Columbus Farmers Mkt., LLC v. Farm
Family Cas. Ins. Co., 2006 U.S. Dist. LEXIS 92448
*27 (D.N.J. Dec. 21, 2006) (“analysis of the
allegations is not limited to the complaint, itself, but
rather ‘facts outside the complaint may trigger the
duty to defend.’”). See Certification of Susan S. Hodges,
Esq., Exhibit A. The Third Circuit has also reached the
same conclusion. See Alexander v. Nat’l. Fire Ins.,
454 F.3d 214, 220 (3d Cir. 2006). In Alexander, the
Court held:

App.101a
In determining whether an insurance company has a duty to defend under the terms
of its policy, we are not limited to the facts
and allegations contained within the four
corners of the underlying complaint; rather,
“facts outside the complaint may trigger the
duty to defend.” SL Indus., Inc. v. Am.
Motorists Ins. Co., 128 NJ. 188 (1992) . . . .
Accordingly, it is proper to consider evidence
not set forth in the underlying litigation in
determining whether [the insurance company] owed any duties to the [insured] in
[the underlying] litigation.
Referencing the Court’s “broad holding” in SL
Indus. v. Am. Motorists Ins. Co., the New Jersey
Appellate Division has held that “the duty to defend
is not necessarily limited to what is set forth in the
complaint.” Jolley v. Marquess, 393 NJ. Super. 255,
271-272 (App. Div. 2007) (citing SL Indus. v. Am.
Motorists Ins. Co., 128 NJ. at 198-199). Moreover,
the Appellate Division has determined that “[t]here
is legal support for [the insured’s] reliance on ‘extrinsic
facts’ to bring [the third party’s] allegations within
the terms of the [insurance] policy. Estate of Hart v.
Singer, 2008 N.J. Super. Unpub. LEXIS 2109 *11-12
(App. Div. Nov. 28, 2008) (citing Jolley v. Marquess,
393 N.J. Super. at 271.)) See Certification of Susan S.
Hodges, Esq., Exhibit B.
When the external facts in this case are examined, it is clear that the Board did not have knowledge
and could not have had knowledge of “abusive acts,”
as defined, prior to July 1, 2011.

App.102a
ii. The District Court’s Emphasis on the
Appellate Division’s Version of the Facts Is
Also Misplaced.
The Court cites, verbatim, nearly four (4) pages
of the Appellate Division’s reversal of the lower
court’s decision granting the Board’s Motion for
Summary Judgment in the Child M Lawsuit. The
Opinion states that, “Montville knew that Fennes was
engaged in inappropriate physical contact with female
students.” See Judge McNulty’s Opinion at p. 7. However, the term “inappropriate physical contact” is not
the same as the defined term “Abusive Acts.”
The Court opines, “[t]he claim is that if Montville
had reported Fennes to the appropriate authorities or
told potential employers what it knew, Child M
would not have been abused,” Id. at p. 22. As will be
seen in Section iii, infra, this is not the case. Contrary to the Appellate Division’s version of the facts,
Montville and its employees did report their concerns
about Fennes’ conduct to DYFS in June 2008, July
2009, and March 2010. The Institution Abuse Investigation Unit’s investigation and conclusions are
discussed in Section iii.
iii. Newly Acquired Evidence That Requires
Reconsideration.
Montville was always aware of its duty to report
abusive acts to the insurer. For example, as soon as
Montville learned of Fennes’s indictment in 2012, it
promptly reported that fact to Zurich. The allegations
in the Child M case were also properly and promptly
reported to Zurich.

App.103a
As set forth in the Certification of Stephen Edelstein, Esq. (“Edelstein Cert.”) filed under seal on
June 15, 2017, counsel is now in possession of the 30
page IAIU investigation summary and conclusions. See
Edelstein Cert. at Exhibit A.
That 30 page report details a very extensive IAIU
investigation which took place between March and May
of 2010. The Court will recall that Fennes resigned in
May of 2010, effective June 30, 2010.
Not previously available to counsel or to the
Court, the “Recommendations” and “Investigative
Findings” are so important that they are quoted here
at length:
Recommendation:
Investigative Observations
No students were harmed. Seven students
reported the AP3 sitting at his desk during
a movie and two students reported the AP
sitting with the students on the carpet. Six
students reported also sitting at their desk.
Four students report the AP keeping his
shoes on while watching movies and five
student witness (sic) reported keeping their
shoes on while watching a movie. Only two
students reported keeping their shoes off
while watching a movie. Two students
reported keeping their shoes off and rubbing
each other’s feet. Eight students reported
that nobody in the class rubs each others
feet. Ten out of eleven students reported
that the AP allows the kids to sit on his lap.
3 Accused Party

App.104a
Thirteen students reported that the AP does
not share his lip balm with students and
twenty two students reported that the AP
does not rub lotion on the student’s legs.
One out of fourteen female students reported
seeing a female student wearing a sports
bra during track practice. Sixteen students
reported that they have never seen the AP
coming inside the girl’s locker room. Six out
of eight students reported that the AP gives
them a ride in his care with their parent’s
permission. Twenty one students reported
that the AP never told them to wear a
bathing suit to school. Random students
reported that they have worn bathing suits
when they participated in water game activities. Four staff reported they have never
seen the AP or the kids taking their shoes
off while watching a movie. The staff reported
that they have seen the kids sitting on the
carpet or at their desk while watching a
movie but they have never seen the AP
sitting on the carpet with the kids. The staff
reported that they have never seen the AP
offering the students his lip balm, rubbing
lotion on their legs or the AP telling the kids
to come to school in bathing suits. One out
of three staff reported seeing the AP allowing
students to sit on his lap. Two parents were
interviewed. One parent reported seeing
kids sitting on the AP’s lap; however other
parent did not see students sitting on the
AP’s lap. Both parents reported that they
have never seen the AP sitting on carpet,
rubbing the student’s feet or putting lotion

App.105a
on their legs. Furthermore, both parents
reported that they have never seen student
wearing sports bra’s (sic) to practice but
they both gave the AP permission to transport
their kids in his car. The available information did not meet the statutory requirements to find sexual abuse.
Investigative Findings
Sexual Abuse/Substantial Risk of Sexual
Injury is unfounded regarding the Teacher,
Jason Fennes’s actions in accordance with
N.J.S.A. 9:6-8.21, as’ the Institutional
Abuse Investigation Unit’s review herein is
solely investigative.
Remedial Actions
It is the understanding of this office that the
following two (2) remedial actions were
taken at the time of the investigation:
1.

On March 11, 2010 the School Principal, Dr.
Stephany Adams informed the IAIU investigator that the teacher Jason Fennes was
suspended without pay pending the outcome
of the investigation.

2.

On May 11, 2010 the IAIU investigator completed an exit interview with the School
Principal Dr. Stephany Adams. Dr. Adams
informed the IAIU investigator that depending on the outcome of the IAIU investigation the Board will determine Mr. Fennes
future employment.

Since the allegation of sexual abuse is unfounded, the School District is not required

App.106a
to take any disciplinary or other personnel
action against the teacher Jason Fennes.
[emphasis added]
Given this report, its findings, and its conclusions, it is impossible, on the record before the Court,
that the Board had information which would remotely
meet the policy definition of an “Abusive Act.”
This document alone requires that the Motion
for Reconsideration be granted.
POINT III
THE COURT SHOULD EITHER REVERSE ITS ORDER
ENTIRELY, GRANTING SUMMARY JUDGMENT IN FAVOR
OF THE BOARD, OR, AT THE VERY LEASE, DENY BOTH
MOTIONS AND SCHEDULE A PLENARY HEARING ON THE
STATE OF THE BOARD’S KNOWLEDGE AS OF JULY 1,
2011.
It is well settled that summary judgment is
proper if the pleadings, discovery, disclosure materials
on file, and any affidavits show that there is no
genuine issue as to any material fact and that the
movant is entitled to judgment as a matter of law.
See Fed. R. Civ. P. 56(c). Significantly, only a factual
dispute that might affect the outcome of the action
can preclude summary judgment. Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986). An issue is
“genuine” if a reasonable jury could return a verdict
in favor of the non-movant with regard to that issue.
Id. The Court’s function on summary judgment is not
to weigh evidence or to make credibility determinations. Boyle v. Cray. of Allegheny, 139 F.3d 386, 393
(3d Cir. 1998). Rather, the Court should determine

App.107a
whether the record, taken as a whole, could lead a
rational trier of fact to find for the non-moving party.

See Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 586 (1986).
A close reading of the June 1, 2017 Opinion
suggests that the Court’s determination that Zurich
has no duty to defend the Board is based on knowledge
which the Judge believes the Board possessed prior
to the Policy period beginning July 1, 2011. As set
forth above, the Board had no such knowledge, nor,
as the IAN report indicates, could it have had such
knowledge.
However, if the Court does not accept the Board’s
purported facts as true, it must, at the very least,
reverse its decision in part and deny Zurich’s CrossMotion for Summary Judgment. The Court is not
permitted to weigh evidence or to make credibility
determinations on summary judgment motions. Boyle
v. Cnty. of Allegheny, 139 F.3d 386, 393 (3d Cir.
1998). Accordingly, if the Court feels it is necessary
to determine whether the Board had knowledge of any
“Abusive Acts,” as defined by the Policy, prior to July
1, 2011, then it must deny Zurich’s Cross-Motion for
Summary Judgment. This factual dispute undoubtedly
affects the outcome of the action, because it is this
alleged knowledge which the Judge determined relieved
Zurich of its duty to defend the Board. The Court
cannot simply accept the Appellate Division’s
distorted version of the facts as true on a dispositive
motion. Rather, the parties must be afforded the
opportunity to further develop the facts through
ongoing investigations and discovery.

App.108a
CONCLUSION
For the reasons set forth above, the Board
respectfully requests that the Court grant the motion
for reconsideration and reverse its June 1, 2017 decision and determine that Zurich has a duty to defend
the Board for claims arising out of the Child M
Lawsuit.
Respectfully submitted,
Schwartz Simon
Edelstein & Celso LLC
Attorneys for Plaintiff,
Montville-Township
Board of Education
By: /s/ Stephen J. Edelstein

App.109a
VERIFIED COMPLAINT FOR
DECLARATORY RELIEF
(JUNE 21, 2016)
SUPERIOR COURT OF NEW JERSEY
CHANCERY DIVISION MORRIS COUNTY
________________________
MONTVILLE TOWNSHIP
BOARD OF EDUCATION,

Plaintiff,
v.
ZURICH AMERICAN INSURANCE COMPANY,

Defendant.

________________________
Docket No. MOR

Plaintiff Montville Township Board of Education
(“the Montville Board”), by and through its attorneys
Schwartz Simon Edelstein & Celso LLC, complains of
and seeks declaratory relief against Defendants Zurich
American Insurance Company (“ZAIC” or “Zurich”), as
follows:
PARTIES
1. Plaintiff Montville Township Board of Education, is a public school district and is organized pursuant to N.J.S.A. 18A:10-1, et seq., with its principal
place of business located at 86 River Road, Montville,
New Jersey.

App.110a
2. Defendant Zurich American Insurance Company, is an insurance company located at One Liberty
Plaza, 165 Broadway, 32nd Floor, New York, New
York. It is licensed to provide insurance products in
the State of New Jersey and does business in the
State of New Jersey.
JURISDICTION AND VENUE
3. This action is brought pursuant to the provisions
of the New Jersey Uniform Declaratory Judgement Act,
N.J.S.A. 2A:16-50 et seq. The Chancery Division of
the Superior Court of New Jersey, Morris County, has
jurisdiction of this action, pursuant, inter alia, to R.
4:42-3.
FACTS RELEVANT TO ALL COUNTS
4. Jason Fennes (“Fennes”) was employed by the
Montville Board as an elementary school teacher from
on or about September 1, 1998 until on or about June
30, 2010.
5. On or about September 1, 2010, Fennes began
employment with the Cedar Hill Prep School (“Cedar
Hill”).
6. On or about February 22, 2012, Cedar Hill
terminated Fennes as an employee.
7. In or about March of 2012, Fennes was indicted
for events which are alleged to have taken place in
2005 and were unrelated to his employment with Cedar
Hill.
8. Although not aware of any claims at that time,
based solely on the fact of the indictment, the Montville
Board sent notice to Zurich of the possibility of claims
by unknown persons against the Montville Board and

App.111a
Fennes during his time of employment with Montville
in compliance with the Policies.
9. Thereafter, on or about August 30, 2012,
Plaintiffs Child M. and her parents, R.M. and Z.P.
(“Plaintiffs”) filed the action known as Child M. et al.
v. Cedar Hill Prep, et al. (“the Child M. Complaint”),
alleging in it bodily injury suffered by Child M. at the
hands of Fennes, while he was an employee of Cedar
Hill. 1
10. The Child M. Complaint alleged a triggering
event to have occurred on or about February 21, 2012.
11. The allegations of the original Complaint were
directed only at Cedar Hill and Fennes. Following
various procedural maneuvers against the Montville
Board which were begun by Cedar Hill in or about July
24, 2014, on or about January 22, 2015, Child M. filed
a direct claim against the Montville Board alleging
that it had failed to take appropriate action when
made aware of alleged inappropriate conduct of Fennes
while employed by the Montville Board. Child M.
alleged that the Montville Board had entered into a
Settlement Agreement under which the Montville
Board agreed to provide only limited information in
response to employment reference inquiries related
to Fennes. Child M. alleged that the Montville Board’s
conduct in connection with Fennes led to the bodily
injuries suffered by Child M.
12. On or about February 2, 2015, Cedar Hill filed
a cross claim against the Montville Board for
contribution and indemnification.
1 All references are to documents attached to the Certification
of Stephen J. Edelstein, Esquire submitted herewith.

App.112a
ALLEGATIONS AGAINST THE BOARD
13. In the Third Amended Complaint, filed on
January 22, 2015, Child M. makes four (4) specific
claims against the Montville Board:


The Ninth Count alleges that the Montville
Board, while allegedly on notice of Fennes’
negligent, careless, reckless and/or intentional
conduct, including child abuse, both sexual and
non-sexual, failed to report same to the proper
authorities in violation of N.J.S.A. 9:6-8.14.



The Tenth Count alleges that the Montville
Board negligently, carelessly, recklessly and/or
intentionally entered into an agreement with
Fennes, dated May 14, 2010, in which it agreed
to limit the scope of information to be revealed
and/or communicated to potential future
employers of Fennes in exchange for Fennes’
resignation.



The Eleventh Count alleges that the Montville
Board’s conduct, both intentional and unintentional, caused Child M. to suffer severe emotional distress.



The Twelfth Count alleges that the Montville
Board’s complained of conduct directly caused
the parents, RM. and Z.P., to lose the services
of their daughter, Child M.

14. As stated above, Cedar Hill then filed crossclaims against the Montville Board for the above
outlined conduct and also for contribution from codefendants pursuant to the Joint Tortfeasors Contribution Act, N.J.S.A. 2A:53A-1, et seq., and for indemnification.

App.113a
CLAIMS UNDER THE
INSURANCE POLICIES
15. The alleged incident between Fennes and
Child M (“the Incident”), which triggered the Complaint,
and everything in the litigation which followed, took
place in February 2012.
16. The Montville Board had no knowledge of the
Incident or of the Child M. litigation until mid-2014,
when Cedar Hill first asserted claims against it.
17. However, on or about March 5, 2012, the
Board received notice that Fennes had been arrested
and charged with crimes for events which allegedly
occurred in 2005 related to a Montville student. As a
result of having received that information, on or
about March 6, 2012 the Board notified its insurance
broker, Polaris Galaxy Insurance, LLC, to “notify our
insurance carriers of this potential claim . . . .”
Polaris notified Zurich.
The Zurich Policy
18. For the policy period July 1, 2011 to July 1,
2012, the Board was insured by Zurich American
Insurance Company under a Commercial General
Liability Insurance Policy (“CGL Policy” or “Zurich
Policy”), Policy CPO 3701598-07. The CGL Policy requires Zurich to indemnify and defend the Board for
bodily injury claims. This is the applicable Zurich
Policy, since it is an occurrence policy.
19. When the claim was submitted to Zurich, it
was denied, inter alia, on the basis that the Zurich
Policy excluded abusive acts.

App.114a
20. However, Zurich failed to recognize that the
Montville Board had purchased and paid for an
endorsement entitled “Abusive Act Liability Coverage,
Form.” Id.
21. The “Abusive Act Liability Coverage Form”
states that Zurich, “will pay ‘loss’ because of ‘injury’
resulting from an ‘abusive act’ to which this insurance
applies.” Id. at Abusive Act Liability Coverage.
22. The Zurich Policy defines “Abusive Act” as:
Any act or series of acts of actual or
threatened abuse or molestation done to any
person, resulting in “injury” to that person,
including any act or series of acts of actual
or threatened sexual abuse or molestation
done to any person, resulting in “injury” to
that person, by anyone who causes or attempts
to cause the person to engage in a sexual act.
Id. at Section V, Abusive Act Liability Coverage.
23. The Board has been insured under policies
issued by Zurich or its subsidiary continuously since
July 2004 through the present, and the Board has paid
all required premiums under the policies.
24. The claim that was asserted for bodily injury
was a covered claim under Zurich Policy.
25. Despite their denials, Zurich has an obligation
to provide the Board with a defense to the Child M.
Lawsuit.
26. Despite their denials, Zurich has an obligation
to indemnify the Board for the claims made in the
Child M. lawsuit.

App.115a
FIRST COUNT
(Declaratory Judgment for Defense
and Indemnity against Zurich)
27. The Board repeats the allegations of Paragraphs I through 26 of the Complaint as if set forth
fully at length herein.
28. Pursuant to the terms of the CGL Policy,
which is an occurrence policy, Zurich is obligated to
provide defense and indemnity to the Board for the
allegations in the Third Amended Complaint and the
cross-claims by Cedar Hill.
29. The claims against the Board allege “bodily
injuries” suffered by Child M in 2012 but not alleged
against the Board until 2014.
30. The Third Amended Complaint states that the
Board’s actions or inaction directly led to Child M.’s
alleged injuries.
31. The Zurich Policy specifically provides coverage for “abusive acts” similar in nature to the alleged
acts that led to the “bodily injuries” suffered by Child
M.
32. Zurich has refused and failed to meet its
obligations to defend the Board for any claim against
it in the Child M. Lawsuit.
33. Zurich has also refused and failed to meet
its obligations to indemnify the Board for any claim
against it in the Child M. Lawsuit.
34. By its conduct, as alleged, Zurich has breached
its duties to the Board under the relevant policies of
insurance.

App.116a
35. Immediate declaratory relief is necessary to
prevent the Board from incurring additional unreimbursed defense costs, attorneys’ fees and any potential judgment for the allegations contained in the
Child M. Lawsuit.
WHEREFORE, Plaintiff, Montville Township
Board of Education, demands that the Court enter an
immediate declaratory judgment against Defendant,
Zurich, as follows:
A.

Declaring that Defendant, Zurich, is obligated to provide defense to the Board for
the allegations contained in the Child M.
Lawsuit, including the cross-claims of CoDefendant, Cedar Hill;

B.

Declaring that Defendant, Zurich, is obligated to provide indemnity to the Board for
any sums that become due and owing from
the Board to Plaintiff’s as a result of the
allegations contained in the Child M. Lawsuit;

C.

Ordering Defendant, Zurich, to reimburse
the Board for all attorneys’ fees and defense
costs expended to date in defense of the
Child M. Lawsuit;

D.

Awarding costs of suit, interest and counsel
fees; and

E.

Such other relief that the Court deems just
and proper.

App.117a
SECOND COUNT
(Breach of Implied Covenant of Good Faith
and Fair Dealing against Zurich)
36. The Board repeats the allegations of Paragraphs 1 through 35 of the Complaint as if set forth
fully at length herein.
37. Under the CGL Policy, Zurich is obligated to
honor the duty of good faith and fair dealing, which
is implied in all contracts.
38. To the extent that Zurich’s conduct in failing
to provide defense and indemnity to the Board does
not violate an express provision of the CGL Policy,
Zurich’s conduct violates the implied covenant of
good faith and fair dealing.
39. As a result of Zurich’s breach of the implied
covenant of good faith and fair dealing, the Board
has and will continue to suffer damages.
WHEREFORE, Plaintiff, Montville Township
Board of Education, demands judgment against
Defendant, Zurich, as follows:
A.

Awarding compensatory and consequential
damages sustained by the Board as a result
of Defendant, Zurich’s breach of the implied
covenant of good faith and fair dealing;

B.

Awarding costs of suit, interest and counsel
fees; and

C.

Such other relief that this Court deems just
and proper.

App.118a
Schwartz Simon
Edelstein & Celso LLC
Attorneys for Plaintiff
Montville Township Board of Education
By: /s/ Stephen J. Edelstein
Dated: June 21, 2016

App.119a
DESIGNATION OF TRIAL COUNSEL
Pursuant to Rule 4:5-1, Stephen J. Edelstein,
Esq., is hereby designated as trial counsel for Plaintiff
in the within matter.
Schwartz Simon
Edelstein & Celso LLC
Attorneys for Plaintiff
Montville Township Board of Education
By: /s/ Stephen J. Edelstein
Dated: June 21, 2016

App.120a
CERTIFICATION PURSUANT TO RULE 4:5-1
Pursuant to R. 4:5-1, I hereby certify to the best
of my knowledge that the matter in controversy is
not the subject of any other action pending in any
other court, or of a pending arbitration proceeding,
however, the Montville Board of Education is a party
to Child M a minor by her g/a/l/ R.M. and R.M. and
Z.P., individually, v. Jason Fennes, Cedar Hill Prep
School et al, Superior Court of New Jersey, Morris
County, Docket No. L-6011-12. In that action, Child
M. a minor by her g/a/l R.M. and R.M. and Z.P. individually and Cedar Hill Prep School seek damages
against the Montville Board of Education. The Montville
Board of Education successfully obtained summary
judgment on all counts of the underlying complaint
by Child M and Cedar Hill Prep School on September
18, 2015. Child M and Cedar Hill Prep have filed an
appeal. The denial of coverage in that case by Zurich
is the basis for the claims in this Verified Complaint.
I further certify that the action is not the subject to
any other action pending in any Court or the subject
of a pending arbitration proceeding. No other action
or arbitration is contemplated at this time. I know of
no other party who should be joined in this action
Schwartz Simon
Edelstein & Celso LLC
Attorneys for Plaintiff
Montville Township Board of Education
By: /s/ Stephen J. Edelstein
Dated: June 21, 2016

App.121a
CERTIFICATION PURSUANT TO RULE 4:5-1(B)(3)
I hereby-certify that confidential personal
identifiers have been redacted from documents now
submitted to the Court, and will be redacted from all
documents submitted in the future in accordance with
Rule l:38-7(b).
I certify that the foregoing statement is true,
and I am aware that if the foregoing statement is
willfully false, I am subject to punishment.
Schwartz Simon
Edelstein & Celso LLC
Attorneys for Plaintiff
Montville Township Board of Education
By: /s/ Stephen J. Edelstein
Dated: June 21, 2016

App.122a
VERIFICATION
JAMES T. TEVIS, of full age, being duly sworn
according to the law and upon his oath, hereby swears
and affirms the following:
1. I am the Business Administrator of the Montville Township Board of Education (the “Board”), the
Plaintiff. I make this Certification of Verification on
behalf of and with full authority for the Board.
2. The allegations contained in the Complaint by
the Board are true to the best of my personal knowledge, information and belief, and the Complaint is
made in truth and good faith for the causes set forth
therein.
3. I am aware that if any of the foregoing statements made by me are willfully false, I am subject to
punishment.
/s/ James T. Tevis
Business Administrator
Montville Township Board of Education
Dated: 6/21/16

App.123a
THIRD AMENDED COMPLAINT
(JANUARY 23, 2015)
SUPERIOR COURT OF NEW JERSEY
LAW DIVISION–MIDDLESEX COUNTY
________________________
CHILD M, a minor by her g/a/l and
R.M. and Z.P., Individually,

Plaintiffs,
v.
JASON FENNES, CEDAR HILL PREP SCHOOL,
WILLIAM MASON ELEMENTARY SCHOOL,
MONTVILLE TOWNSHIP PUBLIC SCHOOLS,
MONTVILLE BOARD OF EDUCATION and
JOHN DOE(S) #1-5, 6-10, 11-15 (inclusive,
fictitiously named defendants), ABC CORPS #1-5,
6-10, 11-15 (inclusive, fictitiously named
defendants) jointly & severally,

Defendants.

________________________

Docket No: MID-L.6011-12
Civil Action
Plaintiffs, CHILD M, a minor by her g/a/l R.M,
and R.M. and Z.P., Individually, residing. at 18 Forest
Glen Drive, in the Borough of Highland Park, County
of Middlesex, and State of New Jersey by way of complaint against the defendants, says:

App.124a
FIRST COUNT
1. The plaintiff, CHILD M, is minor, who resides
at 113 Forest Glen Drive, in the Borough of Highland
Park, County of Middlesex, and State of New Jersey,
whose date of birth is April 5, 2005.
2. In or about February, 2012, the plaintiff,
CHILD M, was a student, invitee, and/or was otherwise
permitted on the premises of and was in the care and
custody of defendants, JASON FENNES, CEDAR
HILL PREP SCHOOL and JOHN DOE(S) #1-10,
(inclusive, fictitiously named defendants hereinafter
referred to as “JOHN DOES” for the sake of brevity),
while attending school at the CEDAR HILL PREP
SCHOOL, County of Somerset and State of New Jersey.
3. At the time and place aforesaid, the defendants,
CEDAR HILL PREP SCHOOL and JOHN DOES
were the owners, property managers and/or were
otherwise in control and possession of said premises
and were tiny responsible for the hiring and supervision
of the employees/teachers working therein.
4. At the aforesaid time and place, defendants,
CEDAR HILL PREP and JOHN DOES, did negligently and carelessly fail to maintain, provide and
otherwise ensure a safe area for the children and
general student body to attend school, by vicariously
causing and allowing the plaintiff to be sexually
assaulted, inappropriately touched, and otherwise
abused by the defendant, JASON FENNEL is teacher
in their employ, working on their behalf and otherwise
retained, hired, approved and supervised by the defendants, CEDAR HILL PREP SCHOOL and JOHN DOES.
5. Defendants, CEDAR HILL PREP SCHOOL
and/or JOHN DOES, were under a duty to take rea-

App.125a
sonable action, both precautionary and remedial in
nature, to provide for the safety of the students and
those members of the general public who might be
attending school or otherwise traveling upon said
premises and chemise knew or should have known of
the dangerous situation and more specifically the
defendant, JASON FENNES’ history as a sexual
predator, pedophile, and deviant, and taken such action
as necessary to rectify or discover the dangerous situation, but failed to do so.
6. Defendants, CEDAR HILL PREP SCHOOL
and/or JOHN DOES, felled and neglected to take such
reasonable action to so provide for the safety of the
plaintiff, others so situated and the general public,
thereby causing physical and mental injury to the
plaintiff, CHILD M.
7. Defendants, CEDAR HILL PREP SCHOOL
and/or JOHN DOES failed to maintain and provide a
reasonably gate environment for the plaintiff and
other students to attend school and otherwise utilize
the scholastic facilities for the purposes for which
they were intended, thereby causing the plaintiff to
incur injury and damages.
8. Defendants, CEDAR HILL PREP SCHOOL
and/or JOHN DOES, had a duty to take reasonable
action to prevent harm from coming to the plaintiff
and others so situated, and to rectify any dangerous
condition present upon its premises as aforesaid.
9. Defendant, CEDAR HILL PREP SCHOOL
and/or JOHN DOES, failed to take any reasonable
action to warn the plaintiff and/or others under their
cart and stewardship and/or the general public or

App.126a
parents of the student body of the aforesaid dangerous
situation.
10. As a result of the negligence and carelessness
of the defendants, their employees, staff and/or
representatives, as aforesaid, plaintiff, CHILD M,
sustained severe personal injuries, both temporary
and permanent in nature; has and will endure great
pain; has and will be prevented from attending to her
normal affairs; has incurred medical and other expenses
and has been otherwise damaged.
WHEREFORE, infant plaintiff, CHILD M, a minor
by her guardian ad item, CHILD M, a minor by her g/a/l
R.M., and R.M. and Z.P., Individually, demand judgment against the defendants, JASON FENNES,
CEDAR HILL PREP SCHOOL and JOHN DOES,
jointly and severally, for damages, together with
interest, attorneys fees and costs of suit
SECOND COUNT
1. Plaintiff hereby repeats and incorporates
each and every allegation contained in the First, Count
of this Complaint, but for the sake of brevity the same
are not set forth herein at length.
2. At the time of the aforesaid incident, defendant, JASON FENNES, was an agent, servant, and/or
employee of the defendants, CEDAR. HILL PREP
SCHOOL and/or JOHN DOES, and was otherwise
acting in the course and scope of his employment and/
or agency.
[sic, point 3 missing]

App.127a
4. Defendant, CEDAR HILL PREP SCHOOL
and/or JOHN DOES, is thus vicariously liable for the
negligence of JASON FENNES.
5. As a result of the negligence and carelessness
of the defendants, and each of them, plaintiff, CHILD
M, sustained severe personal injuries both temporary
and immanent in nature; has and will endure great
pain; has and will be prevented from attending to her
normal affairs; has incurred medical and other
expenses; and has been otherwise damaged.
WHEREFORE, infant plaintiff, CHILD M, a minor
by her g/a/l R.M., and R.M. and Z.P., Individually,
demand judgment against the defendants, JASON
FENNES, CEDAR HILL PREP SCHOOL, JOHN
DOES and ABC CORPS, jointly and severally, for
damage; together with interest, attorneys fees and
costs of suit.
THIRD COUNT
1. Plaintiff hereby repeats and incorporates
each and every allegation contained in the First and
Second Counts of this Complaint, but for the sake of
brevity the same are not set forth herein at length.
2. In or about February, 2012, the plaintiff,
CHILD M, was a student at the CEDAR HILL PREP
SCHOOL operated by defendants JOHN DOES and/or
ABC CORPS.
3. At the same time and place aforesaid, the
defendant, JASON RENNES, was employed by the
defendants, CEDAR HILL PREP SCHOOL, as a teacher.

App.128a
4. In or about February, 2012, the defendant,
JASON FENNES, performed various acts of sexual
molestation against the plaintiff, CHILD M. While
the acts of sexual molestation were occurring, the
plaintiff was powerless.
5. At all times mentioned herein, the defendants,
CEDAR HILL PREP SCHOOL and/or JOHN DOES,
controlled the hiring, retention and supervision of
defendant, JASON
6. The acts of defendant were done willfully,
maliciously, outrageously, deliberately, and purposely
with the intention to inflict emotional distress upon
plaintiff and/or were done in reckless disregard of the
probability of causing plaintiff emotional distress,
and these acts did in fact result in severe and extreme
emotional distress.
7. As a direct and proximate result of the
defendants’ acts, plaintiff was caused to incur severe
and grievous mental and emotional suffering, fright,
anguish, shock, nervousness, anxiety and plaintiff
continues to be fearful, anxious, and nervous.
8. As a direct and proximate result of the
defendants’ acts, plaintiff was caused to obtain medical
and psychiatric treatment, which medical and psychiatric treatment will continue for an Indeterminable
length of time.
WHEREFORE, infant plain CHILD M, a minor
by her g/a/l R.M., and R.M. and Z.P., Individually,
demand judgment against the defendants, JASON
FENNES, CEDAR HILL PREP SCHOOL, JOHN
DOES and ABC CORPS. jointly and severally, for
compensatory and punitive damages, together with
interest, attorneys fees and costs of suit.

App.129a
FOURTH COUNT
1. Plaintiff hereby repeats and incorporates
each and every allegation contained in the First through
Third Counts of this Complaint, but for the sake of
brevity the same are not set forth herein at length.
2. At all times mentioned herein, defendants,
CEDAR HILL PREP SCHOOL, JOHN DOES and/or
ABC CORPS was a duly organized and existing in the
County of Somerset, State of New Jersey, and operated,
conducted and controlled the CEDAR HILL PREP
SCHOOL at which the plaintiff, CHILD M. was a pupil.
3. At all times mentioned herein, defendants,
CEDAR HILL PREP SCHOOL, JOHN DOES and/or
ABC CORPS controlled the hiring, retention and
supervision of defendant, JASON FENNES, a teacher
in the school the plaintiff attended.
4. The defendants, CEDAR HILL PREP
SCHOOL JOHN DOES, and/or ABC CORPS by and
through their servants, agents and employees, were
aware of the defendant, JASON FENNES’ acts of sexual
molestation against the plaintiff.
5. The defendants, CEDAR HILL PREP
SCHOOL, JOHN DOES, and/or ABC CORPS, negligently failed to take all reasonable measures to protect the health, safety and well being of the plaintiff
and that negligence is a proximate cause of the plaintiff’s emotional and economic injuries.
6. Defendants, CEDAR HILL PREP SCHOOL,
JOHN DOES, and/or ABC CORPS, were negligent in
hiring, retaining and supervising of the defendant,
JASON FENNES, and that negligence is a proximate
cause of the plaintiffs emotional and economic injuries.

App.130a
7. Defendants, CEDAR HILL PREP SCHOOL,
JOHN DOES, and/or ABC CORPS., are vicariously
liable for defendant, JASON FENNES’ actions and said
actions are a proximate cause of the plaintiff’s emotional
and economic injuries.
8. As a result of the actions of the defendant,
the plaintiff has suffered permanent physical, emotional
and economic harm and will require ongoing mental
health counseling in order to overcome the emotional
distress and trauma that she has endured.
WHEREFORE, infant plaintiff, CHILD M. a minor
by her R.M., and R.M. and Z.P., Individually, demand
judgment against the defendants, JASON FENNES,
CEDAR HILL PREP SCHOOL, JOHN DOES and ABC
CORPS. jointly and severally, for compensatory and
punitive damages, together with interest, attorneys
fees and costs of suit,
FIFTH COUNT
1. Plaintiff hereby repeats and incorporates
each and every allegation contained in the Fire through
Fourth Counts of this Complaint, but for the sake of
brevity the same are not set forth herein at length.
2. As a result of the intentional conduct of the
defendants, JASON FENNES, CEDAR HILL PREP
SCHOOL, JOHN DOES, and/or ABC CORPS, the plaintiff has sustained serious and permanent emotional
distress and mental anguish,
WHEREFORE, infant plaintiff, CHILD M, a minor
by her g/a/l R.M,, and R.M. and Z.P. Individually,
demand judgment against the defendants, JASON
FENNES, CEDAR HILL PREP SCHOOL, JOHN
DOES and ABC CORPS, jointly and severally, for

App.131a
compensatory and punitive damages, together with
interest, attorneys fees and costs of suit.
SIXTH COUNT
1. Plaintiff hereby repeats and incorporates
each and every allegation contained in the First through
Fifth Counts of this Complaint, but for the sake of
brevity the same are not set forth herein at length.
2. As a result of the negligent conduct of the
defendants, JASON FENNES, CEDAR HILL PREP
SCHOOL, JOHN DOES, and/or ABC CORPS, the plaintiff has sustained serious and permanent emotional
distress and mental anguish.
WHEREFORE, infant plaintiff, CHILD M, a minor
by her g/a/l R.M., and R.M. and Z.F., Individually
demand judgment against the defendants, JASON
FENNES, CEDAR HILL PREP SCHOOL, JOHN
DOES and ABC CORPS. jointly and severally, for
compensatory and punitive damages, together with
interest, attorneys fees and costs of suit.
SEVENTH COUNT
1. Plaintiff hereby repeats and incorporates
each and every allegation contained in the First through
Sixth Counts of this Complaint, but for the sake of
brevity the same are not set forth herein at length.
2. At all times mentioned herein, the defendant,
JASON FENNES, was an employee of the defendants, CEDAR HILL PREP SCHOOL, JOHN DOES,
and/or ABC CORPS, where without any reasonable
provocation, he did willfully, wantonly and with
malice afterthought assault the plaintiff, CHILD M.

App.132a
3. At all times mentioned herein, defendant,
JASON FENNES, was an employee of the defendant,
CEDAR HILL PREP SCHOOL, JOHN DOES, and/or
ABC CORPS, was on the premises of the defendants,
CEDAR HILL PREP SCHOOL, JOHN DOES, and/or
ABC CORPS, without any reasonable provocation he
did negligently assault the plaintiff, CHILD M.
4. As a result of the said intentional and/or negligent acts of the defendant, JASON FENNES, as
aforesaid, the plaintiff, CHILD M, was seriously and
permanently injured and maimed, endured and will
continue to endure great pain; has been and will be
compelled to expend large sums of money for physicians
and other help in an attempt to cure herself of said
injuries; has been and will be prevented from attending
to her normal business and social affairs and has been
otherwise damaged.
WHEREFORE, infant plaintiff, CHILD M, a minor
by her g/a/l R.M., and R.M. and Z.P., Individually,
demand judgment against the defendants, JASON
FENNES, CEDAR HILL PREP SCHOOL, JOHN
DOES and ABC CORPS. jointly and severally, for
damages, together with interest, attorneys fees and
costs of suit.
EIGHTH COUNT
Violation of 20 U.S.C. § 1681
1. Plaintiff hereby repeats and incorporates
each and every allegation contained in the First through
Seventh Counts of this Complaint, but for the sake of
brevity the same are not set forth herein at length,
2. The above-described conduct by defendants.,
JASON FENNES, CEDAR HILL PREP SCHOOL,

App.133a
JOHN DOES, and/or AEC CORPS, under color of state
law deprived the plaintiff, CHILD M, of her rights
under Title IX of the Education Amendments of 1972.
3. Title IX of the Education Amendments of 1972,
20 U.S.C.S. § 1681 et seq,, provides that no person in
the United States shall, on the basis of sex, be excluded
from participation in, be denied the benefits of, or be
subjected to discrimination under any education
program or activity receiving federal financial assistance, See Davis v, Monroe County Bd. of Educ., 526
U.S. 629, 638 (1999).
4. Sexual harassment is a form of discrimination
for purposes of Title IX of the Education Amendments
of 1972, 20 U.S.C.S. § 1681 et seq., and Title IX
proscribes harassment with sufficient clarity to serve
as a basis for a damages action. Id., at 649-650.
Moreover, an implied private right of action exists
under Title IX of the Education Amendments of 1972,
20 U.S.C.S., § 1681 et. seq., and money damages are
available in such suits. id. at 639.
5. Thus, a recipient of federal education funds
may be liable in damages under Title IX of the Education Amendments of 1972, 20 U.S.C.S., § 1681 et
seq., where an official of the school district, who at a
minimum has authority to institute corrective
measures on the district’s behalf, has actual notice of,
and is deliberately indifferent to, the district employee’s
severe, pervasive, and objectively offensive sexual
harassment.
6. Upon information and belief, the CEDAR HILL
PREP SCHOOL, is a recipient of federal education
funding.

App.134a
7. NAN MENON, as the acting onsite administrator/principal of the CEDAR HILL PREP SCHOOL,
was an appropriate official of the school district, who
at a minimum had authority to institute corrective
measures on CHILD M’S behalf.
8. NAN MENON had actual knowledge of JASON
FENNES’ sexual harassment of the plaintiff, CHILD
M, and given the particular foots of this case, her
inactions also amounted to deliberate Indifference.
9. Defendant, FENNES’ sexual harassment of
CHILD M was so severe, pervasive and objectively
offensive that CHILD M was deprived of her constitutional right to a safe learning environment, free from
sexual harassment, and the educational opportunities
or benefits provided by the school.
WHEREFORE, infant plaintiff; CHILD M, a minor
by her g/a/l R.M., and R.M., and Z.P., Individually,
demand judgment against the defendants, JASON
FENNES, CEDAR HILL PREP SCHOOL, JOHN
DOES and ABC CORPS. jointly and severally, for
compensatory and punitive damages along with all
recoverable attorneys fees and costs of suit.
NINTH COUNT
1. Plaintiff hereby repeats and incorporates each
and every allegation contained in the First through
Eighth Counts of this Complaint, but for the sake of
brevity the same are not set forth herein at length.
2. Prior to defendant, JASON FENNES’ employment with defendant, CEDAR HILLS PREP SCHOOL,
defendant, JASON FENNES was an agent, servant,
and/or employee of the defendants, WILLIAM MASON
ELEMENTARY SCHOOL, MONTVILLE TOWNSHIP

App.135a
PUBLIC SCHOOLS, MONTVILLE TOWNSHIP
BOARD OF EDUCATION and during his (12) twelve
year employ, as a teacher and track coach, engaged
in various negligent, careless, reckless and/or intentional conduct, including but not limited to inappropriate abusive and/or sexual conduct with his infant
students.
3. Defendants, WILLIAM MASON ELEMENTARY SCHOOL, MONTVILLE TOWNSHIP PUBLIC
SCHOOLS and/or MONTVILLE BOARD OF EDUCATION, while on notice of said conduct, negligently,
carelessly, recklessly and/or intentionally, failed to
report same to the appropriate administrative agencies,
local, county and state authorities as well as potential
employers including Cedar Hill Prep.
4. Defendants, WILLIAM MASON ELEMENTARY SCHOOL, MONTVILLE TOWNSHIP PUBLIC
SCHOOLS and/or MONTVILLE BOARD OF EDUCATION, while on notice of said negligent, careless,
reckless and/or intentional conduct, including child
abuse, both sexual and nonsexual, failed to report
same in violation of N.J.S.A. 9:6-8.14.
5. As a result of the negligence, carelessness,
recklessness and/or intentional conduct of the defendants, WILLIAM MASON ELEMENTARY SCHOOL,
MONTVILLE TOWNSHIP PUBLIC SCHOOLS,
MONTVILLE BOARD OF EDUCATION, plaintiff,
CHILD M, sustained severe personal injuries both temporary and permanent in nature; has and will endure
great pain; has and will be prevented from attending
to her normal affairs; has incurred medical and other
expenses; and has been otherwise damaged.

App.136a
WHEREFORE, infant plaintiff, CHILD M, a minor
by her g/a/l R.M., and R.M. and Z.P., Individually,
demand judgment against the defendants, WILLIAM
MASON ELEMENTARY SCHOOL, MONTVILLE
TOWNSHIP PUBLIC SCHOOLS, MONTVILLE
BOARD OF EDUCATION, jointly and severally, for
damages, together with interest, attorneys’ fees and
costs of suit.
TENTH COUNT
1. Plaintiff hereby repeats and incorporates
each and every allegation contained in the First through
the Ninth Counts of this Complaint, but for the sake
of brevity the same are not set forth herein at length,
2. Prior to defendant, JASON FENNES’ employment with defendant, CEDAR HILLS PREP SCHOOL,
defendant JASON FENNES was employed by defendants, WILLIAM MASON ELEMENTARY SCHOOL,
MONTVILLE TOWNSHIP PUBLIC SCHOOLS,
MONTVILLE BOARD OF EDUCATION, as a teacher
and track coach.
3. In the course of defendant, JASON FENNES’
employment with WILLIAM MASON ELEMENTARY SCHOOL, MONTVILLE TOWNSHIP PUBLIC
SCHOOLS, MONTVILLE BOARD OF EDUCATION,
defendant JASON FENNES engaged in various acts of
sexual Molestation and/or child abuse against other
infant students.
4. The defendants WILLIAM MASON ELEMENTARY SCHOOL, MONTVILLE TOWNSHIP PUBLIC
SCHOOLS, MONTVILLE BOARD OF EDUCATION,
while on notice of said conduct, by and through their
servants, agents and employees, failed to appropri-

App.137a
ately avail, disperse and take all reasonable measures
necessary to make such action known to all appropriate agencies, local, county and state officials and purposefully caused said acts to be concealed from potential
future employers of defendant, JASON FENNES, including Cedar Hill Prep so as to endanger the welfare,
health, safety of Plaintiff, CHILD M and others
similarly situated.
5. Specifically, defendants, WILLIAM MASON
ELEMENTARY SCHOOL, MONTVILLE TOWNSHIP
PUBLIC SCHOOLS, MONTVILLE BOARD OF
EDUCATION, JOHN DOES 10-15 AND ABC CORPS,
10-15 negligently, carelessly, recklessly and/or intentionally entered into an agreement, dated May 14,
2010, with defendant, JASON FENNES, wherein they
agreed to limit the wept of information to be revealed
and/or communicated by defendants WILLIAM
MASON ELEMENTARY SCHOOL, MONTVILLE
TOWNSHIP PUBLIC SCHOOLS, MONTVILLE
BOARD OF EDUCATION to potential future employers
of defendant JASON FENNES in exchange for
defendant JASON FENNES’ resignation from their
employ,
6. As a direct and proximate result of the defendants’ WILLIAM MASON ELEMENTARY SCHOOL,
MONTVILLE TOWNSHIP PUBLIC SCHOOLS and
MONTVILLE BOARD OF EDUCATION’s acts and/or
omissions, plaintiff CHILD M was caused to incur
damages, including but limited to severe personal
injuries both temporary and permanent in nature,
WHEREFORE, infant plaintiff, CHILD M, a minor
by her g/a/l R.M., and R.M. and Z.P., Individually,
demand judgment against the defendants, WILLIAM
MASON ELEMENTARY SCHOOL, MONTVILLE

App.138a
TOWNSHIP PUBLIC SCHOOLS, MONTVILLE
BOARD OF EDUCATION, jointly and severally, for
compensatory and punitive damages, together with
interest, attorneys fees and costs of suit,
ELEVENTH COUNT
1. Plaintiff hereby repeats and incorporates each
and every allegation contained in the First through
the Tenth Counts of this Complaint, but for the sake
of brevity the same are not set forth herein at length.
2. Prior to defendant, JASON FENNES’ employment with defendant, CEDAR HILLS PREP SCHOOL,
defendant JASON FENNES was employed by defendants, WILLIAM MASON ELEMENTARY SCHOOL,
MONTVILLE TOWNSHIP PUBLIC SCHOOLS,
MONTVILLE BOARD OF EDUCATION, as a teacher and track coach.
3. In the course of defendant, JASON FENNES’
employment with WILLIAM MASON ELEMENTARY SCHOOL, MONTVILLE TOWNSHIP PUBLIC
SCHOOLS, MONTVILLE BOARD OP EDUCATION,
defendant JASON FENNES engaged in various acts of
sexual molestation and/or child abuse against with
his infant students.
4. At all times mentioned herein, the defendants,
WILLIAM MASON ELEMENTARY SCHOOL, MONTVILLE TOWNSHIP PUBLIC SCHOOLS, MONTVILLE BOARD OF EDUCATION, controlled the hiring,
retention, supervision and cover-up of heinous acts of
molestation perpetrated by the defendant, JASON
FENNES,
5. The acts of defendant(s) were done willfully,
maliciously deliberately, and purposely with the inten-

App.139a
tion to misinform and/or mislead potential employers
including Cedar Hill Prep and inflict emotional distress
upon infant students and/or were done in reckless
disregard of the probability of causing the infant
students emotional distress, and these acts did in fact
result in severe and extreme emotional distress to
Plaintiff CHILD M.
6. As a result of the negligence, carelessness,
recklessness and/or intentional conduct of the defendants, WILLIAM MASON ELEMENTARY SCHOOL,
MONTVILLE TOWNSHIP PUBLIC SCHOOLS,
MONTVILLE BOARD OF EDUCATION, including
the failure to provide pertinent and highly relevant
information to potential future employers of defendant JASON FENNES, thereby caused plaintiff;
CHILD M’s exposure to defendant JASON FENNES, a
known pedophile and child molester, causing plaintiff,
CHILD M to suffer seven personal injuries both temporary and permanent in nature; endure great pain;
medical and other expenses; and be otherwise damaged.
WHEREFORE, infant plaintiff, CHILD M, a minor
by her g/a/l R.M., and R.M, and Z.P., Individually,
demand judgment against the defendants, WILLIAM
MASON ELEMENTARY SCHOOL, MONTVILLE
TOWNSHIP PUBLIC SCHOOLS, MONTVILLE
BOARD OF EDUCATION, jointly and severally, for
punitive damages, together with interest, attorneys
fees and costs of suit.
TWELFTH COUNT
1. Plaintiff hereby repeats and incorporates
each and every allegation contained in the First through
the Twelfth Counts of this Complaint, but for the

App.140a
sake of brevity the same are not set forth herein at
length.
2. At all relevant times herein the plaintiffs,
R.M. and Z.P., individually, were and are the natural
mother, guardian ad litem, and father of the infant
plaintiff; CHILD M. and as such are entitled to her
services, society and are responsible for her safety,
health and well-being.
3. As a direct and proximate result of the negligence of the defendants as aforesaid, plaintiffs, R.M.
and Z.P., individually, have lost and will in the
future lose the services and society of their daughter,
the infant plaintiff CHILD M.
WHEREFORE, the plaintiffs, R.M. and Z.P., individually, demand judgment against the defendants,
either jointly, severally, or in the alternative for
damages together with interest, attorneys fees and
costs of suit.
DEMAND FOR JURY TRIAL
Plaintiff hereby demands a trial by jury as to all
issues.
DESIGNATION OF TRIAL COUNSEL
JOHN M. VLASAC, II, ESQ is hereby designated
as trial counsel in the within litigation.
DEMAND FOR DISCOVERY
Pursuant to R. 4:17-1(b)(i), plaintiff hereby demands of the defendants, certified answers to Uniform
Interrogatories, Form C and Form C(2), within sixty
days from the date of service of this complaint.

App.141a
DEMAND FOR PRODUCTION OF DOCUMENTS
Pursuant to R. 4:10-2, et seq,, and R. 4:18-1 specifically, plaintiffs hereby demands that the defendants, provide copies of all discoverable materials
within thirty (30) days after the service of this complaint.
If the defendant believes something is not discoverable, please identify the item or information
and state why it is not discoverable. If the Item
cannot be copied, please state what it is so a mutually
convenient date and time: can be agreed upon for
inspection or reproduction of the item.
1. The entire contents of any investigation file
or files and any other documentary material in your
possession which supports or relates to the allegations
of defendant’s answer (excluding references to mental
impressions, conclusions or opinions representing the
value or merit of the claim or defense or respecting
strategy or tactics and privileged communications to
and from counsel),
2. Any and all statements concerning this action,
as defined by Rule 4:10.2 from any witnesses Including
any statements from the parties herein, or their
respective agents, servants or employees.
3. Copies of all photographs of the parties
involved, equipment involved, scene of accident or
any other photos which defendant intends to use in
discovery or at the time of eat. Also, give the name
and address of the photographer.
4. Any and all documents containing the name
and home business address of all individuals contacted
as potential witnesses.

App.142a
5. Names and addresses of any expert witnesses
consulted and attach hereto copies of any reports
received from experts with a copy of their curriculum

vitae.

6. A copy of all insurance policies under which
the defendant is provided coverage for the incident
which is the subject matter of the complaint.
DEMAND FOR INSURANCE DISCOVERY
Pursuant to R. 4:18, plaintiff hereby demands
that the defendants, produce the following documents
for inspection and copying at the office of John M,
Vlasac, Jr., Esquire, Viasac & Shmaruk, 467 Middlesex
Avenue, Metuchen, New Jersey, within the time provided by R. 4:18(b):
1. On the date of the incident, indicate whether
the worker of defendant’s property had a liability
insurance policy and, if so, set forth the name of the
insurance company, the policy number, the effective
date, the policy limits and attach a copy of the declarations page.
2. On the date of the incident, indicate whether
the owner of defendant’s property had any excess
coverage including a personal liability catastrophe
umbrella and, if so, set forth the name of the insurance
company. the policy number, the effective date, the
policy limits and attach a copy of the declarations
page.

App.143a
ZURICH INSURANCE POLICY,
RELEVANT EXCERPTS
COMMERCIAL GENERAL LIABILITY
COVERAGE PART DECLARATION

AMERICAN GUARANTEE AND
LIABILITY INSURANCE COMPANY
Policy Number CPO 3701598-07
Named Insured: Pooled Insurance Program of
Policy Period: Coverage begins 07-01-2011 at
12:01 A.M.; Coverage ends 07-01-2012 at 12:01 A.M.
Producer Name: Willis of New Jersey, Inc.
Producer No. 03024-000
Item 1. Business Description: Institution
Item 2. Limits of Insurance
General Aggregate Limit

$2.000,000

Products-Completed
Operations AggregateLimit

$2.000,000

Each Occurrence Limit

$1,000,000

Damage to Premises
Rented To You Limit

$1,000,000
(Any one Premises)

Medical Expense Limit

$1,000,000
(Any one Person)

Personal and Advertising $1,000,000
Injury Limit
(Any one Person or
organization)

App.144a
Item 3, Retroactive Date: (CG 00 02 Only)
This insurance does not apply to “bodily Injury”,
“Property damage” or “personal and advertising Injury”
which occurs before the Retroactive Date, if any, shown
here:
NONE
Item 4. Form of Business and Location Premises
Form of Business: INSTITUTION
Location of All Premises You Own. Rent or Occupy:
See Schedule of Locations
Item 5. Schedule of Forms and Endorsements
Form(s) and Endorsement(s) made a part of this
Policy at time of Issue: See Schedule of Forms and
Endorsements
Item 6. Premiums
Coverage Part Premium: $ Included
Other Premium:
Total Premium: $ Included

App.145a

COMMERCIAL GENERAL LIABILITY
COVERAGE FORM
COMMERCIAL GENERAL LIABILITY CG 00 01 04 13
Various provisions in this policy restrict coverage.
Read the entire policy carefully to determine rights,
duties and what is and is not covered.
Throughout this policy the words “you” and “your”
refer to the Named Insured shown in the Declarations,
and any other person or organization qualifying as a
Named Insured under this policy. The words “we”, “us”
and “our” refer to the company providing this insurance.
The word “insured” means any person or organization qualifying as such under Section II–Who Is An
Insured.
Other words and phrases that appear in quotation
marks have special meaning. Refer to Section V–
Definitions.
Section I–Coverages
Coverage A–Bodily Injury and Property Damage
Liability
1. Insuring Agreement
a. We will pay those sums that the insured
becomes legally obligated to pay as damages because
of “bodily injury” or “property damage” to which this
insurance applies. We will have the right and duty to
defend the insured against any “suit” seeking those
damages. However, we will have no duty to defend the
insured against any “suit” seeking damages for “bodily
injury” or “property damage” to which this insurance
does not apply. We may, at our discretion, investigate

App.146a
any “occurrence” and settle any claim or “suit” that
may result. But:
(1) The amount we will pay for damages is
limited as described in Section III–Limits
Of Insurance; and
(2) Our right and duty to defend ends when we
have used up the applicable limit of insurance in the payment of judgments or settlements under Coverages A or B or medical
expenses under Coverage C.
No other obligation or liability to pay sums or perform acts or services is covered unless explicitly provided for under Supplementary Payments–Coverages
A and B.
b. This insurance applies to “bodily injury” and
“property damage” only if:
(1) The “bodily injury” or “property damage” is
caused by an “occurrence” that takes place
in the “coverage territory”;
(2) The “bodily injury” or “property damage” occurs
during the policy period; and
(3) Prior to the policy period, no insured listed
under Paragraph 1. of Section II–Who Is An
Insured and no “employee” authorized by
you to give or receive notice of an “occurrence”
or claim, knew that the “bodily injury” or
“property damage” had occurred, in whole
or in part. If such a listed insured or authorized “employee” knew, prior to the policy
period, that the “bodily injury” or “property
damage” occurred, then any continuation,
change or resumption of such “bodily injury”
or “property damage” during or after the policy

App.147a
period will be deemed to have been known
prior to the policy period.
c. “Bodily injury” or “property damage” which
occurs during the policy period and was not, prior to
the policy period, known to have occurred by any
insured listed under Paragraph 1. of Section II–Who
Is An Insured or any “employee” authorized by you to
give or receive notice of an “occurrence” or claim,
includes any continuation, change or resumption of
that “bodily injury” or “property damage” after the
end of the policy period.
d. “Bodily injury” or “property damage” will be
deemed to have been known to have occurred at the
earliest time when any insured listed under Paragraph
1. of Section II–Who Is An Insured or any “employee”
authorized by you to give or receive notice of an
“occurrence” or claim:
(1) Reports all, or any part, of the “bodily injury”
or “property damage” to us or any other insurer;
(2) Receives a written or verbal demand or
claim for damages because of the “bodily
injury” or “property damage”; or
(3) Becomes aware by any other means that
“bodily injury” or “property damage” has
occurred or has begun to occur.
e. Damages because of “bodily injury” include
damages claimed by any person or organization for
care, loss of services or death resulting at any time
from the “bodily injury”.
2. Exclusions
This insurance does not apply to:

App.148a
a. Expected Or Intended Injury
“Bodily injury” or “property damage” expected or
intended from the standpoint of the insured. This
exclusion does not apply to “bodily injury” resulting
from the use of reasonable force to protect persons or
property.
b. Contractual Liability
“Bodily injury” or “property damage” for which
the insured is obligated to pay damages by reason of
the assumption of liability in a contract or agreement.
This exclusion does not apply to liability for damages:
(1) That the insured would have in the absence
of the contract or agreement; or
(2) Assumed in a contract or agreement that is
an “insured contract”, provided the “bodily
injury” or “property damage” occurs subsequent to the execution of the contract or agreement. Solely for the purposes of liability
assumed in an “insured contract”, reasonable attorneys’ fees and necessary litigation
expenses incurred by or for a party other
than an insured are deemed to be damages
because of “bodily injury” or “property damage”, provided:
(a) Liability to such party for, or for the
cost of, that party’s defense has also been
assumed in the same “insured contract”;
and
(b) Such attorneys’ fees and litigation
expenses are for defense of that party
against a civil or alternative dispute
resolution proceeding in which damages

App.149a
to which this insurance applies are
alleged.
c. Liquor Liability
“Bodily injury” or “property damage” for which
any insured may be held liable by reason of:
(1) Causing or contributing to the intoxication
of any person;
(2) The furnishing of alcoholic beverages to a
person under the legal drinking age or
under the influence of alcohol; or
(3) Any statute, ordinance or regulation relating to the sale, gift, distribution or use of
alcoholic beverages.
This exclusion applies even if the claims against
any insured allege negligence or other wrongdoing in:
(a) The supervision, hiring, employment, training
or monitoring of others by that insured; or
(b) Providing or failing to provide transportation
with respect to any person that may be
under the influence of alcohol;
if the “occurrence” which caused the “bodily injury”
or “property damage”, involved that which is described
in Paragraph (1), (2) or (3) above.
However, this exclusion applies only if you are in
the business of manufacturing, distributing, selling,
serving or furnishing alcoholic beverages. For the
purposes of this exclusion, permitting a person to
bring alcoholic beverages on your premises, for
consumption on your premises, whether or not a fee
is charged or a license is required for such activity, is

App.150a
not by itself considered the business of selling,
serving or furnishing alcoholic beverages.
d. Workers’ Compensation And Similar Laws
Any obligation of the insured under a workers’
compensation, disability benefits or unemployment
compensation law or any similar law.
e. Employer’s Liability
Bodily injury” to:
(1) An “employee” of the insured arising out of
and in the course of:
(a) Employment by the insured; or
(b) Performing duties related to the conduct
of the insured’s business; or
(2) The spouse, child, parent, brother or sister
of that “employee” as a consequence of Paragraph (1) above.
This exclusion applies whether the insured may
be liable as an employer or in any other capacity and
to any obligation to share damages with or repay
someone else who must pay damages because of the
injury.
This exclusion does not apply to liability assumed
by the insured under an “insured contract”.
ABUSIVE ACT LIABILITY COVERAGE FORM
Various provisions In this policy restrict coverage.
Read the entire policy carefully to determine rights,
duties and what Is and is not covered.
Throughout this policy the words “you” and “your”
refer to the Named Insured shown in the Declarations,

App.151a
and any other person or organization qualifying as a
Named Insured under this policy. The words “we”, “us”
and “our” refer to the company providing this Insurance.
The word Insured” means any person or organization qualifying as such under Section II-Who-Is An
Insured.
Other words and phrases that appear in quotation
marks have special meaning. Refer to Section VDefinitions.
Section I-Coverages Abusive Act Liability
1. Insuring Agreement
a Will pay “loss” because of “injury” resulting
from an “abusive act” to which this insurance
applies. We will have the right and duty to defend
the insured against any “suit” for ‘‘loss” resulting
from the “abusive act”. However, we will have no
duty to defend the insured against any “suit” for
“loss” to which this insurance does not apply. We
may, at our discretion, investigate and settle any
claim or “suit” that may result. But:
(1) The amount we will pay for “loss” is limited
as described in Section III-Limits Of Insurance; and
(2) Our right and duty to defend ends when we
have used up the applicable limit of Insurance In the payment of “loss”
No other obligation or liability to pay “losses” or
perform acts and services or pay any other
amounts Is covered unless explicitly provided for
under Supplementary Payments or Special Supplementary Payments.

App.152a
b. This insurance applies only if:
(1) The “injury” caused by an “abusive act”
begins during a “policy year” within the
“policy period”; and
(2) The “abusive act” that causes the “injury”
begins during the same “policy year”.
c. “injury” caused by an :abusive act” which begins
during any “policy year” Includes any continuation,
change or resumption of that ‘‘injury” from the
same “abusive act” after the end of that “policy
year.” Only the Limits of Insurance of the “policy
year” In which the “abusive act” begins will apply
to all such loss” because of “Injury” occurring
during and subsequent to that “policy year”.
d. ‘‘Loss” because of “Injury” Includes loss”
claimed by any person or organization for care, loss
of services, or death resulting at any time from the
“Injury”.
2. Exclusions
This insurance does not apply to:
a.

“Injury” for which the Insured Is obligated
to pay ‘loss’ by reason of the assumption of
liability under any contract or agreement,
except and then only to the extent that the
insured would have been liable in the
absence of such contract or agreement;

b.

Any claim made or “suit” brought by you or
on your behalf or in the name or right of any
insured, provided, however, this exclusion will
not apply to any claim made or “suit” brought
by a ‘Volunteer’;

App.153a
c.

Any claim or “suit” based upon, arising out
of or attributable, in whole or in part. to any
“abusive act” that was alleged in or formed
the basis of any litigation or claim that was
pending at any time prior to the effective
date of this Coverage Part;

d.

Any claim or “suit” based upon, arising out
of or attributable, in whole or in part, to any
“abusive act” of which any insured. Other
than any insured actually committing the
“abusive act”, has knowledge prior to the
effective date of this Coverage Part;

e.

Any obligation of the Insured under a
workers compensation, disability benefits or
unemployment compensation

f.

Any “abusive act” committed by an “employees” or “Volunteer” with a prior criminal conviction for an “abusive act”;

g.

Any person who actually or allegedly participated in. directed or knowingly allowed
any “abusive act”.

3. Supplementary Payments
We will pay, with respect to any claim we investigate or settle, or any “suit” against an insured we
defend:
a.

All expenses we-Incur.

b.

The cost of bonds to release attachments, but
only for bond amounts within the applicable
limit of insurance, We do not have to furnish
these bonds,

c.

All reasonable expenses incurred by the
insured at our request to assist us in the

App.154a
investigation or defense of the claim or “suit”,
including actual loss of earnings up to $250
a day because of time off from work.
d.

All costs taxed against the insured In the
“suit”.

e.

Prejudgment Interest awarded against the
insured on that part of the judgment we
pay. If we make an offer to pay the applicable
limit of Insurance, we will not pay any
prejudgment interest based on that period
of time after the offer.

f.

All Interest on the full amount of any Judgment that accrues after entry of the judgment and before we have paid, offered to
pay, or deposited in court the part of the
judgment that Is within the applicable limit
of insurance.

These payments will not reduce the limits of
Insurance.
4. Special Supplementary Payments
In addition to payments noted In Supplementary
Payments above, we will reimburse you, only with
respect to any claim or “suit” for an “abusive act” to
which this insurance applies, for the following expenses
you Incur:
a.

Your reasonable expenses incurred in conducting an Internal Investigation of or counseling relating to allegations of an “abusive
act”; and

b.

Your reasonable expenses in retaining the
services of a media consultant or public rela-

App.155a
tions professional in response to Allegations
of an “abusive act”.
These reimbursements will not reduce the Limits
of Insurance. However, the most we will reimburse
you for the sum of all such expenses, regardless of
the number of “abusive acts”, claimants, claims,
‘suits’ or insureds, is the Special Supplementary
Payment Limit shown in the Abusive Act
Liability Coverage Form Declarations. We have
no obligation to arrange for any of these services
or pay any of the service providers on your behalf.
Section II-Who Is An Insured
Each of the following is an insured:
1.

You, but only with respect to the conduct of
your business described in the Abusive Act
Liability Coverage Form Declarations;

2.

Your “employees”, directors, officers, trustees,
clergy, wardens, deacons, elders, teachers,
members of the vestry. members of the
board of trustees, members of standing committees, members of the board of governors
or members of the board of education, but
only while any of these persons is performing duties in the conduct of your business described in the Abusive Act Liability
Coverage Form Declarations. And

3.

Any “volunteer”, but only while performing,
with your consent, duties in the conduct of
your business described in the Abusive Act
Liability Coverage Form Declarations.

App.156a
Section III-Limits of Insurance
1. The Limits of Insurance shown in the Abusive
Act Liability Coverage Form Declarations and the rules
below fix the most we will pay regardless of the number
of:
a.

Insureds;

b.

Actual, alleged or threatened “abusive acts”;

c.

Claims made or “suits” brought; or

d.

Persons or organizations making claims or
bringing “suits”.

2. The Aggregate Limit Is the most we will pay
for the sum of all “loss” covered under this Coverage
Part with respect to any one. “Policy year,”
3. Subject to above, the Each Abusive Act Limit
Is the most we will pay for the sum of all “loss”
because of Injury” from any one “abusive act”. If any
“abusive act” or ‘Injury” resulting from that “abusive
act” occurs In more than one policy or “policy year”
that we have issued to you, we will pay the “loss”
arising from such “abusive act” from the limits of
Insurance of just the one “policy year” In which the
“abusive act” began. Should you not be able to determine exactly which “policy year” was in effect when
the “abusive act” began, you can designate the “policy
year” that you reasonably ·believe was in effect at
the beginning of the “abusive act” “loss”. We will pay
all such “loss” from only the limits of Insurance of that
designated “policy year”.
We will only pay “loss” In excess of the Each
Abusive Act Retention shown In the Abusive Act
Liability Coverage Form Declarations.

App.157a
Section IV-Conditions
1. Bankruptcy
Bankruptcy or Insolvency of the Insured or of
the Insured’s estate will not relieve us of our obligations
under this Coverage Part. However, this provision
shall not affect our ability to invoke any applicable
statute of Limitations statute of repose or similar
statute, common law principle or court rule on behalf
of the insured.
2. Duties In The Event of Abusive Act, Claim or Suit
a.

You will, as a condition precedent to your
rights under this Coverage Part, give to us
notice In writing of any ‘‘abusive act” or
“Injury” which may result In a claim or “suit”.
To the extant possible, notice should include:
(1) How, when and where the ‘‘abusive act”
took place;
(2) The names and addresses of any Injured
persons and any witnesses; and
(3) The nature and description of any
“Injury” arising out of the “abusive act”.

b.

If a claim Is made or ‘suit” Is brought
against any Insured, you must;
(1) Immediately record the specifics of the
claim or ‘‘suit” and the date received; and
(2) Notify us as soon as practicable.

You must see to It that we receive written notice
of the claim or “suit’ as soon as practicable.
c.

You will, as a condition precedent to your
.rights under this Coverage Part:

App.158a
(1) Immediately send us copies of any
demands, notices, summonses or legal
papers received In connection with the
claim or “suit”;
(2) Authorize us to obtain records and
other Information;
(3) Cooperate with us in the investigation
or settlement of the claim or defense
against the “suit”; and
(4) Assist us, upon our request, in the
enforcement of any right. against any
person or organization which may be
liable to the Insured because of “Injury”
to which this Insurance may also apply.
d.

No Insured will, except at that Insured’s
own cost, voluntarily make a payment,
assume any obligation, or Incur any expenses,
without our consent.

3. Legal Action Against Us
No person or organization has a right under this
Coverage Part:
a.

To Join us as a party or otherwise bring us
Into a claim or “suit” seeking “loss” from an
Insured; or

b.

To sue us on this Coverage Part unless all of
its terms have been fully complied with.

A person or organization may sue us to recover
on an agreed settlement or on a final Judgment against
an Insured, but we will not be liable for any amount
that is not payable under the terms of this Coverage
Part or that is in excess of the applicable limit of
insurance. An agreed settlement means a settlement

App.159a
and release of liability signed by us, the Insured and
the claimant or the claimant’s legal representative.
4. Other Insurance
If other valid and collectable Insurance is available
to the Insured for a “loss” covered under this Coverage
Part, our obligations ere limited as follows:
a. Primary Insurance
This insurance Is .primary when no other valid
and collectible Insurance is available to the Insured
for a “loss” we cover under this insurance.
b. Excess Insurance
Subject to c. below, if other valid and collectable
Insurance Is available to the Insured for a “loss” we
cover under this Insurance, this Insurance is excess
over that Insurance. When this insurance Is excess,
we will have no duty to defend the Insured against
any ‘‘suit” If any other insurer has a duty to defend
the Insured against that “suit”. if no other insurer
defends, we will undertake to do so, but we will be
entitled to the insured’s rights against all those other
insurers. We will pay only our share of the amount of
“loss”, If any, that exceeds the total amount that all
such other Insurance would pay for the “loss” In the
absence of this insurance.
At our request, you will provide us with detailed
Information regarding all other Insurance policies
that have been issued to you as well as all other
policies under which you could potentially seek
coverage If you chose to do so. Also, at our request,
you will tender any claim or “suit” that we designate
to any Insurer(s) that we designate, and cooperate
with us In seeking coverage (Including contribution

App.160a
and/or Indemnification of any amounts that we pay
under this policy) for such claim or “suit” from such
Insurer(s).
c. Non-Cumulation of Insurance
In no event may the Limit of Insurance available
under this policy be combined in any manner with the
limits of insurance of any other insurance written by
us or any of our affiliates.
These provisions do not apply to policies expressly
written to be excess of this policy.
5. Representations
By accepting this policy, you agree the statements
contained In the application and any documents or
information submitted with It are true, accurate and
complete, and that we have Issued this Coverage Part
in reliance upon those statements.
6. Separation of Insureds
Except with respect to the Limits of Insurance
and any rights or duties specifically assigned In this
Coverage Part to the first Named Insured, this insurance applies:
a.

As If each Named Insured were the only
Named Insured; and

b.

Separately to each insured against whom
claim is made or “suit” is brought.

7. Transfer of Rights of Recovery Against Others to Us
if the Insured has the right to recover all or part
of any payment we have made under this Coverage
Part, those rights are transferred to us: The insured

App.161a
must do nothing after the “loss” to Impair them. At
our request, the insured will bring litigation or other
proceedings, or transfer those rights to us and help
us to enforce them.
8. When live Do Not Renew
If we decide not to renew this Coverage Part, we
will mall or deliver to you written notice of the nonrenewal no less than 30 days before the expiration
date. If notice Is mailed, proof of mailing will be sufficient proof of notice.
Section V-Definitions
1. “Abusive a:ct” means any act or series of acts
of actual or threatened abuse or molestation done to
any person, resulting in “‘injury” to that person,
including any act or series of acts of actual. or
threatened sexual abuse or molestation done to any
person, resulting in “injury” to that person, by
anyone who causes or attempts to cause the person to
engage in a sexual act:
a.

Without the consent of or by threatening
the person. Placing the person in fear or
asserting undue influence over the person;

b.

If that person is incapable of appraising the
nature of the conduct or is physically
incapable of declining participation in or
communicating unwillingness to engage in
the sexual act; or

c.

By engaging in or attempting to engage in
lewd exposure of the body done with intent
to arouse or to satisfy the sexual desire of
any person.

App.162a
All interrelated or continuous “abusive acts”
committed by one person or persons acting in concert,
shall be deemed to be one “abusive act”.
2. “Employee” means a person employed by the
insured for compensation and Includes a “leased
worker”. “Employee” does not Include a ‘temporary
worker’’.
3. “Injury” means physical Injury, sickness,
disease, mental anguish, mental injury, shock or fright
or death of the person(s) who Is the subject of an
“abusive act”.
4. “Leased worker” means a person leased to you
by a labor leasing firm under an agreement between
you and the labor Leasing firm, to perform duties
related to the conduct of your business. “Leased worker”
does not include a “temporary worker”.
5. “Loss” means those sums that the insured is
legally obligated to pay as damages, provided, however,
that “loss” will not Include:
a.

Taxes, fines or penalties;

b.

Any damages awarded for punitive or exemplary purposes or any damages for which
the amount Is determined by the application
of a multiplier, where such amounts are not
Insurable under applicable law; or

c.

Any other sums that are uninsurable under
the applicable law.

All claims or “suits” based upon or arising out of
or In any way involving the same or related “abusive
act” or the same or related series of “abusive acts”,
shall be deemed to be a single “loss”.

App.163a
6. “Policy period” means the period of time from
the effective date to the expiration date shown in the
Abusive Acts Liability Coverage Form Declarations
or to any earlier date of termination.
7. ‘‘Policy year” means the period of one year
following the effective date of this policy or any
anniversary thereof or, if the time between the effective
date or any anniversary thereof and the termination
of the “policy period” is less than one year. such
lesser period.
8. “Suit” means a civil proceeding In which damages because of “Injury” to which this Insurance
applies are alleged. “Suit” Includes:
a.

An arbitration proceeding In which such damages are claimed end to which the Insured
must submit or does submit with our
consent; or

b.

Any other alternative dispute resolution proceeding In which such damages are claimed
and to which the Insured submits with our
consent.

9. “Temporary worker” means a person who is
furnished to you to substitute for a permanent
“employee” on ·leave or to meet seasonable or shortterm workload conditions.
10. “Volunteer” means a person who Is now your
“employee” and who donates his or her work and acts
at the direction of and within the scope of duties determined by you, and Is not paid a fee, salary or other
compensation by you or anyone else for their work
performed for you.

App.164a
LETTER FROM JAMES T. TEVIS
TO LINDA D’ALESSIO
(MARCH 6, 2012)

Linda D’Alessio
Polaris Galaxy Insurance, LLC
777 Terrace Avenue
Hasbrouck Heights, NJ 07604
Dear Linda:
The district received notification yesterday, March
5, 2012 that a former William Mason elementary
school teacher, Mr. Jason Fennes, has been arrested
and charged with criminal sexual conduct and endangering the welfare of a minor, both in the second
degree. The allegation dates back to 2005 and the
victim is a former student of his at the William
Mason elementary school in Montville. Mr. Fennes
resigned from district effective June 30, 2010.
Please notify our insurance carriers of this
potential claim and call me with any questions you
may have.
Sincerely yours,
James T. Tevis
School Business Administrator

App.165a
LETTER FROM JAMES T. TEVIS
TO LINDA D’ALESSIO
(SEPTEMBER 2, 2014)

Linda D’Alessio
Polaris Galaxy Insurance, LLC
777 Terrace Avenue
Hasbrouck Heights, NJ 07604
Dear Linda:
On March 6, 2012, I informed you that a former
Montville Township school district teacher, Jason
Fennes, had recently been arrested and charged with
criminal sexual conduct and endangering the welfare
of a minor, both in the second degree. You had placed
the districts insurance carriers on notice of a potential
claim nod the attached determination was received
by Allied World.
The district has now received the attached Complaint that was filed by Cedar · Hill Prep School
against the Montville Township Public Schools. Cedar
Hill Prep is currently facing a lawsuit by the parents
of a student who has alleged abuse by Fennes while
he was a teacher at that school, after his resignation
from our district on June 30, 2010.
Please notify our insurance carriers of this actual
claim and call me with any questions you may have.

App.166a
Sincerely Mr.
/s/ James T. Tevis
School Business Administrator

App.167a
LETTER FROM JAROD HOLTZ, ESQ.
TO MR. JAMES TEVIS
(MARCH 9, 2012)

Mr. James Tevis
Montville Township Public Schools
86 River Road
Montville, NJ 07045
Re: Our Insured: Montville Township Public
Schools
Claim No.: 912-0118721
Claimants: Unknown Minor Child
Dear Mr. Tevis:
This will serve to acknowledge receipt of notice
of the above claim that constitutes our first notice of
the above referenced matter. I am the individual who
will be handling this claim. Please forward any future
correspondence directly to me. Please be advised that
we are reviewing this matter and will advise you of
our coverage evaluation as soon as possible. As the
above claim may potentially implicate other policies,
please place all primary and excess carriers on notice
of the above claim and provide us with the contact
and policy information for those carriers.
Due to the limited information we have received
to date relative to this matter, our company must
generally reserve its rights under any insurance policies
that may have been issued to Pooled Insurance Program

App.168a
of New Jersey (Montville Township Public Schools)
by American Guarantee and Liability Insurance
Company. Nothing contained herein, and an actions
on the part of the company in investigating these
matters should be construed as an admission of
coverage or as a waiver of any right or defense that
may be available to our company under the terms and
conditions of the policies or applicable law.
Best regards,
American Guaranteed and Liability
Insurance Company
/s/ Jarod Holtz
Jarod Holtz, Esq
Mass Litigation Claims Specialist
Zurich North American Insurance
1400 American Lane
Schaumburg, IL 60196
847 413-5521
847 605-7811
jarod.holtz@zurichnn.com

App.169a
LETTER FROM ALEXANDRA T. ROWE
TO JAMES T. TEVIS
(JANUARY 29, 2015)

James T. Tevis
School Business Administrator/Board Secretary
Montville Township Public Schools
86 River Road
Montville, NJ 07045
Re: Insured: Montville Board of Education
Matter: Cedar Hill Prep School v. Montville
Township Public Schools and Montville
Board of Education;
Child M v. Fennes, et al.
Claim No.: 9120118721
Dear Mr. Tevis:
We write with regard to the request for coverage
by the Montville Township Public Schools, Montville
Board of Education, and the William Mason Elementary
School with regard to two lawsuits alleging Montville
is liable for the sexual molestation committed by a
former Montville teacher. For the reasons set forth
below, Zurich American Insurance Company (“ZAIC”)
and American Guarantee & Liability Insurance Company (“AGLIC,” and with ZAIC, “Zurich”) deny any obligation to defend or indemnify Montville in relation to
the two lawsuits.

App.170a
I. THE COMPLAINTS
This claim arises out of two lawsuits related to
the alleged sexual molestation of “Child M.” The lawsuit
entitled Child M v. Jason Fennes. et al., was brought
in the Superior Court of New Jersey, Law Division,
Middlesex County, under docket number MID-L6011-12 (the “Child M Action”). The Child M action
was brought by the child plaintiff and her parents
against Jason Fennes, who is the alleged perpetrator
of the sexual molestation; Cedar Hill Prep School
(“CHPS”); Montville Township Public Schools (“MTPS”);
Montville Board of Education (“MBOE”); and the
William Mason Elementary School (“WMES,” and
collectively with MIPS and MBOE, “Montville”). The
lawsuit entitled Cedar Hill Prep School v. Montville

Township Public Schools and Montville Board of
Education was also brought in the Superior Court of

New Jersey, Law Division, Middlesex County, under
docket number MID-L-4842-14 (the “CHPS Action”).
CHPS is the only plaintiff, and the MIPS and MBOE
are the only defendants in the CHPS Action.
The complaints in the Child M Action and the
CHPS Action (the “Child M Complaint” and “CHPS
Complaint,” respectively, and collectively the “Complaints”) generally allege the same facts with regard
to Montville’s complicity in the alleged molestation.
The Complaints allege that Jason Fennes was a
teacher at the WMES from September 1 998 to June
2010. The Complaints further allege that during his
tenure., Montville was made aware of improper and
inappropriate sexual conduct with minor students
perpetrated by Fennes as a teacher and track coach.
They assert that Montville failed to report the sexual
abuse to the proper authorities. The Complaints state

App.171a
that Montville suspended Fennes in March 2010. They
allege that Montville then entered into a settlement
agreement with him pursuant to which he resigned his
teaching position. The Complaints state that no
exchange for his resignation, Montville agreed that if
any of Fennes’ future employers asked for a reference,
Montville would only provide Fennes’ dates of employment.
The CHPS Complaint alleges that after Fennes
resigned from his teaching position with Montville,
he applied for a teaching position with CHPS. The
CHPS Complaint also alleges that, as part of its due
diligence, CHPS contacted Montville regarding Fennes,
and was only provided with information regarding his
teaching positions and dates of employment. The
Complaints state that Fennes was hired by CHPS in
September 2010. They state that Child M was a student
in Fennes’ class for the 201 1-12 school year. The
Complaints state that Child M reported that Fennes
sexually molested her in February 2012.
The CHPS Complaint contains two counts against
MTPS and MBOE. In the first count. and based on the
allegations discussed above, CHPS asserts that Fennes
was hired by the CHPS because the MTPS and
MBOE “failed to take appropriate action upon receipt
of notice and information concerning inappropriate
sexual conduct on the part of Jason Fennes towards
his students and track athletes that he coached.” The
first count further alleges that MTPS and MBOE
wrongfully entered into the settlement agreement
whereby they agreed to provide no information
regarding Fennes’ misconduct. CHPS asserts that it
hired Fennes as a result of the MTPS and MBOE’s
wrongful conduct, and demands contribution from the

App.172a
MTPS and MBOE pursuant to New Jersey’s Joint
Tortfeasor’s Contribution Act.
In CHPS’s second count, CHPS alleges that the
MTPS and MBOE acted in a careless and negligent
manner, which resulted in personal injuries to Child
M. CHPS asserts that its liability is secondary and
vicarious to that of the MTPS and MBOE, and seeks
indemnity from the MTPS and MBOE.
With regard to the Child M Complaint, the first
eight counts relate to Fennes’ alleged molestation of
Child M, and CHPS’s alleged acts and omissions with
regard to Fennes’ actions. The ninth and tenth counts
allege that Fennes was an employee of Montville. and
that during his tenure as a teacher and track coach
he engaged in negligent, careless, reckless and/or
intentional conduct, including inappropriate abusive
and/or sexual conduct with his students. The Child M
Complaint further alleges that Montville was on notice
of such improper conduct, and failed to report it to
the proper agencies and authorities in violation of
N.J.S.A. § 9:6-8.14, N.J.S.A. § 18A:6 et seq., and
N.J.S.A § l8A:29 et seq. The ninth and tenth counts
state that Child M sustained personal injuries as a
result of Montville’s negligence, carelessness, recklessness. and/or intentional conduct. The eleventh count
states that Child M was injured as a result of
Montville’s settlement agreement with Fennes in which
Montville agreed to limit the information it would
reveal regarding Fennes’ prior misconduct in exchange
for his resignation from Montville’s employ. The twelfth
count asserts that Montville controlled the hiring
and retention of Fennes, covered-up his acts, and
willfully caused and/or acted with reckless disregard
for the possibility that their actions would cause

App.173a
emotional distress, and that as a result of such conduct
caused Child M to suffer severe personal injuries.
II. THE ZURICH PRIMARY POLICIES
Montville qualifies as a named insured under
the following policies issued by ZAIC:


CPO 3701598-00; 7/1/04-7/1/05 (“’04-05 ZAIC
Policy”);



CPO 3701598-01; 7/1/05-7/1/06 (“’05-06 ZAIC
Policy”);



CPO 3701598-02; 7/1/06-7/1/07 (“’06-07 ZAIC
Policy”);



CPO 3701598-03; 7/1/07-7/1/08 (“’07-08 ZAIC
Policy”);



CPO 3701598-04; 7/1/08-7/1/09 (“’08-09 ZAIC
Policy,” and collectively, the “ZAIC Policies”).

The ZAIC Policies each have a $IM each occurrence
limit and a $2M aggregate limit. Montville also qualifies
as a named insured under the following policies issued
by AGLIC:


CPO 3701598-05; 7/1/09-7/1/10 (“’09-10 AGLIC
Policy”)



CPO 3701598-06; 7/1/10-7/1/11 (“’10-11 AGLIC
Policy”)



CPO 3701598-07; 7/1/1 1-7/1/12 (“’11-12 AGLIC
Policy”)



CPO 3701598-08; 7/1/12-7/1/13 (“’12-13 AGLIC
Policy”)



CPO 3701598-09; 7/1/13-7/1/14 (‘’13-14 AGLIC
Policy”)

App.174a


CPO 3701598-10; 7/1/14-7/1/15 (‘’14-15 AGLIC
Policy,” and collectively, the “AGLIC Policies”).

The AGLIC Policies’ CGL parts each have a $JM
per occurrence limit, and a $2M aggregate limit. The
AGLIC Policies’ abusive act liability coverage parts
each have a $1M each abusive act limit and a $2M
abusive act aggregate limit. The AGLIC Policies’
abusive act alleged participant coverage has a $IM
alleged participant each abusive act limit and a $2M
alleged participant aggregate limit.
The ZAIC Policies and the AGLIC Policies have
the following relevant provisions in the Commercial
General Liability Coverage Form:1
Section I-Coverages
COVERAGE A BODILY INJURY AND PROPERTY
DAMAGE LIABILITY
1.

Insuring Agreement

a. We will pay those sums that the insured
becomes legally obligated to pay as damages because
of “bodily injury” or “property damage” to which this
insurance applies. We will have the right and duty to
defend the insured against any “suit’’ seeking those
damages. However, we will have no duty to defend the
insured against any “suit” seeking damages for “bodily

1 The ’04-05 ZAIC Policy contains Form CG 00 01 10 01. The
’05:-06, ’06-07, and ’07-08 ZAIC Policies contain Form CG 00 OJ
12 04. The ’08-09 ZAIC Policy and AGLIC Policies, with the
exception of the ’14-15 AGLIC Policy, contain Form CG 00 01 12
07. The ’14-15 AGLIC Policy contains Form CG 00 01 04 13. All
forms have the same relevant policy language.

App.175a
injury” or “property damage” to which this insurance
does not apply. . . .
b. This insurance applies to “bodily injury” and
“property damage” only if:
(1) The “bodily injury” or “property damage” is
caused by an “occurrence” that takes place in
the “coverage territory”;
(2) The “bodily injury” or “property damage”
occurs during the policy period;. . . .
[***]
2.

Exclusions
This insurance does not apply to:
a. Expected Or Intended Injury
“Bodily injury” or “property damage” expected or intended from the standpoint of the
insured. . . .
[***]

Section V-Definitions
13. “Occurrence” means an accident, including
continuous or repeated exposure to substantially the
same general harmful conditions.
The ZAIC Policies and the AGLIC Policies contain
the following endorsement entitled “Bodily Injury
Redefined” (U-GL-1055-A CW (12/01)) that states:
The definition of “bodily injury” in SECTION V-DEFINITION is replaced by the
following:

App.176a
3.

“Bodily injury” means bodily injury,
sickness or disease sustained by a person.
This includes mental anguish, mental injury,
shock, fright or death resulting from bodily
injury, sickness or disease.

The ZAIC Policies and AGLIC Policies, with the
exception of the ’13-14 and ’14-15 AGLIC Policies,
each contain an endorsement entitled “Title 18A–
Defense Reimbursement (“Title 18A Endorsement”).
Each of the Title 18A Endorsements are substantially
similar to the Title 18A Endorsement contained in
the ’04-05 ZAIC Policy that states:
The following is added to Section I-COVERAGE,
COVERAGE A BODILY INJURY AND PROPERTY
DAMAGE LIABILITY, 1. Insuring Agreement:
f.

We shall reimburse those sums that the
insured becomes legally obligated to pay by
reasons imposed by the New Jersey compiled
statutes know as Title 18A: 16:6, 1 8A: 166.1 and 18A: 12-20 including any amendments
or revisions thereto.
The most we will pay fat the sum of all
claims for reimbursement shall be $50,000
in any one policy period. The Limits of Insurance do not apply to this defense reimbursement expenses.

The AGLIC Policies also contain an endorsement
entitled “Abusive Act Liability Exclusion” (U-GL-1250ACW (09/05) («Abusive Act Exclusion”) that states:
A.

The following exclusion is added to paragraph 2. Exclusion of Section I-Coverage ABodily Injury And Property Damages Liabi-

App.177a
lity and paragraph 2. Exclusion of Section ICoverage B-Personal And Advertising
Injury Liability:

B.

1.

This insurance does not apply to “bodily
injury”, “property damage” or “personal
and advertising injury” arising out of or
relating in any way to an “abusive act”;
or

2.

Any loss, cost or expense arising out of
or relating in any way to an “abusive act’’.

For purposes of this .endorsement, the following additional definition applies:
1.

“Abusive act” means any act or series of
acts of actual or threatened abuse or
molestation done to any person, including
any act or series of acts of actual or
threatened sexual abuse or molestation
done to any person by anyone who causes
or attempts to cause the person to engage
in a sexual act:
a.

Without the consent of or by threatening the person, placing the person
in fear or asserting undue influence
over the person;

b.

If that person is incapable of appraising the nature of the conduct or is
physically incapable of declining
participation in or communicating
unwillingness to engage in the sexual
act; or

c.

By engaging in or attempting to
engage in lewd exposure of the body

App.178a
done with intent to arouse or to
satisfy the sexual desire of any
person.
The AGUC Policies also contain an endorsement
entitled “Abusive Act Liability Coverage Form” (UGL-1275-A CW (04/06) (“Abusive Act Coverage”) that
states:
Section I-Coverages Abusive Act Liability
1. Insuring Agreement
a Will pay “loss” because of “injury” resulting
from an “abusive act” to which this insurance
applies. We will have the right and duty to defend
the insured against any “suit” for ‘‘loss” resulting
from the “abusive act”. However, we will have no
duty to defend the insured against any “suit” for
“loss” to which this insurance does not apply. We
may, at our discretion, investigate and settle any
claim or “suit” that may result. . . .
[***]
b. This insurance applies only if:
(1) The “injury” caused by an “abusive act”
begins during a “policy year” within the “policy
period”; and
(2) The “abusive act” that causes the “injury”
begins during the same “policy year”.
[* * * ]
2. Exclusions
This insurance does not apply to:

App.179a
c.

Any claim or “suit” based upon, arising out
of or attributable, in whole or in part. to any
“abusive act” that was alleged in or formed
the basis of any litigation or claim that was
pending at any time prior to the effective
date of this Coverage Part;
[* * * ]

d.

Any claim or “suit” based upon, arising out
of or attributable, in whole or in part, to any
“abusive act” of which any insured. Other
than any insured actually committing the
“abusive act”, has knowledge prior to the
effective date of this Coverage Part;
[* * * ]

g.

Any person who actually or allegedly participated in. directed or knowingly allowed
any “abusive act”.

Section II-Who Is An Insured
Each of the following is an insured:
1.

You, but only with respect to the conduct of
your business described in the Abusive Act
Liability Coverage Form Declarations;

2.

Your “employees”, directors, officers, trustees, clergy, wardens, deacons, elders, teachers, members of the vestry. members of
the board of trustees, members of standing
committees, members of the board of
governors or members of the board of education, but only while any of these persons is
performing duties in the conduct of your

App.180a
business described in the Abusive Act
Liability Coverage Form Declarations.
Section V-Definitions
1. “Abusive a:ct” means any act or series of acts
of actual or threatened abuse or molestation done to
any person, resulting in “‘injury” to that person,
including any act or series of acts of actual. or
threatened sexual abuse or molestation done to any
person, resulting in “injury” to that person, by anyone
who causes or attempts to cause the person to engage
in a sexual act:
a.

Without the consent of or by threatening
the person. Placing the person in fear or
asserting undue influence over the person;

b.

If that person is incapable of appraising the
nature of the conduct or is physically incapable of declining participation in or communicating unwillingness to engage in the sexual
act; or

c.

By engaging in or attempting to engage in
lewd exposure of the body done with intent
to arouse or to satisfy the sexual desire of
any person.

All interrelated or continuous “abusive acts”
committed by one person or persons acting in concert,
shall be deemed to be one “abusive act”.
[ * * *]
3. “Injury” means physical injury, sickness,
disease, mental anguish, mental injury, shock or fright
or death of the person(s) who is the subject of an
“abusive act”.

App.181a
[ * * *]
5. “Loss” means those sums that the insured is
legally obligated to pay as damages, provided, however,
that “loss” will not include:
a.

Taxes, fines or penalties;

b.

Any damages awarded for punitive or
exemplary purpose or any damages for
which the amount is determined by the application of a multiplier, where such amounts
are not insurable under applicable law; or

c.

Any other sums that are uninsurable under
the applicable law.

All claims or “suits” based upon or arising out of
or in any way involving the same or related “abusive
act” or the same or related series of “abusive acts”,
shall be deemed to be a single “loss”.
The AGLIC Policies also contain an endorsement
entitled “Abusive Act Alleged Participant Coverage”
(U-GL-1353-A CW (06/08)) (“Alleged Participant
Coverage”) that states:
Solely with respect to an “alleged participant”,
the Schedule above and the following changes apply
to the Abusive Act Liability Coverage Form:
A. For the purposes of this endorsement, Paragraph 1., Insuring Agreement of Section I-Coverages
is replaced by the following:
1.

Abusive Act Alleged Participant Coverage
a.

We will pay “(defense expenses” and “settlement” because of “injury” resulting from an
“abusive act” caused by an ‘“alleged partici-

App.182a
pant” to which this insurance apples. We
will have the right and duty to defend the
“alleged participant” against any “suit” for
“injury” resulting from the “abusive act”,
and we will pay “defense expenses” with
respect to any such “suit” we defend. However,
we will have no duty to defend the “alleged
participant” against any “suit” for “injury”
to which this insurance does not apply. We
may, at our discretion, investigate and settle
any claim or “suit” that may result. . . .
b.

This insurance applies only if:
(1) The ‘‘injury” caused by an “abusive act”
begins during a “policy year” within the
“policy period”;
(2) The “abusive act” that causes the “injury”
begins during the same “policy year”; and
(3) Coverage is not otherwise provided to
an “alleged participant” under the Abusive Act Liability coverage Form.

B. For the purposes of this endorsement, Exclusion
g. of Paragraph 2., Exclusions of Section I-Coverages
does not apply.
F. For purposes of this endorsement, the following
definitions are added to Section V-Definitions:
“Alleged participant” means any insured
“employee” or “volunteer’· who allegedly participated in, directed or knowingly allowed any
“abusive act”.

App.183a
The Schedule referred to in the Alleged Participant
Coverage states the limits available under the coverage
are provided by endorsement.
III. THE AGLIC UMBRELLA POLICIES
AGLIC issued three Commercial Umbrella
Liability Policies under which Montville qualifies as
all insured. The policies are:


UMB 9063305 00; 7/1/11-7/1/12 (“’11-12 Umbrella Policy”)



UMB 9063305 01; 7/1)12-7/1/13 (“’12-13 Umbrella Policy”)



UMB 9063305 02; 7/1/13-7/1/14 (“’13-14 Umbrella Policy,” and collectively, the “Umbrella
Policies”).

The Umbrella Policies each have a $9M per
occurrence limit and a $10,000 retained limit The
Umbrella Policies also include schedules of underlying
insurance that list, among others, the AGLIC primary
CGL Coverage, the Abusive Act Coverage in the AGLIC
primary policies, and Educators Legal Liability
Coverage (“Educators Coverage”) issued by Darwin
National Assurance Company (“Darwin”) in the
respective policy years.
The Umbrella Policies have the following relevant
provisions in The coverage form (U-UMB-1 03-C CW
(03/10)):

App.184a
Section I. Coverage
A. Coverage A-Excess Follow Form Liability
Insurance
Under Coverage A, we will pay on behalf of the
insured those damages covered by this insurance in
excess of the total applicable limits of underlying
insurance. With respect to Coverage A, this policy includes:
1.

The terms and conditions of underlying
insurance to the extent such terms and
conditions are not inconsistent or do not
conflict with the terms and conditions referred
to in Paragraph 2. below; and

2. The terms and conditions that apply to
Coverage A of this policy.
Notwithstanding anything to the contrary
contained above, if underlying insurance
does not apply to damages, for reasons other
than exhaustion of applicable Limits of
Insurance by payment of loss, then Coverage
A does not apply to such damages. Also,
Coverage A does not apply to any form of
casualty business crisis expense insurance
even if such insurance is afforded under
underlying insurance or would have been
afforded except for the exhaustion of the
Limits of Insurance of underlying insurance.
B. Coverage B-Umbrella Liability Insurance
Under Coverage B, we will pay on behalf of the
insured those damages the insured becomes legally
obligated to pay by reason of liability:

App.185a
1.

Imposed by law because of bodily injury,
property damage, or personal and advertising
injury . . .

covered by this insurance but only if the injury;
damage or offense arises out of your business. takes
place during the policy period of this policy and is
caused by an occurrence happening anywhere. We
will pay such damages in excess of the Retained Limit
specified in Item 5. of the Declarations or the amount
payable by other insurance, whichever is greater.
Coverage B does not apply to any loss, claim or suit
for which insurance is afforded under underlying
insurance or would have been afforded except for the
exhaustion of the Limits of Insurance of underlying
insurance.
[ * * *]
C. Coverage C-Casualty Business Crises Expense
Under Coverage C, we will pay for casualty business crisis expense regardless of fault arising from a
casualty business crisis first commencing during the
policy period. . . .
[ * * *]
Section IV. Exclusions
C Under Coverage B this policy does not apply
to:
[ * * *]
Intentional Injury
4. Bodily Injury or property damage expected or
intended from the standpoint of the insured. . . .

App.186a
[ * * *]
Section V. Definitions
A. The following definitions are applicable to
Coverage A, Coverage B and Coverage C.
[ * * *]
7. Underlying insurance means the policy or
policies of insurance listed in the Schedule of
Underlying Insurance forming a part of this policy.
We will only be liable for amounts in excess of the
Limits of Insurance shown in the Schedule of Underlying Insurance for any underlying insurance.
[ * * *]
C. The following definitions are applicable to
Coverage B only:
[ * * *]
11. Occurrence means:
a. With respect to bodily injury or property damage
liability. an accident, including continuous or repeated
exposure to substantially the same general harmful
conditions.
[ * * *]
D. The following definitions are applicable to
Coverage C only:
1. Casualty business crisis means an event that
in the good faith opinion of your principal, in the
absence of casualty business crises services, has been
or may be associated with:
a.

Damages covered by this policy under
Coverage A that are in excess of the appli-

App.187a
cable limits of underlying insurance or
under Coverage B that are in excess of the
Retained Limit; and
b.

Significant adverse regional or national
media coverage.
Casualty business Crisis shall include,
without limitation, man-made disasters such
as explosions, major crashes, multiple deaths
or injuries, burns, dismemberment, traumatic brain injury, paraplegia, or contamination of food, drink or pharmaceuticals. . . .

The Umbrella Policies also contain a “Punitive
Damages Exclusion Endorsement” (U-UMB-234-A
CW (7/99)), which states:
Under Coverage A and Coverage B this
policy does not apply to punitive, treble or
exemplary damages, whether or not such
punitive, treble or exemplary damages arise
out of any obligation to share damages with
or repay someone else who must pay damages.
The Umbrella Policies also contain an endorsement
entitled “School Board Errors and Omissions Follow
Form” (U-UMB-242-A CW (7/99)) (“School Board
Endorsement”) that states:
Under Coverage B only, this policy does not
apply to any liability, damage, loss, cost or
expense arising out of any breach of duty,
negligent act, error or omission of any
insured or of any person for whose acts any
insured is legally liable while acting as an
officer, director, trustee or member of any
school board, school district or school organ-

App.188a
ization.
IV. DISCLAIMER AND RESERVATION
OF RIGHTS AS TO THE ZAIC
AND AGLIC POLICIES
The ZAIC Policies have one potentially applicable
coverage part: the CGL Coverage. The AGLIC Policies
have three potentially applicable coverage parts: the
CGL Coverage, the Abusive Acts Coverage. and the
Alleged Participant Coverage. We address each
coverage part in turn.
A. The CGL Coverage Part
1. Bodily Injury During the Policy Period
For coverage to attach under the CGL Coverage
of the ZAIC and AGLIC Policies, there must be “bodily
injury” during the policy period caused by an
“occurrence.” Although the Complaints allege there
were multiple prior instances of sexual abuse against
other children, both Complaints only seek recovery
for injury to Child M that began when she was allegedly
molested in or about February 2012. Further, although
both Complaints include allegations related to
Montville’s Failure to report Fennes’ misconduct and
its settlement agreement with him, neither of those
acts would qualify as “bodily injury” so as to trigger
coverage under policies in effect when these acts took
place. Zurich therefore disclaims any obligation to
defend or indemnify Montville under the COL Coverage
of the ZAIC Policies and the ’09-10, ’10-11, ’12-13,
’13-14, and, ’14-15 AGLIC Policies.

App.189a
2. Occurrence and the Expected or Intended
Exclusion
For coverage to attach under the ZAIC and AGLIC
Policies, the “bodily injury” must be caused by an
‘‘occurrence.” As relevant here, “occurrence” is defined
as an accident. The ZAIC and AGLIC Policies also
include an exclusion for “bodily injury” expected or
intended from the standpoint of the insured.
Here, both Complaints are replete with allegations
that Montville knew of Fennes’ sexual misconduct for
years, but failed to take any action against him,
including reporting his sexual misconduct pursuant
to New Jersey law. For example. the CHPS Complaint
alleges that “Montville failed to take appropriate
action upon receipt of notice and information concerning
inappropriate sexual conduct on the part of Jason
Fennes towards his students. . . . ” Further, the Child
M Complaint alleges that “Montville [was] on notice
of [Fennes’ inappropriate abusive and/or sexual conduct
with his infant students.]” In addition, the Complaints
allege that Montville entered into a settlement
agreement with Fennes in which it agreed not to report
his sexual misconduct to other potential employers.
Zurich therefore reserves its rights to disclaim coverage
under the CGL Coverage of the ZAIC and AGLIC
Policies to the extent Montville’s actions were
intentional and/or not accidental, and to the extent
Montville expected or intended any injury.
3. Abusive Act Exclusion
The Abusive Act Exclusion in the AGLIC Policies
precludes coverage for bodily injury “arising out of or
relating in any way to an ‘abusive act.”‘ The definition
of ‘·abusive act” in the exclusion encompasses actual

App.190a
or threatened abuse or molestation done to any person,
including actual or threatened sexual abuse or
molestation done to any person by anyone who causes
or attempts to cause the person to engage in a sexual
act. Fennes’ alleged sexual acts against Child M clearly
constitute “abusive acts” as defined in this exclusion.
Child M’s injuries also ‘arise out of’ and “relate” to
Fennes’ alleged abusive acts towards her. Zurich
disclaims any obligation to defend or indemnify
Montville under the CGL Coverage of the AGLIC
Policies pursuant to the Abusive Act Exclusion.
4. Title 18A Endorsement.
The Title 18A Endorsement states that Zurich will
reimburse Montville for amounts that Montville must
pay pursuant to Title 18A: 16-6; 18A:16-6.1; and 18A:
12-20. These statutes generally require a board of
education to pay the defense costs of any person holding
any office, position or employment under the jurisdiction
of the board, and for any board member, for any civil
action, administrative action, or other legal proceeding,
or criminal or quasi-criminal proceeding in which
there is a disposition in favor of the accused, for any
act or omission arising out of and in the course of the
performance of the duties of such position. Here, no
individual employees or board members have been sued
by CHPS or Child M. Therefore, these statutes are
not triggered. Consequently, Zurich reserves its rights
to address coverage under the Title 18A Endorsement
if and when claims that trigger the statutes are alleged.

App.191a
B.

Abusive Act Coverage
1. Insuring Agreement

The insuring agreement in the Abusive Act
Coverage states that Zurich “will pay loss” because of
‘injury’ resulting from an ‘abusive act’ to which this
insurance applies.” As relevant to Montville, the crux
of both the Child M Complaint and the CHPS Complaint is that Montville is responsible for Child M’s
injuries because it failed to report Fennes to the
proper authorities. The alleged acts of abuse against
Child M, though, were committed by Fennes while he
was an employee of CHPS and while she was a student
at CHPS. Zurich reserves its rights to disclaim coverage
under the Abusive Act. Coverage of the AGLIC Policies
to the extent the coverage requirements of the insuring
agreement have not been met.
Secondly, for the Abusive Act Coverage to apply,
the “abusive act” and “injury” must both begin during
the same policy year. Here, both the “abusive act”
against Child M and the “injury” to Child M allegedly
began in February 2012. As such, Zurich disclaims
coverage under the Abusive Act Coverage of the ’0910, ’10-11, ’12-13, ’13-14, and ’14-15 AGLIC Policies.
2. Exclusion
c. Prior Claims or Litigation Involving Abusive
Acts
The Abusive Act Coverage contains an exclusion
for any claim or suit based upon, arising out of or
attributable to “any ‘abusive act’’’ that was alleged in
or formed the basis of any litigation or claim that
was pending prior to the inception of the Abusive Act

App.192a
Coverage, which is the inception of each respective
AGLIC Policy. If you are aware of any litigation or
claims involving Fennes’ alleged sexual abuse prior
to Child M’s allegations, please provide us with such
information. Zurich reserves its rights to disclaim
coverage under the Abusive Act Coverage pursuant to
this exclusion for the ’09-10, ’l0-11, and ’11-12 AGLIC
Policies. and disclaims coverage under the Abusive
Act Coverage pursuant to this exclusion for the ’1213, ’13-14, and ’14-15 AGLIC Policies.
d. Prior Knowledge of Abusive Acts
The Abusive Act Coverage also contains an
exclusion for any claim or suit based upon, arising
out of or attributable to “any ‘abusive act’’’ of which
any insured, other than any insured actually committing the “abusive act,” bas knowledge prior to the
effective date of the Abusive Act Coverage, The
claims against Montville in the Child M and CHPS
Complaints are both founded on Fennes’ alleged abusive
acts while committed at Montville. Further, both
Complaints include allegations, and indeed Montville’s
liability is premised on, Montville’s knowledge of
Fennes’ abusive acts while he worked for Montville.
Because of the application of this exclusion, Zurich
disclaims any obligation to defend or indemnify
Montville in relation to the Complaints under the
Abusive Act Coverage of all of the AGL IC Policies.
g. Participation, Direction, or Knowingly
Allow Abusive Acts
The Abusive Act Coverage also contains an
exclusion that precludes coverage for any person who
actually or allegedly participated ln, directed or

App.193a
knowingly allowed any “abusive act,” To the extent
Montville knew about and allowed Fennes to commit
abusive acts, Zurich reserves its rights to disclaim
coverage under the Abusive Act Coverage of all of the
AGLIC Policies.
C.

Alleged Participant Coverage

The Alleged Participant Coverage provides certain
coverage to an “alleged participant” for injury resulting
from an “abusive act” until one of several events,
such as a criminal conviction or guilty plea, causes
the termination of coverage. The definition of “alleged
participant” includes any insured “employee” or
“volunteer” who allegedly participated in. directed or
knowingly allowed any “abusive act” There are no
claims against any of Montville’s “employees” or
“volunteers.” Instead, all of the claims against Montville
are against entities, such as the MBOE and MTPS.
These entities would not qualify as “employees” or
“volunteers.” Because coverage under the Alleged
Participant Coverage is limited to “employees” or
“volunteers’’ of Montville, Zurich disclaims any obligation to defend or indemnify Montville under the
Alleged Participant Coverage.
In addition, the Alleged Participant Coverage
includes the same definition of “abusive act,” and
includes the same limitation that the “injury” and
“abusive act” both must begin in the same policy year.
Zurich incorporates its discussion related to the
definition of “abusive act” and the timing of the
“injury” and “abusive act” as set forth above. Because
the “abusive act” and “injury” began in February 2012,
Zurich further disclaims coverage under the Alleged

App.194a
Participation Coverage for the ’09-10, ’10-11, ’12-13,
’13-14, and ’14-15 AGLIC Policies.
The Alleged Participant Coverage also incorporates
the same exclusions as the Abusive Act Coverage
discussed above. Zurich disclaims coverage and reserves
its rights wider the Alleged Participant Coverage for
the reasons as set forth above related to Abusive Act
Coverage for each respective policy year.
V. DISCLAIMER AND RESERVATION OF
RIGHTS AS TO THE UMBRELLA POLICIES
A.

Coverage A

Coverage A in the Umbrella Policies provides
excess follow form coverage to the policies set forth in
their respective schedules of underlying policies. As
discussed above, no coverage is available under the
AGLIC CGL Coverage, Abusive Acts Coverage, or
Alleged Participants Coverage. Further. we have been
informed that Montville’s primary errors and omissions
insurer, Darwin, has also disclaimed coverage. In
light of these disclaimers, no coverage is available
under Coverage A of the Umbrella Policies.
B.

Coverage B
1. The Coverage Grant

Coverage B provides umbrella coverage for certain
damages that are not covered by underlying insurance.
For Coverage B to apply, the injury, damage or offense
must: 1) arise out of Montville’s business; 2) take
place during the policy period of this policy; and 3) be
caused by an occurrence happening anywhere. We
address each in turn.

App.195a
First, for Coverage B to apply, the injury, damage
or offense must arise out of Montville’s business.
Here, the allegations in the Complaints are that
Montville is liable for Child M’s injuries because it
“‘covered-up” Fennes’ prior sexual misconduct when
it failed to report him to the proper authorities and
entered into a settlement agreement with him. “Covering-up” a teacher’s sexual misconduct likely falls
outside of a school’s business of educating students.
Zurich reserves its rights to disclaim coverage under
Coverage B of the Umbrella Policies to the extent Child
M’s injuries do not arise out of Montville’s business.
With regard to the second requirement of Coverage
B, the Umbrella Policies require that the injury take
place during the policy period. As discussed above,
Child M’s injury began in February 2012. Zurich
therefore disclaims coverage under Coverage B for
the ’12-13 and ’13-14 Umbrella Policies.
Third, the Umbrella Policies, like the ZAIC and
AGLIC Policies, require the operative Injury to be
caused by an “occurrence.” Further, the Umbrella
Policies contain the same definition of “occurrence,”
and include .the same exclusion for expected or intended
injuries as the ZAIC and AGLIC Policies. Zurich
reserves its rights Under the Umbrella Policies with
regard to these provisions for the reasons discussed
above in relation to the ZAIC and AGLIC Policies.
2. The School Board Endorsement
The School Board .Endorsement states:
Under Coverage B only, this policy does not
apply to any liability, damage, loss, cost or
expense arising out of any breach of duty,

App.196a
negligent act, error or omission of any
insured or of any person for whose acts any
insured is legally liable while acting as an
officer, director, trustee or member of any
school board, school district or school organization.
Here, the Complaints seek to hold Montville liable
for Montville’s failure to report and disclose Fennes’
alleged sexual abuse while he was employed at
Montville. Montville had a statutory duty to disclose
the alleged abuse, and allegedly breached that duty.
Montville also had a duty not to cause injury to any
person, including Child M. Further, the Complaints
specifically seek damages because of Montville’s alleged
breach of its duty to report, and its other negligent
acts. errors, and omissions. Coverage for these allegations is precluded by the School Board Endorsement.
Because all of the allegations in the Complaints
against Montville seek to hold Montville responsible
for its alleged breaches of duty, negligent acts, errors,
and omissions, coverage is precluded under Coverage
B of all Umbrella Policies.
C.

Coverage C

Coverage C provides coverage for “casualty business crisis,” which means an “event [that] has been
or may be associated with . . . damages covered by
this policy Under Coverage A . . . or under Coverage
B . . . ” As discussed above, there is no coverage available under Coverage A or Coverage B. Consequently,
there is no coverage available under Coverage C of
the Umbrella Policies. Further, the definition of
“casualty business crises” states that it includes, without limitation, certain enumerated events or injuries

App.197a
that do not encompass sexual molestation. Because
the acts and injuries here relate to sexual molestation, Zurich has no obligations under Coverage C of
the Umbrella Policies.
D. No Coverage Is Available for Punitive Damages
The Child M complaint seeks punitive damages
from Montville. Each of the Umbrella Policies includes
an exclusion for punitive damages that applies to all
coverage parts. Further, punitive damage awards are
uninsurable under New Jersey Jaw. For these reasons,
Zurich disclaims any obligation to indemnify Montville
for punitive damages under the Umbrella Policies.
VI. CONCLUSION
In conclusion, Zurich disclaims coverage as follows:


Under the CGL Coverage of the ZAIC Policies
(the only coverage at issue in these policies)
because there was no bodily injury during the
ZAIC Policies’ policy periods;



Under the CGL Coverage of the AGLIC Policies,
with the exception of the ’11-12 AGLIC Policy,
because there was no bodily injury during the
policy periods;



Under the CGL Coverage of the AGLIC
Policies due to the application of the Abusive
Act Exclusion;



Under the Abusive Act Coverage and Alleged
Participant Coverage of the AGLIC Policies,
with the exception of the ’11-12 AGLIC Policy,
because the injury and abusive act did not occur
in the same policy year;

App.198a


Under the Abusive Act Coverage and Alleged
Participant Coverage of the AGLIC Policies due
to the application of the exclusion for prior
knowledge of abusive acts.



Under the Abusive Act Coverage and Alleged
Participant Coverage of the ’12-13, ’13-14,
and ’14-15 AGLIC Policies due to the application
of the exclusion for prior claims or litigation
involving abusive acts;



Under the Alleged Participant Coverage of all
of the AGLIC Policies because Montville is not
an “employee” or “volunteer”;



Under Coverage A of the Umbrella Policies
because there is no coverage available wider the
scheduled underlying insurance;



Under Coverage B of the ’12-11 and ’13-14
Umbrella Policies because there was no bodily
injury during those policy periods;



Under. Coverage B of the Umbrella Policies
because of the operation of the School Board
Endorsement;



Under Coverage C of the Umbrella Policies
because no coverage is available under Coverage
A or B of the Umbrella Policies; and



Under Coverage C of all of the Umbrella Policies
because sexual molestation does not fail within
the definition of a “casualty business crises.”

In addition to these grounds for disclaimer, Zurich
reserves its rights as discussed above. Further, Zurich
requests that Montville provide the information
requested above, and also provide copies of all other

App.199a
policies under which it has sought coverage and any
coverage position letters issued other insurers from
which Montville has sought coverage, including Darwin.
This disclaimer and reservation of rights are based
on facts and circumstances known at this time. Zurich
does not waive the right to raise other facts, terms,
conditions, and/or exclusions that may become
applicable to the claims presented as they become
known to Zurich. In the event Zurich does not specify
herein a basis upon which coverage may be further
disclaimed or limited, it is not done with the intention
of waiving such basis and Zurich specifically reserves
its rights to rely on such other basis, whether that
basis relates to facts or policy language, at some
future date if and when appropriate. Should Montville
come into the possession of any new or additional
information at any time that it believes would affect
Zurich’s coverage position, please submit said information for our review and consideration.
Please contact the undersigned should you have
any questions or wish to further discuss this matter.
Regards,
Zurich American Insurance
Company
American Guarantee & Liability
Insurance Company
/s/ Alexandra T. Rowe
Mass Litigation Claim Specialist
(847) 969-4638

